                              MESSAGE FROM THE
                             INSPECTOR GENERAL


A      bout 5 years ago, the National Performance Review was undertaken to change the
       way the Federal Government operated. As “agents ofpositive change” whose
mission is to promote precisely the type of government that the public is demanding, the
Office of Inspector General (OIG), through its audit and investigative activities, plays a
critical role in responding to the public’s demands for accountability and in reinventing
and improving Government operations.

To assist in meeting its statutory mission and its strategic goals, OIG has provided
proactive, independent, and objective evaluations of the economy, efficiency, and
effectiveness of Department of the Interior (DOI) programs and operations during this
6-month period. As part of our shared commitment with DO1 to improve program
operations, we are providing, or have provided, technical and audit assistance through
participation on several DO1 task forces or working groups formed to address issues in
the areas of the year 2000 computer problem, the use of the Governmentwide purchase
card, and settlement of a lawsuit involving indirect costs provided to Indian tribes for
administering their Federal programs.

As part of our continuing efforts to foster an effective working relationship, we have also
asked DOI, bureau, and insular area government officials to participate in our planning
process by providing audit suggestions that will both benefit the agencies and focus our
resources on those areas most critically in need of an independent assessment.

In addition to our planned activities, we are, with increasing frequency, responding to
requests to initiate audits and investigations of DO1 programs and operations. On the
audit side, we have reviewed the reported maintenance backlog of two bureaus and
selected maintenance activities at a national battlefield at the request of members of the
Congress. OIG auditors and investigators are participating in 10 joint audit-investigative
activities and on 12 task forces formed by U.S. Attorneys and other Federal agencies
throughout the continental United States and the insular areas to investigate allegations of
fraud, public corruption, and the misappropriation of funds.




            Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998               i
On the investigative side, OIG is providing proactive technical assistance in partnership
with all DO1 bureaus to more effectively combat fraud, waste, and abuse. In that regard,
we are continuing with the Fraud Awareness outreach program, which we instituted more
than 3 years ago to familiarize DO1 employees with the work of OIG so that the reporting
of fraud is increased by those in the best position to detect it--the employees actually
involved in administering DOI’s programs. During this semiannual period, we have
given 34 Fraud Awareness presentations to a broad range of employee groups, including
National Park Service rangers and Minerals Management Service staff involved in
collecting mineral royalties.

While executing our statutory audit and investigative responsibilities, we are also
pursuing our strategic goal of improving our own operations by constantly assessing our
day-to-day activities and establishing performance measures to evaluate our progress
toward providing quality and valuable services to our stakeholders and an efficient and
effective workplace environment for OIG employees. For example, one of the primary
purposes of our reports of investigation is to assist DO1 managers in determining whether
administrative action to discipline an employee, change a procedure, or rewrite policy is
appropriate. In that regard, each report is accompanied by a rating sheet that invites
bureau managers to assess the report in terms of its clarity and effectiveness in resolving
the allegations.

As stated by the Vice President in his recent message to Federal workers, “Today, the
reinventing government initiative is the longest running and most successful government
reform effort in history.” OIG is proud to be part of this successful initiative and will
continue to improve and change to meet the public’s demands for a more efficient and
effective Government.

On a personal note, Mr. Lennox Leonard Young, 3 1, a Management Analyst for OIG,
died on March 9, 1998. From October 1994 to February 1998, Mr. Young created the
format and design of the Semiannual Report and was responsible for its production and
publication. The unexpected death of this young, talented, and aspiring individual has
been a significant loss to our organization. This Semiannual Report is dedicated to the
memory of Lennox Leonard Young (1966-1998).




                                          Acting Inspector General

ii          Smknnual Report to the Congress: October 1,1997 - March 3 1,1998
                                                                               CONTENTS

                                                                                                                                                                     Page
StatisticalHighlights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      iv
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . I
  DepartmentProfile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         I
  OIGOrganization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         2
Audit and Investigative Activities ............................................................... 4
   SummaryofAuditResults . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                4
   InvestigativeMatters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         4
CongressionalHearings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           6
LegislativeReviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        8
Significant Audits and Investigations ........................................................... 10
  Bureau Financial Statement Audits ............................................................ 10
  BureauofIndianAffairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             10
  BureauofLandManagement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    12
  BureauofReclamation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             13
  InsularAreas.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      15
  Minerals Management Service ............................................................... 22
  Multi-Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    23
  NationalParkService . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           24
  Office of the Special Trustee for American Indians ............................................... 26
  U.S. Fish and Wildlife Service ............................................................... 27
  U.S.GeologicalSurvey . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            28

Appendices
1 - Summary of Audit Activities From October 1,1997, Through March 31,1998 . . . . . . . . . . . . . . . . . . . . . . . .                                                 29
2 - Audit Reports Issued or Processed and Indirect Cost Proposals Negotiated
    During the 6-Month Period Ended March 3 1,1998 .............................................                                                                           30
    -IntemalAudits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       30
    -ContractandGrantAudits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                32
    -Single Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     34
    -IndirectCostProposals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             43
3 - Monetary Impact of Audit Activities From October 1, 1997, Through March 3 1,1998 ..................                                                                    47
4 - Non-Federal Funding Included in Monetary Impact of Audit Activities
    During the 6-Month Period Ended March 3 1,1998 ..............................................                                                                          48
5 - Audit Resolution Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          49
     - Table I - Inspector General Audit Reports With Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                   49
    - Table II - Inspector General Audit Reports With Recommendations That
       FundsBePutToBetterUse . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   50
     - Table III - Inspector General Audit Reports With Lost or Potential Additional Revenues ...............                                                              51
6 - Summary of Audit Reports Over 6 Months Old Pending Management Decisions .......................                                                                        52
    -Internal Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     52
     -ContractandGrantAudits.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 54
     -Single Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    55
7 - Summary of Internal Audit Reports Over 6 Months Old Pending Corrective Action . . . . . . . . . . . . . . . . . . . .                                                  59
8 - Statutory and Administrative Responsibilities ..................................................                                                                       64
9 - Cross-References to the Inspector General Act .................................................                                                                        65

                        Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998                                                                               111   ...
                                           STATISTICAL HIGHLIGHTS


Audit Activities
 Audit Reports Issued or Processed ......................................................... . 299
  -1ntemalAudits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  37
  - Contract and Grant Audits ........................................................27
  -Single Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 235
 Indirect Cost Proposals Negotiated ........................................................ . . 90

Impact of Audit Activities - (Dollar Amounts in Millions)
  TotalMonetary Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $74.9
   -QuestionedCosts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       $17.8
   - Recommendations That Funds Be Put To Better Use ................................. $19.0
   - Lost or Potential Additional Revenues ............................................ $38.1
  Internal Audit Recommendations Made ...................................................... 165
  Internal Audit Recommendations Resolved ..................................................... 85

Investigative Activities
 TotalReportsIssued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     67
 CasesClosed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  96
 CasesOpened.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    78
 CasesPending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    447
 Hotline Complaints Received ................................................................ 55
 Hotline Complaint Matters Opened . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                0
 Hotline Complaint Matters Closed ........................................................... 18
 Hotline Complaint Matters Pending ........................................................... 40
 General Information Matters Received ....................................................... 164

Impact of Investigative Activities
  Indictments/Informations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            26
  Convictions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     16
  Sentencings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     20
   -Jail . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  563 months
   -Probation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       768months
   -Community Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  683hours
   - Criminal Judgments/Restitutions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      $9,935,362
  Cases Pending Prosecutive Action as of October 1,1997 ......................................... 128
  Cases Referred for Prosecution This Period ..................................................... 44
  CasesDeclined.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        9
  Cases Pending Prosecutive Action as of March 3 1,1998 ......................................... 141
  Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            22
  CivilReferrals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     3
  CivilDeclinations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      7
  CivilJudgments(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               $125,000
  Cases Pending Civil Action as of March 31,1998 ................................................ 42




                      Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998                                                                                iv
-~mmrrrr~----_--_--------__                                                         -_. _ --_




       Administrative Actions Taken by Bureaus
           Matters Referred for Administrative Action .................................................... 47
           Removals/Resignations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . I
           Employee Suspensions (Totaling 132 days) ..................................................... 4
           Reprimands/Counseling . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
           Reassignments/Transfers .................................................................... 1
           Administrative Recoveries/Restitutions (Totaling $305,805) ........................................ 4
           General Policy Actions ..................................................................... 6




       V                      Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998
                                      INTRODUCTION

Department Profile

T    he Congress created the Department of
     the Interior (DOI) on March 3, 1849, to
     manage the Nation’s internal affairs.
                                                  Indian lands and collecting, verifying, and
                                                  distributing revenues from these lands in a
                                                  timely manner.
As the Nation’s principal conservation
agency, DOI’s mission is to encourage and               Conserving, protecting, and enhancing
provide for the appropriate management,           fish and wildlife and their habitats.
preservation, and operation of the Nation’s
public lands and natural resources for use             Preserving the natural and cultural
and enjoyment both now and in the future;         resources and values of the national park
to carry out related scientific research and      system.
investigations in support of these objectives;
to develop and use resources in an                    Sustaining the health, diversity, and
environmentally sound manner and provide          productivity of the Nation’s public lands.
an equitable return on these resources to the
American taxpayer; and to carry out trust              Fulfilling trust responsibilities and
responsibilities of the U.S. Government with      promoting self-determination on behalf of
respect to American Indians and Alaska            tribal governments, American Indians, and
Natives and support for the U.S. Territories      Alaska Natives.
and insular areas.
                                                       Providing the Nation with reliable
In fiscal year 1997, DO1 had about                scientific information to describe and
66,000 employees based in over                    understand the earth.
2,000 locations, spent about $9 billion, and
collected revenues of about $9 billion. The            Reclaiming abandoned mine sites and
jurisdiction of DO1 includes the following:       enforcing regulations to ensure that coal
                                                  mines are operated in a manner that protects
     Administering over 500 million acres of      citizens and the environment.
Federal lands and over 56 million acres of
Indian trust lands.

    Managing, developing, and protecting
water and related resources in an
environmentally and economically sound
manner.

    Managing mineral resources on the
Outer Continental Shelf and on Federal and

             Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998                1
OIG Organization

T    o cover DOI’s many and varied
     activities, the Office of Inspector
General (OIG) has a budget of $24.5 million
                                                  In addition to the Inspector General’s
                                                  requirement for semiannual reporting to the
                                                  Secretary of the Interior and the Congress in
and has 240 full-time employees.                  accordance with the Inspector General Act
Employees are under the direction of the          of 1978 (Public Law 95452), as amended,
Assistant Inspectors General for Audits,          OIG’s mission encompasses a wide array of
Investigations, and Management and Policy         statutory and administrative audit and
and are assigned to the headquarters offices      investigative responsibilities. These
in Washington, D.C., and field offices in         responsibilities include OIG’s review of
Agana, Guam; Rapid City, South Dakota;            various programs and activities within DO1
Albuquerque, New Mexico; Sacramento,              in accordance with numerous public laws,
California; Arlington, Virginia; St. Paul,        Office of Management and Budget (OMB)
Minnesota; Billings, Montana; St. Thomas,         circulars, and criminal and civil
U.S. Virgin Islands; Lakewood, Colorado;          investigative authorities (see Appendix 8).
Tulsa, Oklahoma; New Orleans, Louisiana;          The semiannual reporting requirements of
and Phoenix, Arizona.                             the Inspector General Act are
                                                  cross-referenced to applicable portions of
OIG provides policy direction for and             this report in Appendix 9.
conducts, supervises, and coordinates
audits, investigations, and other activities in   In the insular areas of Guam, American
DO1 to promote economy, efficiency, and           Samoa, the U.S. Virgin Islands, and the
effectiveness and to prevent and detect           Commonwealth of the Northern Mariana
fraud, waste, abuse, and mismanagement.           Islands, OIG is responsible for “establishing
OIG is DOI’s focal point for independent          an organization which will maintain a
and objective reviews of the integrity of DO1     satisfactory level of independent audit
operations and is the central authority           oversight” for these insular areas in
concerned with the quality, coverage, and         accordance with the Insular Areas Act of
coordination of the audit and investigative       1982 (48 U.S.C. 1422). OIG has additional
services between DO1 and other Federal,           audit responsibilities in the Federated States
state, and local governmental agencies. The       of Micronesia, the Republic of the Marshall
Inspector General reports directly to the         Islands, and the Republic of Palau pursuant
Secretary of the Interior on these matters and    to the Compact of Free Association Act of
is required to keep the Secretary and the         1985 (Public Law 99-239). OIG’s
Congress fully and currently informed about       organizational chart is presented on page 3.
problems and deficiencies relating to the
administration of DO1 programs and
operations and the necessity for corrective
actions.




2             Semiannual Report to the Congress: October 1,1997 - March 3 1,1998
                                               U.S. DEPARTMENT OF THE INTERIOR
                                                                OFFICE OF INSPECTOR GENERAL




                                                                              CHIEF OF STAFF AND
                                                                              GENERAL COUNSEL
                                                                                                     I
                                                                                        I

                           ASSISTANT                                              ASSISTANT                          ASSISTANT
                      INSPECTOR GENERAL .                                    INSPECTOR GENERAL                   INSPECTOR GENERAL
                          FOR AUDITS                                          FOR MANAGEMENT                     FOR INVESTIGATIONS
                                                                                 AND POLICY

                                   I
                            DeDutv Assistant                      I   Division of
                                                                                                                      Deputy Assistant
I(Specialand                                                      I                 Ill Division of Human I
   Y. _.W_..V..l

                                                                     Information
                   1-1      In&& General                              n__-..____                                     Inspector General
                             Projects1                      1   fir AudJ 1 (        MGFznt   1 1 Resources   1        for Investigations




                     North Pacific          Caribbean
                    Regional Office       Regional Ofke

                     Agana, Guam            St. Thomas,
                                           Virgin Islands
                      AUDIT AND INVESTIGATIVE
                             ACTIVITIES

Summary of Audit                                   Investigative Matters
Results
                                                   D     uring the past 6 months, the Office of


0
                                                         Investigations has conducted
       IG auditors issued or processed             investigations that have resulted in
       299 audit reports during the 6-month        26 indictments/informations, 16 convictions,
period ended March 3 1,1998. Appendix 1            criminal judgments/restitutions of
summarizes audit activities, and Appendix 2        $9,935,362, and civil judgments of
lists the audit reports issued or processed        $125,000.
and the 90 indirect cost proposals
negotiated. Monetary findings in the audit        OIG continues to pursue proactive initiatives
reports and indirect cost proposals totaled       in order to maximize its ability to detect and
$74.9 million, which was composed of              prevent fraud, waste, and abuse in DO1
questioned costs, funds to be put to better       programs and operations. As reported in our
use, and lost or potential additional             last Semiannual Report, these initiatives
revenues, as summarized in Appendix 3.            have begun to show results in terms of
Appendix 4 identifies the non-Federal funds       successful prosecutions. During this
(from audits of insular area governments)         semiannual reporting period, that trend
included in the monetary impact of audit          continued, as demonstrated in the areas of
activities. During this 6-month period, OIG       coal reclamation fees and an Indian gaming
resolved $44.7 million of monetary findings       task force.
from prior and current reporting periods.
Appendix 5 provides summary information
                                                   Coal Reclamation Fees Initiative
on the resolution of the monetary impact,
Appendix 6 provides a listing of audit
reports over 6 months old pending
management decisions on recommendations
                                                   0    IG participated in a Federal task force
                                                        investigation targeting coal mine
                                                  operators who attempt to evade reclamation
and/or monetary impact, and Appendix 7
                                                  fees owed DO1 by means of falsifying
provides a summary of resolved internal
                                                  documents used by the Office of Surface
audits over 6 months old pending final
                                                  Mining Reclamation and Enforcement
action by management (implementation) on
                                                  (OSM) to assess these fees or who do not
recommendations and on monetary impacts.
                                                  report production in an attempt to avoid
                                                  payment of reclamation fees owed.



4            Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998
As a result of an investigation undertaken by      The gaming official who paid the bribe to
the task force, a Federal grand jury returned      the tribal officer was convicted of bribing
a 9 1 -count indictment against the president      an agent of an Indian tribal government. He
of a coal mining company, charging him             was sentenced to 36 months of
with conspiracy, mail fraud, pension fraud,        imprisonment and was ordered to pay a
obstruction of justice, false statements, and      $60,000 fine. Based on a related indictment,
income tax evasion. Of the 91 counts in the        he was also convicted of income tax
indictment, 13 counts involved false               evasion, conspiracy, obstruction, and
statements submitted to OSM in an attempt          securities fraud. Sentencing was pending
to avoid payment of $97,293 in coal                during this semiannual reporting period.
reclamation fees. The indictment also
charged the president of the coal mining
company with attempting to evade payment
of Federal income taxes of approximately
$10.1 million.

The company president pled guilty. On
February 3, 1998, he was sentenced to
87 months of imprisonment and was ordered
to pay restitution of $4,5 19,027 to the
Government.

Indian Gaming Task Force

F    or approximately 2 years, OIG agents
     have been participating in a Federal task
force on Indian gaming in Minnesota. This
joint law enforcement effort continues to
bear results.

During this semiannual reporting period, a
tribal official was convicted of accepting a
bribe from an official of a gaming company
and submitting false Federal income tax
returns. On November 5, 1997, the official
was sentenced to 30 months of
imprisonment. He was also ordered to pay a
$30,000 fine, to make restitution of
$127,258 to his tribe, and to pay the Internal
Revenue Service for his outstanding tax
liability.



              Semiannual Report to the Congress: October 1, 1997 - March 3 1,   1998          5
                       CONGRESSIONAL HEARINGS


D     uring this semiannual reporting period,
      the Inspector General and the Acting
Inspector General testified before
                                                  procedures for identifying, recording, and
                                                  managing its maintenance backlog, the audit
                                                  did not obtain sufficient documentation to
Congressional subcommittees on two                verify that the information in the systems
occasions.                                        was accurate, current, and complete.
                                                  Moreover, the audit found that a significant
Bureau of Land Management and                     portion of FWS’s backlog consisted of items
U.S. Fish and Wildlife Service                    such as equipment and facility replacements
                                                  which should not have been included in the
Reporting and Managing of
                                                  backlog because these items did not meet the
Maintenance Backlogs                              Federal accounting standard for deferred
                                                  maintenance. At the hearing, officials from
In testimony on February 4, 1998, before the      the General Accounting Office and the
Subcommittee on Interior and Related              Department of Agriculture’s OIG provided
Agencies, Committee on Appropriations,            testimony on facilities maintenance
U.S. House of Representatives, Acting             activities at the National Park Service (NPS)
Inspector General Robert J. Williams              and the U.S. Forest Service, respectively.
summarized the results of OIG’s review of
facilities maintenance activities at the          National Park Service Employee
Bureau of Land Management (BLM) and the
                                                  Housing at Grand Canyon and
U.S. Fish and Wildlife Service (FWS). The
testimony addressed overall conclusions that      Yosemite National Parks
BLM (1) had not implemented adequate
controls to ensure that its maintenance           On October 29, 1997, then-Inspector
backlog data were reliable, which resulted        General Wilma A. Lewis testified before the
in significant errors and inconsistencies in      Subcommittee on Interior and Related
the reported backlog; (2) had not prioritized     Agencies, Committee on Appropriations,
maintenance projects in its automated             U.S. House of Representatives, on the OIG
maintenance management system or                  December 1996 audit report “Cost of
established priorities on a national basis; and   Construction of Employee Housing at Grand
(3) had not established formal procedures         Canyon and Yosemite National Parks,
for tracking program accomplishments or           National Park Service” (No. 97-I-224). The
recording project costs. The Acting               testimony included a response to a
Inspector General also testified that although    Congressional request for information on
the audit found that FWS had established          other audits performed by OIG that related
adequate automated systems and formal             to the NPS decision-making process. Also        s

6             Semiannual Report to the Congress: October 1,1997 - March 3 1,1998
providing testimony on NPS housing were           The former Inspector General stated that
representatives of the General Accounting         during the review, NPS said that a “primary
Office and NPS.                                   reason for the high costs of housing at [both]
                                                  parks was the use of nonstandard and energy
 Regarding construction costs for employee        efficient materials . . . included during the
 housing at Grand Canyon and Yosemite,            planning and designing processes.”
 former Inspector General Lewis reported          However, according to the former Inspector
 that the total estimated cost associated with    General, the auditors “were not provided
 the construction of 23 single-family houses      [during the review] any cost-benefit analyses
 at Grand Canyon and 34 apartments and            to determine and validate the increased costs
 19 single-family houses at Yosemite was          or benefits” associated with these items.
 $29.2 million. On a per house basis, the         The former Inspector General also
 average cost to construct a single-family        commented on the high cost of NPS
 home was $390,000 at Grand Canyon and            planning, design, and supervision of the
 $584,000 at Yosemite. According to the           housing construction projects.
 former Inspector General, these amounts
were significantly higher than the cost of        The former Inspector General said that the
 similar housing near the parks. For              report recommended that NPS “review the
 example, comparable housing near Grand           strategy that the parks . . . [including] Grand
Canyon was selling for about $125,000 to          Canyon and Yosemite National Parks, have
 $175,000, or at least $2 15,000 less than the    for meeting their employee housing needs to
 average of NPS’s housing unit costs. The         ensure that housing is designed and
 sales prices of houses near Yosemite ranged      constructed in a cost-effective manner.”
from about $80,000 to $300,000, or at least
$284,000 less than the average of NPS’s          Citing another audit report (No. 92-I- 13 10)
costs. Also, the former Park Superintendent      on NPS construction, the former Inspector
at Grand Canyon decided to build                 General said that in the September 1992
59 single-family homes rather than the mix       report on the proposed replacement of
of 114 housing units, composed of both           Denali National Park Hotel in Alaska, NPS
single-faznily and multi-family units, which     did not adequately justify the need for the
was recommended by NPS’s Denver Service          construction of a planned hotel.
Center and the Pacific West Regional
Office. Citing information provided by           The former Inspector General concluded her
Grand Canyon officials, the former               testimony by discussing audit reports that,
Inspector General said that 50 permanent         while not addressing the NPS
and 100 seasonal employees at Grand              decision-making process, did discuss the
Canyon would continue to live in “deficient      lack of adequate procedures and guidance in
housing at the completion of this housing        NPS management and administration in the
construction.” At Yosemite, we estimated         areas of fee assessment and collection and of
that at least 70 seasonal employees would        cost recovery.
continue to live “in the same conditions that
prompted the funding for the new housing
for employees.”

             Semiannual Report to the Congress: October 1,1997 - March 3 1,1998                  7
                              LEGISLATIVE REVIEWS


nuring this semiannual reporting period,           Fraud, and Error Reduction Act of 1998.”
UOIG reviewed a number of legislative              Among other items, the Act would require
items and, where appropriate, provided             Inspectors General to review and report to
comments. OIG performed these reviews to          the Congress and the head of the agency the
monitor legislative proposals and evaluate         status of each compromise, default, or final
their potential for promoting economy and         resolution in bankruptcy of any “high value”
efficiency and preventing fraud, waste, and       debt arising out of, or referred to, the
mismanagement in the programs and                 agency. A “high value” debt was defined as
operations of DOI, as required by                 any debt that exceeded $1 million--a
Section 4(a)(2) of the Inspector General Act      threshold OIG believed was too low and
of 1978, as amended.                              would seriously impact its ability to carry
                                                  out other audit activities. In addition, the
OIG provided comments on H.R. 2883, the           $1 million threshold was tied only to the
Government Performance and Results Act            amount of the debt (which included
Technical Amendments of 1997. These               principal, interest, and penalties) rather than
amendments would require the Inspector            to the amount that had been compromised.
General of each agency to audit the program
performance reports of the agency and report     OIG also provided comments on
to the Congress regarding the results of the     Section 122 of a draft House bill entitled the
audits within 45 days of submission of the       “Competition in Commercial Activities Act
performance report. OIG noted that the           of 1998.” This bill would (1) require each
45-day time period allotted to the Inspectors    executive agency to publish an annual list of
General for conducting these audits was not      activities that are not “inherently
feasible and recommended that the                governmental” and were being performed by
legislation provide at least 6 months within     Federal employees and (2) establish a
which to complete these audits. While OIG        process whereby certain entities could
agreed that a review of these reports is         challenge omissions from this list.
warranted, OIG commented that the                Section 122 requires the Inspector General
proposed legislation would have a serious        of each agency to conduct annual reviews of
adverse impact on the availability of audit      challenges of omissions. OIG commented
resources to accomplish other program and        that the role of the Inspectors General in
performance audits.                              conducting these reviews is unclear in light
                                                 of the detailed appeal procedures available
OIG also provided comments on a draft            to challengers under the draft bill.
proposal entitled the “Government Waste,         Furthermore, OIG noted that the current

8            Semiannual Report to the Congress: October 1,1997 - March 3 I,1998
language of Section 122 does not clearly
delineate the scope and nature of the
required Inspector General review. Finally,
while OIG recognized the possible need for
an objective review of the challenge process,
it emphasized that mandating an annual OIG
review would have a serious adverse impact
on the availability of OIG resources to
perform other tasks.

OIG also responded to a survey of
Inspectors General seeking identification of
legislative topics of concern to the Inspector
General community. With respect to issues
relating to the Inspector General Act of
 1978, as amended, OIG commented that the
Semiannual Reports required by Section 5 of
the Act do not appear to provide the
information needed for the Congress to
perform its oversight functions. OIG
therefore recommended that both the
frequency and the content of the statutory
reporting requirements be reexamined.




             Semiannual Report to the Congress: October 1,1997 - March 3 1,1998   9
I




                             SIGNIFICANT AUDITS AND
                                 INVESTIGATIONS

    Bureau Financial                                  significant departure from certain
                                                      requirements of OMB Circulars A-127,
    Statement Audits                                  “Financial Management Systems,” and
                                                      A- 130, “Management of Federal
                                                      Information Resources,” and were therefore
    F    inancial statement audits are required by
         the Chief Financial Officers Act of
     1990. During this semiannual reporting
                                                      instances of substantial noncompliance with
                                                      the requirements of Federal financial
    period, OIG audited and issued audit reports      management systems under the Federal
    on the financial statements of 6 of DOI’s         Managers’ Financial Integrity Act.
     10 bureaus and offices through the
    coordinated efforts of the bureaus and OIG        We were unable to complete financial
    offices. Specifically, we were able to issue      statement audits for the remaining four
    unqualified opinions on the financial             bureaus and offices because they did not
    statements of OSM, BLM, the Office of             close their financial records and did not
    Insular Affairs (OIA), the Departmental           prepare, in a timely manner, financial
    Offices, the Bureau of Reclamation (BOR),         statements that were accurate and complete.
    and the Minerals Management Service
    (MMS). We also reported that for OSM,             Bureau of Indian Affairs
    BLM, OIA, the Departmental Offices, and
    BOR, internal accounting controls met the
    required internal control objectives and that
                                                      Former Tribal Employees in
    there were no material instances of               Payroll Scheme Sentenced
    noncompliance with provisions of laws and
    regulations that we tested.

    Although OIG was able to issue unqualified
                                                      A    joint investigation conducted by OIG
                                                            and the Federal Bureau of
                                                     Investigation (FBI) revealed that from 1994
    opinions on the financial statements of          to 1996, five employees of a New Mexico
    MMS, the ineffective general controls over       Indian tribal organization diverted more than
    the MMS Royalty Management Program’s             $200,000 in Federal funds to their personal
    automated information system were                use. The Bureau of Indian Affairs (BIA)
    considered to be reportable conditions under     and other Federal agencies funded the
    the standards established by OMB                 nonprofit organization, which was originally
    Bulletin 93-06, “Audit Requirements for          established to provide social and economic
    Federal Financial Statements.” In addition,      assistance to 19 Indian tribes in New
    these ineffective general controls were a        Mexico. As reported in the last Semiannual


    10           Semiannual Report to the Congress: October 1,1997 - March 3 1,1998
Report, one of these employees was placed          card to purchase more than $7,800 in
in a pre-trial diversion program and was           personal items.
ordered to make restitution, and another
employee was sentenced to 4 months of              On December 4, 1997, after a jury trial in
imprisonment and ordered to pay restitution        Federal court in Los Angeles, the former
of $33,800. All five employees were                chairman was found guilty of 1 count of
terminated from their positions with the           conspiracy and 27 counts of embezzlement.
nonprofit organization.                            The former secretary-treasurer was found
                                                   guilty of 1 count of conspiracy and
In December 1997, the three remaining              20 counts of embezzlement. On February 9,
defendants were sentenced. One individual          1998, each individual was sentenced to
was sentenced to 3 years of supervised             27 months of imprisonment, to be followed
probation and was ordered to make                  by 3 years of supervised probation. In
restitution of $10,880. A second former            addition, the former tribal chairman was
employee was sentenced to 4 months of              ordered to pay a $1,400 special assessment.
imprisonment, 3 years of supervised                The former secretary-treasurer was ordered
probation, and 40 hours of community               to pay $180,303 in restitution to the tribe
service and was ordered to pay restitution of      and a special assessment of $1,050. Both
$55,450. The third defendant was sentenced         individuals were released on bond pending
to 8 months of imprisonment and 3 years of         appeal of their convictions.
supervised probation and was ordered to pay
restitution of $5 1,585.                          Tribal Office Manager Involved in
                                                  $46,000 Embezzlement Sentenced
Tribal Officials Who
Misappropriated Funds Sentenced
                                                  A      n OIG investigation revealed that from
                                                         1992 through 1995, the office manager

A      joint OIG-FBI investigation into
       allegations of embezzlement by former
officials of a California Indian tribe resulted
                                                  of a western Indian tribe converted
                                                  payments from contractors to her personal
                                                  use on approximately 110 occasions. On
in the indictment and conviction of the           November 24, 1997, the employee was
former tribal chairman and former                 sentenced in Federal court to 6 months of
secretary-treasurer. On June 11, 1997, a          electronically monitored home confinement
Federal grand jury indicted both individuals      and 60 months of probation. She was also
on 29 counts of misappropriation of tribal        ordered to make restitution of $46,368 to the
funds and conspiracy. The indictment              tribe and to pay a $50 special assessment.
charged that they had converted to their
personal use a BIA check, payable to the
tribe, in the amount of $176,469. In
addition, they were charged with converting
19 other checks made payable to the tribe to
their own use. The former tribal chairman
was also charged with using a tribal credit
                                                                                                  t

              Semiannual Report to the Congress: October 1,1997 - March 3 1,1998            11
Employee Who Provided                              Standards for Federal Land Acquisitions”
Assistance Funds to Ineligible                     (which states that comparable sales should
Individuals Sentenced                              be relied on when adequate sales data are
                                                   available); and (3) relieved the Nevada State
                                                   Chief Appraiser of his appraisal review
A     social work assistant in a BIA agency
      office in Oklahoma was indicted for
providing $16,873 in general assistance
                                                   responsibilities on the exchange, which was
                                                   contrary to State of Nevada procedures and
                                                   guidance in the Bureau Manual. In addition,
funds to seven ineligible friends and family       the Bureau issued a contract for an appraisal
members between October 1994 and                   review to a firm nominated by Del Webb.
February 1997. The BIA employee forged             As a result, if the Bureau had not obtained a
general assistance applications, employment        second appraisal, the Government would
work sheets, and supporting narratives in an       have lost $9.1 million because the
attempt to cover up her actions.                   development approach was used on the
                                                   initial appraisal. The report contained no
On October 30, 1997, the social work               recommendations.
assistant pled guilty to one count of
embezzlement and theft of public money.
On February 18, 1998, she was sentenced to
                                                   Questioned Costs on Construction
2 years of probation and was ordered to            Contract Settled
make restitution of $12,985 and to pay a
special assessment of $100.
                                                   D     uring 1994, BLM awarded a contract
                                                         for construction of the King Range
                                                  Fire Facility in Whitethorn, California.
Bureau of Land                                    After modifications, the contract costs
Management                                        totaled $489,448. The contractor requested
                                                  reimbursement of additional costs of
                                                  $103,422 that the contractor stated were
Land Exchange Actions Questioned                  incurred as a result of approximately

n
                                                  70 changes to the construction design and a
  uring its processing of the Del Webb            4-month delay of contract work completion.
u land exchange in Nevada, BLM’s                  As a result of our audit, we questioned the
Washington Office did not fully comply            allowability of $79,907 of the additional
with established standards, procedures, and       costs for materials, labor and supervision,
controls for appraisals and land valuations       field office overhead, and profit claimed by
and did not justify the propriety of its          the contractor that were not supported by the
actions. Specifically, BLM (1) allowed Del        contractor’s records. The contracting officer
Webb to use an appraiser who was not              settled with the contractor for $67,500.
preapproved by the Nevada State Office;
(2) allowed the Del Webb appraiser to
perform a development-based appraisal of
the Federal land, which was not in full
accordance with the “Uniform Appraisal

12           Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998
Duplicate Payments to Government                   Assistance Fund; and was ordered to
Contractor Result in Civil                         perform 203 hours of community service.
Settlement                                         The investigation revealed that during a
                                                   5-year period, the curator stole priceless
                                                   artifacts from the museum and transported
A      n OIG investigation revealed that an
       Idaho company double-billed the
U.S. Forest Service, U.S. Department of
                                                   the stolen items to other states, where they
                                                   were traded or sold. These items included a
                                                   beaded buckskin dress, beaded moccasins,
 Agriculture, and BLM for transportation           beaded pants, parfleche items, jewelry,
costs associated with forest fire suppression.     arrows, and other significant cultural items.
The investigation disclosed that during six        Some of the items contained feathers of
fires on Forest Service lands in 1992 and          American bald eagles, which are protected
 1994, the Forest Service paid the company         under Federal law.
for its services. The company also billed
BLM for the same services and received
approximately $80,000 in duplicate                 Bureau of Reclamation
payments. The U.S. Attorney’s Office for
the District of Oregon declined criminal           Recovery of Irrigation Investment
prosecution in favor of civil recovery. The        Costs Not Timely
Civil Division of the U.S. Attorney’s Office
negotiated a settlement agreement with the
company in which the company agreed to
pay BLM $125,000. On February 24,1998,
                                                   0     IG concluded during a followup audit
                                                         that BOR had not taken actions
                                                  necessary to accelerate recovery of
the company wired the $125,000 payment to         interest-free irrigation assistance costs
a BLM bank account.                               concurrent with the interest-bearing power
                                                  investment costs. BOR policy for irrigation
Former Museum Curator                             assistance provides that power users are
Sentenced in Theft of Native                      required to repay only that portion of the
American Cultural Artifacts                       irrigation investment that is within the users’
                                                  ability to pay. In 1989, OIG concluded that

A      multi-agency investigation of the theft
       and sale of archeological and cultural
resources removed from Federal lands
                                                  as a result of this policy, an estimated
                                                  $2.1 billion of additional revenues (with a
                                                  value of $4 15 million in 1989) would not be
resulted in the sentencing, on February 26,       collected over the repayment periods of the
1998, of the former curator of a Native           respective projects. In 1990, BOR requested
American museum in South Dakota. The              and received advice from the Office of the
former curator was sentenced in Federal           Solicitor that concurrent repayment of
court, Sioux Falls, South Dakota, to              irrigation assistance is allowed for certain
53 months of imprisonment and 48 months           projects. However, BOR had not revised its
of probation; was ordered to make                 policy for the repayment of irrigation
restitution of $496,723 and to pay a              assistance based on the advice received.
$200 special assessment to the Victims’           BOR had, however, supported legislation
                                                  proposed by the Department of Energy that

             Semiannual Report to the Congress: October 1,1997 - March 3 1, 1998              13
was intended, in part, to place all power          were completed and forwarded to the
repayment obligations, including irrigation        Secretary of the Interior for reporting to the
assistance, on a straight-line amortization        Congress on time (January 3 1 of each fiscal
basis with interest. However, the proposed         year). BOR concurred with our two
legislation was not enacted, and similar           recommendations to correct these
legislation had not been proposed for              deficiencies, stating that it planned to
consideration in subsequent legislative            complete all reporting to the Congress by
sessions. As a result of the delayed               May 1, 1998. Based on BOR’s response, we
repayment, the value of the irrigation             considered both recommendations resolved
assistance investment recovered by BOR             but not implemented.
will be substantially reduced. This is
because the Federal Government has to wait         Central Valley Project Restoration
longer to receive its money without interest,      Fund Administered in Accordance
resulting in subsidy to project beneficiaries,     With Law
the cost of which will be unnecessarily

                                                   W
borne by the general taxpayers rather than
by project beneficiaries. Based on the                     e found that BOR was in compliance
response from the Assistant Secretary for                  with the requirements of the Central
Water and Science to our final report, we          Valley Project Improvement Act as it
considered the report’s three                      pertained to Restoration Fund assessments,
recommendations unresolved.                        collections, and expenditures. The Act
                                                   identified over 40 restoration activities in the
                                                   State of California, such as the acquisition of
Costs for Environmental Activities                 water and land and the building of fish
Not Reported Timely                                passage facilities. The restoration activities
                                                   are funded by Federal appropriations, cost
OIG found that, except for a net decrease of       sharing from California, and annual charges
$306,526 in reimbursable costs, BOR, in            from Central Valley Project water and
general, adequately determined the                 power users and are accounted for in the
reimbursable environmental activities and          Restoration Fund. Since inception of the
long-term monitoring costs for Glen Canyon         Restoration Fund on October 30, 1992, BOR
Dam for fiscal years 1993,1994, and 1995;          has collected about $129 million from water
however, these amounts were not reported to        and power users. Expenditures for
the Congress until June 1997. Specifically,        restoration activities totaled about
BOR’s determinations contained omissions           $175 million, of which $87 million was
and estimates that should have been                provided by the Restoration Fund and
finalized. In addition, BOR did not ensure         $88 million by direct Federal appropriations.
that its determinations of the reimbursability
of the costs associated with the preparation       Our review also concluded that BOR’s
of the Dam’s environmental impact                  Mid-Pacific Region could improve its
statement (including supporting studies) and       accounting for Restoration Fund activities
with the long-term monitoring program and          by integrating the automated systems used to
activities for fiscal years 1993 through 1997      account for assessments and payments for

14            Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998
water deliveries. Furthermore, we found            response to the report was not due during
that the Region had not annually accounted         this semiannual reporting period.
for the costs incurred under an agreement
with the State of California to identify the
State’s share of costs of restoration activities   Insular Areas
or negotiated additional task orders for
repayment of the State’s share of ongoing
restoration activities, which we estimated to      Guam
be over $3 1.6 million. Finally, we found
that DO1 had not submitted to the Congress         Port Authority Procurement
the following reports: (1) the program
report for fiscal year 1995 and the program
                                                   Practices Inadequate
and financial reports for fiscal year 1996, as
required by the Act, and (2) the special
reports for fiscal year 1996. Based on
BOR’s response to our three
                                                   A      n audit of the Guam Port Authority
                                                          disclosed that the Port Authority did
                                                   not conduct its procurement activities in
recommendations, we considered one                 compliance with procurement regulations or
recommendation resolved and implemented            in an efficient and economical manner,
and two recommendations resolved but not           ensure that the best prices were obtained
implemented.                                       through competitive procurements, and
                                                   adequately maintain procurement records for
Costs of $120,774 on Copper                        all purchase orders issued and contracts
Mining Project Questioned                          awarded. These conditions occurred
                                                   because the Port Authority had not
                                                   developed adequate written procedures to
I  n 1988, the U.S. Bureau of Mines (BOM)
   awarded a cooperative agreement to
conduct a copper mining project near Casa
                                                   ensure compliance with procurement
                                                   regulations and had not developed
Grande, Arizona, to determine whether              procurement plans to facilitate the
extracting the mineral in place without            competitive procurement of goods and
excavating the ore-bearing rock could              services. In addition, the Port Authority had
produce copper and meet environmental              not developed written procedures to ensure
requirements. In 1996, BOM entered into an         that the Procurement Unit filed all purchase
agreement with BOR in which BOR agreed             orders and contracts in a central and secure
to complete the project. Of the costs of           location and maintained accurate and
                                                   complete logs for all purchase orders issued
$20,069,088 incurred by the cooperator, we
questioned the allowability of costs of            and contracts awarded. As a result, the Port
$120,774 incurred prior to the effective date      Authority did not have assurance that
of the agreement and for legal fees                purchases were for valid purposes and that
erroneously charged to the project. Based          full value was received for about
on the terms of the cooperative agreement,         $1.6 million of the estimated $6.3 million
we determined that BOR may have paid               expended for goods and services during
$64,797 of these questioned costs. BOR’s           fiscal years 1994 and 1995. In addition, the
                                                   Port Authority improperly expended

              Semiannual Report to the Congress: October 1,1997 - March 3 1,1998               15
I




    $42,641 of public funds for social events.        miscellaneous costs (including rent and
    We made six recommendations to address            computer purchases).
    these deficiencies: one recommendation to
    the Governor of Guam and five                     These conditions occurred because the
    recommendations to the Port Authority.            Advocacy Office had not developed a
    Based on the responses, we considered five        financial management system that was
    recommendations resolved and implemented          adequate to prepare and submit an
    and one recommendation resolved but not           acceptable indirect cost proposal and ensure
    implemented.                                      that Federal grant funds were used only for
                                                      grant-related purposes and were properly
    Improvements in Advocacy Office                   protected, allocated, and accounted for. In
    Needed                                            addition, the Advocacy Office had not
                                                      developed and implemented written
                                                      procedures for performing case reviews,
    A     n audit of the Protection and Advocacy
           of the Marianas found that this
    nonprofit organization (the Advocacy
                                                      executing procurement actions, and
                                                      managing property. We made
    Office) needed to make improvements in the        11 recommendations to correct these
    areas of financial management, program            deficiencies. We also questioned the
    administration, procurement and property          allowability of costs incurred by the
    management, and expenditure control.              Advocacy Office totaling $743,995,
    Specifically, the Advocacy Office did not         including procurement actions totaling
    have an approved indirect cost rate, used         $9 1,630, and could not locate property items
    Federal grant funds for other than                valued at $8,8 13. Based on the response
    grant-related purposes, did not properly          from the Board of Directors of the
    allocate personal services costs among its        Protection and Advocacy of the Marianas,
    Federal programs, did not provide required        we considered 1 recommendation resolved
    financial reports to grantor agencies, did not    and implemented and 10 recommendations
    prepare annual budgets, did not adequately        unresolved.
    document the eligibility of clients to receive
    protection and advocacy services, authorized      Capital Improvement Fund Used
    payment for legal services not clearly            Inappropriately
    allowed by the Federal grants, and did not
    ensure that caseworkers documented actions
    taken to address clients’ concerns. In
    addition, the Advocacy Office did not obtain
                                                      A      n audit of the Legislature Capital
                                                             Improvement Fund, which was
                                                      requested by the Speaker of the 23rd Guam
    prior grantor approval for equipment              Legislature, disclosed that the Guam
    purchases; did not always conduct                 Legislature had not used the Capital
    procurements competitively; did not               Improvement Fund effectively and
    adequately control personal property; and         efficiently. Specifically, money from the
    incurred unallowable and unnecessary              Fund was used to pay for architectural and
    expenditures for retroactive salary payments,     engineering. services to develop designs that
    local and off-island travel, and                  would not be used and for engineering

    16           Semiannual Report to the Congress: October 1, 1997 - March 3 1,1998
 services that were not covered under the          Management of Federal Grant
 architect/engineer contract. These                Programs and Operations
 conditions occurred because the Legislature
                                                   Inadequate
 (1) did not adequately plan for zoning
 restrictions before contracting with the
                                                    ‘The Government of Guam’s Department
 architect and (2) did not establish adequate
                                                     1 of Vocational Rehabilitation did not
procedures to review contractor invoices
                                                   manage its Federal grant programs in
before payment. In addition, the Legislature
                                                   accordance with the Code of Federal
 did not account for the Capital Improvement
                                                   Regulations. Specifically, the Department
Fund separately, record all transactions
                                                   provided services to ineligible clients and to
related to the Fund, and establish an
                                                   clients who were not periodically evaluated
interest-bearing account under the Fund.
                                                   to support continuation of the services,
The conditions occurred because the
                                                   provided services not supported by medical
Legislature commingled the capital project
                                                   determinations, did not provide needed
appropriations and expenditures with money
                                                   services in a timely manner, inappropriately
in the Legislature Operations Fund and did
                                                   used Federal funds instead of local funds,
not establish an interest-bearing account, as
                                                   and did not charge personal services costs
required by the appropriation law. As a
                                                   based on actual work load distribution.
result of these conditions, the Legislature
                                                   These conditions occurred because the
used more than $5.7 million of Capital
                                                   Department did not have written procedures
Improvement Fund appropriations for design
                                                   to ensure that clients were eligible to
work that will not be used, may have paid
                                                   participate in the program and/or that their
$894,110 for engineering services that were
                                                   medical progress was evaluated, medical
not contracted for, improperly used $15,000
                                                   determinations were complied with, and
for legislative operating expenses, and lost
                                                   program costs were properly classified and
interest income of at least $19,250. In
                                                   charged to the benefiting program.
addition, the Legislature was unaware that
the Executive Branch had transferred
                                                  As a result of these deficiencies, we
$3.25 million Ii-om Capital Improvement
                                                  questioned the allowability of $826,007
Fund appropriations for typhoon-related
                                                  incurred by the Department for program
emergency expenses.
                                                  management and an additional $3 11,152 for
                                                  personal services costs. We made five
We made seven recommendations to correct
                                                  recommendations to the Governor of Guam
these conditions. Based on the Legislature’s
                                                  to address these deficiencies. The Director
response to our final report, we considered
                                                  of the Department of Integrated Services for
three recommendations resolved and
                                                  Individuals with Disabilities (successor
implemented and four recommendations
                                                  department to the Department of Vocational
unresolved.
                                                  Rehabilitation) provided a response that
                                                  concurred with the five recommendations.
                                                  However, we requested additional
                                                  information for these recommendations.


             Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998              17
Businessman Sentenced for Filing                   Telecommunications System to make
False Statements in Bankruptcy                     unauthorized, personal long-distance
Petition                                           telephone calls.



 0     n October 24, 1997, a former Guam
       businessman was sentenced in Federal
court in Agana, Guam, to 14 months of
                                                   Virgin Islands

                                                   Improvements in Accounting for
imprisonment, 3 years of probation, and
                                                   Expenditures of Federal Agency
200 hours of community service and was
ordered to pay a $200 special assessment.          Loan Funds Needed
The sentence was pursuant to a June 25,
 1997, plea agreement with the U.S.
Attorney’s Office relative to one count each
of fraudulent transfer and asset wire fraud in
                                                   A     review of $85 million of the Federal
                                                         Emergency Management Agency’s
                                                   (FEMA) Community Disaster Loan funds
the filing of false statements in connection       provided to the Government of the Virgin
with a bankruptcy petition in 1992. The            Islands after Hurricane Marilyn in
individual failed to disclose his ownership of     September 1995 found that the Government
an automobile and the income he realized           generally used Disaster Loan funds for the
from its sale.                                     purposes requested. Specifically, the funds
                                                   were used for operating expenses of the
Technician Convicted in                            University of the Virgin Islands and the
                                                   Department of Tourism and for general
Long-Distance Telephone Scheme
                                                   Government payroll expenses. However,

0
                                                  the review, which was conducted under a
       n March 6, 1998, a former technician       cooperative agreement with FEMA’s OIG,
       with the Guam Telephone Authority          also found that the Government’s
was sentenced in Federal court in Agana,          Department of Finance did not establish and
Guam, to 2 years of probation and 100 hours       use separate accounting records within its
of community service. He was also fined           financial management system to document
$2,000 and ordered to pay a $100 special          how all of the Disaster Loan funds were
assessment. The individual had pled guilty        used. University of the Virgin Islands and
to trafficking in counterfeit access devices.     Department of Tourism officials stated that
The Guam Telephone Authority, a quasi-            they did not separately account for these
public corporation of the Government of           funds because they were not notified by the
Guam, invoices the U.S. General Services          Government’s Office of Management and
Administration for local area telephone           Budget or Department of Finance of the
services and support that the Telephone           specific source of the $15.5 million in funds
Authority provides to Government offices          they received or of the requirements to
on Guam. The charges resulted from the            account for and use the Disaster Loan funds
former employee’s use of unauthorized             in accordance with established FEMA
telephone numbers, which enabled him to           regulations. In addition, the Government
access the Government’s Federal                   earned about $21,700 in interest on Disaster

18           Semiannual Report to the Congress: October 1,1997 - March 3 1, 1998
I



    Loan funds but did not remit this interest to    expenditures of $459 million, or an
    FEMA. The Governor of the Virgin Islands         estimated deficit of $97 million for fiscal
    agreed with the report’s five                    year 1998. Payment of any portion of the
    recommendations made to address these            $570 million debt would increase this
    deficiencies, including returning the $2 1,700   estimated deficit accordingly. Because our
    in interest to FEMA. Based on the response,      report was an advisory report issued for the
    we considered one recommendation                 purpose of providing Government officials
    resolved and implemented and four                with preliminary information based on our
    recommendations unresolved.                      ongoing audit, we did not make any
                                                     recommendations. More detailed
    Interfund Loans and Other                        information and recommendations will be
    Obligations Audited                              provided in a report to be issued at the
                                                     conclusion of our ongoing audit.

    A      n ongoing audit of interfund loans and
           Federal grant balances of the
    Government of the Virgin Islands disclosed
                                                     Deficiencies in Administration and
                                                     Collection of Internal Revenue
    that, as of September 30, 1997, the              Taxes Cited
    Government had outstanding obligations
    (excluding bonded debt) totaling about
    $570 million as follows: $120 million for
    unauthorized and unrecorded interfund
                                                     A      n audit of the administration and
                                                            collection of taxes by the Virgin
                                                     Islands Bureau of Internal Revenue found
    loans; $21 million for authorized and            that, although the Bureau had implemented a
    recorded interfund loans; $150 million for       new mainframe computer system which
    disaster-related loans received from FEMA        allowed for more efficient tax
    after Hurricanes Hugo and Marilyn;               administration, further improvements could
    $14 1 million for retroactive salary increases   be made in computer operations and that
    and fringe benefits for fiscal years 1992        more aggressive enforcement was needed in
    through 1997; $76 million for income tax         the areas of delinquent accounts and returns
    refunds for tax years 1994 through 1996; at      and tax audits. Specifically, we found that
    least $49 million for services provided by       the Bureau did not realize all potential
    approximately 4,000 vendors, as represented      revenue collections because it could not
    by invoices and purchase orders processed        access a taxpayer’s complete and accurate
    by the Department of Finance during March        payment history for all classes of taxes from
    through September 1997; and $13 million          a single computer system; taxes of about
    for the Government Employees Retirement          $700,000 were owed by taxpayers whose
    System for the Early Retirement Incentive,       checks were not honored by the banks
    Training and Promotion Act of 1994 and           because of insufficient funds; data produced
    regular retirement contributions for             by the Computer Operations Branch to
    September 1997. The Virgin Islands fiscal        detect and prevent nonfilers and filers of
    year 1998 Executive Budget included              duplicate dependent claims were not made
    estimated General Fund operating revenues        available to the Audit Enforcement Branch
    of $362 million and General Fund                 in a consistent and timely manner; the

                 Semiannual Report to the Congress: October 1,1997 - March 3 1,1998             19
    Delinquent Accounts and Returns Branch            Division was not always aware of structures
    did not effectively use collection practices      that were under construction and lost at least
    and tools, such as liens and levies, to enforce   $155,069 in permit fees. In addition, the
    the collection of amounts owed by                 Division of Permits did not adequately
    taxpayers; the Bureau did not collect             enforce building code requirements and
    $10.1 million from over 1,700 taxpayer            document actions taken with regard to
    cases, did not collect $324,000 because the       building deficiencies. As a result, building
    statute of limitations had expired, and           deficiencies were not corrected, violators
’   granted penalty waivers totaling $795,000         were not penalized for building code
    without the required documentation; and the       violations, and the public was potentially at
    Audit Enforcement Branch did not                  risk because of construction that was not in
    implement adequate internal controls to           compliance with building codes. We made
    effectively administer its audit function. We     10 recommendations to address the reported
    made 14 recommendations to correct these          deficiencies. Based on the response from
    deficiencies. Based on the response from          the Governor of the Virgin Islands, we
    the Governor of the Virgin Islands, we            considered three recommendations resolved
    considered six recommendations resolved           and implemented and seven
    and implemented, seven recommendations            recommendations unresolved.
    resolved but not implemented, and one
    recommendation unresolved.                        Management of Sewage System
                                                      User Fees Inadequate
    Improvements in Approval and
    Enforcement of Building Permits
    Needed
                                                      T-r he Government of the Virgin Islands
                                                       1 did not adequately administer the
                                                      sewage system user fee program.

    A     n audit of the administration and
          collection of building permit fees by
    the Division of Permits, Virgin Islands
                                                      Specifically, we found that (1) the
                                                      Department of Public Works did not ensure
                                                      that the fee schedule reflected the actual cost
    Department of Planning and Natural                of operating the sewage system, that new
    Resources, found that, although the               users paid the appropriate connection fees,
    Department had reviewed and approved over         and that all sewage system users were
    6,000 building and other related permits          included in the master file for billing
    during fiscal years 1995 and 1996,                purposes; (2) the Office of the Tax Assessor
    improvements were needed in the areas of          did not adequately coordinate with Public
    permit approvals and enforcement activities.      Works to ensure that sewage fees were
    Specifically, we found that the Division of       accurately recorded on real property tax
    Permits allowed developers to construct           bills, which are used as the means of billing
    buildings without required permits and did        for sewage fees; and (3) the Department of
    not ensure that architectural plans were          Finance did not ensure that an accurate
    always reviewed, the correct permit fees          accounts receivable listing was maintained,
    were assessed and collected, and permit files     that payments were received from all users,
    were properly maintained. As a result, the        and that sewage system fees were properly

    20           Semiannual Report to the Congress: October 1,1997 - March 3 1,1998
accounted for. These deficiencies existed           owners. Also, collection shortages occurred,
because (1) Public Works did not develop            and delinquent licensees had outstanding
and implement comprehensive policies and            fees and penalties totaling more than
procedures for its areas of responsibility;         $3 million. Furthermore, we believe that
(2) Public Works, the Tax Assessor, and             improvements should be made with regard
Finance did not coordinate their fee                to the procedures used for the testing and
activities; and (3) Finance did not                 professional licensing of draftsmen and
aggressively enforce the collection of              building contractors. Based on the response
delinquent sewage user fees. As a result,           fi-om the Governor of the Virgin Islands to
billing errors totaled at least $147,667, and       our 16 recommendations, we considered
1,434 delinquent users owed a total of              13 recommendations resolved and
$349,545 in fees. Additionally, increasing          implemented and 3 recommendations
the per unit user fee by $25 would increase         resolved but not implemented.
annual revenues by at least $400,000. The
Governor of the Virgin Islands agreed with          Procurement and Project
and implemented three of the report’s eight         Management Procedures Not
recommendations. We requested additional            Effective
information for the remaining five

                                                    W
recommendations.
                                                             e found that the procurement and
                                                             project management procedures used
Improvements in Business                            by the Virgin Islands Department of
Licensing Fees Needed                               Education and the Government’s project
                                                    management consultants excluded

A        lthough the Virgin Islands Department
         of Licensing and Consumer Affairs
  was generally effective in its business
                                                    authorized Government agencies from key
                                                    aspects of contracting for post-hurricane
                                                    construction. Specifically, we found that
. licensing activities, improvements were           (1) the Department of Public Works, on
  needed in the areas of licensing procedures,      behalf of the Department of Education,
  collection practices, and enforcement             allowed construction contractors to perform
  activities. Specifically, the Department did      work on public schools without any formal
  not process business license applications in a    contracts; (2) the Hurricane Recovery
  timely manner and did not always require          Managers used contracting procedures that
  the necessary approvals from other                excluded the Department of Property and
  reviewing agencies, did not maintain              Procurement and did not provide the level of
  effective control over daily collections, and     competition required by the Virgin Islands
  was not effective in enforcing the licensing      Code; and (3) the Government and the
  laws. As a result, the start-up of new            Hurricane Recovery Managers did not
  businesses was delayed, which resulted in a       maintain an adequate level of construction
  loss of tax revenues to the Government, and       management oversight. As a result, there
  the potential existed for a business to operate   was little assurance that (1) the Government
  without consideration of factors such as          received the most favorable prices, terms,
  suitability of business locations or business     and conditions with regard to construction

               Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998          21
and other contractual services acquired at a     proprietary and financial data in the
total cost of more than $21.5 million;            automated information system, have
(2) contractors who received payments             adequate security-related personnel policies
totaling more than $21 million performed         and procedures, or have security awareness
construction work in accordance with the          statements on file for all employees who
terms and conditions of their contracts; and     used the automated information system;
(3) the safety of the occupants of public        (2) have adequate logical access controls in
schools was adequately protected because         the areas of resource classification, default
the construction work did not always meet        settings, commercial off-the-shelf software
building code requirements. We made seven        access controls, access levels granted to
recommendations to strengthen the                users, and the number of allowed log-in
Government’s procurement and project             attempts; (3) have controls to ensure that
management practices and procedures.             client/server application software changes
Based on the response from the Governor of       were authorized, approved, and tested before
the Virgin Islands, we considered three          being moved into production; (4) separate
recommendations resolved and                     duties for client/server application
implemented. Also, we requested that the         programmers from duties of users and
Governor respond to one recommendation           separate duties of client/server security
that we revised based on the Governor’s          administrators from duties of reviewers;
response and that additional information be      (5) use mainframe security software that was
provided for the remaining three                 supported by the vendor and use available
recommendations.                                 mainframe computer system audit tools to
                                                 ensure integrity over system processing and
Minerals Management                              data; and (6) include local area networks and
                                                 personal computers which maintain
Service                                          proprietary and financial data in the
                                                 Program’s disaster recovery plans. We
                                                 made 23 recommendations to improve the
General Controls Over Royalty                    general controls over the Program’s
Management Program’s                             automated information system. Based on
Automated Information System                     MMS’s response, we considered
Inadequate                                       1 recommendation resolved and
                                                 implemented and 12 recommendations

W       e found that MMS’s Royalty
        Management Program had
established general controls over its
                                                 unresolved and requested additional
                                                 information for 10 recommendations.

automated information system; however,           Implementation of
except for the controls over physical access     Recommendation on Offshore
to the automated information system, we          Lease Fees Increases Revenues
concluded that the general controls were not
adequate in the six major areas we reviewed.
Specifically, the Program did not
(1) identify and address all risks affecting
                                                 A     followup evaluation of the December
                                                       1993 audit report “Offshore Minerals

22           Semiannual Report to the Congress: October 1,1997 - March 3 1,1998
Leasing Activities, Minerals Management            concluded that, overall, the bureaus’
Service” (No. 94-I-l 79) found that MMS            procedures for managing purchase cards
had implemented the recommendation made            were generally in accordance with
in the report to evaluate the adequacy of the      applicable laws, regulations, and guidelines.
minimum bonus bid and annual rental fee            However, the reports noted the following:
per acre before each offshore oil and gas          unauthorized use of the cards (three
lease sale and to make appropriate                 bureaus), splitting of purchase orders (two
adjustments to ensure that optimum value is        bureaus), and failure to perform required
received. Specifically, we reviewed lease          annual reviews of the adequacy and
sales conducted from September 1993 to             accuracy of a bureau’s use of the credit cards
August 1997 and found that MMS had                 (five bureaus). These conditions generally
evaluated the adequacy of these charges            occurred because established procedures
before each sale. As a result, the                 were not complied with or DO1 guidance
long-standing rental fee of $3 per acre,           was not incorporated into the bureaus’
which had not been changed since at least          regulations and procedures. The bureaus
 1954, was increased to $5 per acre in             generally concurred with our
September 1993 and to $7.50 per acre in            recommendations and agreed to take actions
April 1996 for leases of land in water depths      to correct these conditions. The five reports
of 200 meters or more. Since issuance of           contained a total of 16 recommendations, of
our December 1993 audit report, and based          which we considered 8 recommendations
on our recent followup evaluation, we              resolved and implemented,
estimated that the increased rental fees for       5 recommendations resolved but not
the leases we reviewed generated an                implemented, and 3 recommendations
additional $14 1.3 million ($120.6 million         unresolved.
had been estimated and previously reported)
in increased revenues from 1993 to 1997 and       Continuous Evaluation of
were expected to generate an additional           Departmental Automated
$159.0 million (present value of                  Procurement System Needed
$149.6 million) of revenues from 1998 to
2001.
                                                  A s     a result of our review of the Interior
                                                         Department Electronic Acquisition
Multi-Office                                      System (IDEAS), DO1 took steps to ensure
                                                  that the system met user needs and fulfilled
Management of Governmentwide                      functional requirements. In January 1997,
Purchase Cards Generally Effective                DO1 completed an evaluation of IDEAS, an
                                                  automated procurement system that had
                                                  been installed at about 80 sites in five
D    uring this reporting period, OIG issued
     survey reports on the use of the
Governmentwide purchase card at five
                                                  bureaus. Based on that evaluation and in
                                                  response to concerns expressed by DO1 and
                                                  bureau officials and by OIG auditors, we
bureaus: OSM, BOR, BIA, U.S. Geological           determined that the system developed was
Survey (USGS), and BLM. These reports             inadequate. Specifically, the system had

             Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998             23
 design and use limitations, including the         operating procedures to ensure equitable
 lack of a modem word processing capability,       cost deductions. As a result, the costs
 inadequate system documentation,                  deducted from the states’ mineral leasing
 insufficient system controls, and                 receipts during fiscal years 1994 through
 shortcomings in its data aggregation and          1996 were overstated by $8.8 million, or
 report-generation capabilities. Also, there       11.6 percent.
 was uncertainty as to the total cost and
 timeliness of system implementation.              We made two recommendations to address
 Moreover, since the initial IDEAS contract        these deficiencies. Both recommendations
 was awarded, the volume of procurement            were addressed to BLM, and one
transactions had declined, DO1 had                 recommendation was also addressed to
reorganized and downsized, and better and          MMS. BLM agreed with both
more user-friendly systems had been                recommendations, of which we considered
developed. In March 1997, a contract was           one recommendation resolved and
awarded for system testing and pilot               implemented and one recommendation
implementation of a more technically               resolved but not implemented. Although
capable and user-friendly acquisition              MMS agreed with the recommendation
system. We concluded that DO1 should               addressed to it, we required additional
continuously evaluate this new system to           information for the recommendation.
ensure that it provides needed functional
requirements, satisfies user needs, and meets
funding targets and milestone completion          National Park Service
dates. Cognizant DO1 managers agreed with
and implemented the report’s one                  Maintenance Management
recommendation.                                   Problems Not Corrected

Mineral Leasing Program Costs
Distributed Inequitably                           I  n a followup audit on NPS maintenance,
                                                     we found that three of eight
                                                  recommendations made in two prior audit

0      ur audit of BLM, MMS, and
       U.S. Forest Service mineral leasing
program cost deductions found that state
                                                  reports had not been fully implemented.
                                                   Specifically, NPS had not actively pursued
                                                  opportunities to assign maintenance
cost-sharing amounts were computed and            responsibilities to concessioners or to fully
deducted from states’ mineral leasing             recover the costs it incurred to maintain park
receipts on a timely basis. However, the          facilities used by concessioners. We
methods used by the three agencies to             identified unreimbursed costs of $597,000
determine the amount of cost deductions for       that were incurred by NPS to maintain
fiscal years 1994 through 1996 did not result     concessioner or lessee facilities at four
in an equitable distribution of mineral           locations. We also found that NPS did not
leasing program costs. The inequitable            have a standardized maintenance
distributions occurred because the three          management system which met the
agencies had not adopted policies or              requirements of Public Law 98-540 (an act
                                                  to amend the Volunteers in the Park Act of

24           Semiannual Report to the Congress: October 1,1997 - March 3 1, 1998
 1969). These conditions occurred because         monies of $17.5 million were used or
NPS had not modified maintenance                 planned for use on projects that did not
agreements or reissued or revised concession      directly support concession operations or
contracts to require concessioners to assume     that benefited both NPS and the
responsibility for all maintenance of their      concessioner and thus would have been
facilities. Also, some park units had             appropriate for cost sharing. Improvement
discontinued use of the standardized              account funds of $1.2 million were also used
maintenance management system, and no            to pay expenses that were later considered to
NPS-wide replacement system had been             be improper under the 1995 guidance, and in
introduced. We recommended that NPS              one case, account funds of $823,000 were
modify maintenance agreements to require         used for a project in which the concessioner
concessioners and lessees to perform or pay      improperly received a possessory interest.
for the maintenance of their facilities. We      In a related matter, we found that one
also recommended that NPS report the lack        concessioner had spent $100,000 less than
of a standardized system as a management         the required amount on its capital
control weakness and comply with the             improvement program. We also found that
legislative requirement to operate a             two concessioners should have deposited
standardized maintenance management              additional funds totaling $124,800 into their
system. NPS’s response to the four               improvement accounts. We recommended
recommendations in the final report was not      that NPS revise its 1995 guidance and
due during this semiannual reporting period.     ensure that the uses of and contributions to
                                                 concessioner improvement accounts are
Inadequacies in Concessioner                     consistent with the guidance and in
Improvement Account Procedures                   accordance with contract provisions. Based
                                                 on NPS’s response, we considered one of
Cited                                            the report’s three recommendations resolved
                                                 and implemented and two recommendations
B      ased on our audit, we concluded that
       funds deposited by concessioners into
improvement accounts benefited the parks
                                                 unresolved.

by financing the construction of new park         Costs of $1,464,523 on Repair
facilities and enhancements to existing           Contract Questioned
facilities. However, we found that NPS had
not provided clear, sufficient, and timely
guidance to ensure that monies deposited
into improvement accounts were used
                                                  I n 1992, NPS awarded a contract to repair
                                                    cracked concrete slabs in the parking
                                                 garage at the John F. Kennedy Center for the
appropriately. NPS, which first authorized       Performing Arts. After modifications, the
concessioner improvement accounts in 198 1,      contract totaled $14.2 million. In June 1996,
had not issued procedures on the use of          the contractor submitted a request for
these funds until 1995 and did not modify        additional costs of $1,497,737, which,
existing contracts once the procedures were      according to the contractor’s claim, were
issued to incorporate the new guidance. As       incurred as a result of “defective shoring
a result, concessioner improvement account       specifications”; ” interference” by NPS

             Semiannual Report to the Congress: October 1,1997 - March 3 1,1998            25
personnel with the contractor’s work, which       contract totaled $2,249,663. In 1996, the
caused “delays and lost efficiency of labor”;     contractor submitted a request for an
and “failure to respond to new shoring plans      additional $505,604, allegedly because of a
submitted by the contractor” within the time      delay caused by differing site conditions
frame specified in the contract. Based on         previously known to NPS which were of
our audit of these additional costs, we           “such magnitude” as to change the general
questioned the allowability of $1,464,523         scope of the contract. Of the $505,604
because the contractor did not provide            claimed, we questioned the allowability of
adequate documentation to support the             $468,826 because the contractor’s
amounts claimed. NPS’s response to the            accounting records and an NPS technical
report was not due during this semiannual         evaluation did not support these costs. The
reporting period.                                 costs were for direct labor; small tools;
                                                  consumables; excavation and shoring;
Net Costs of $126,177 for                         additional expediting trips; general
Renovation of Utilities Questioned                administration; and home office overhead,
                                                  profit, bonding, insurance, and claim
                                                  preparation. NPS’s response to the report
I  n 1994, NPS issued a 3-year,
   $11.1 million contract for the renovation
of utilities at a historical location. The
                                                  was not due during this semiannual
                                                  reporting period.
primary contractor issued a subcontract in
the amount of $2,100,755 to provide all           Office of the Special
sheet metal work for the renovation and
issued another subcontract for $629,378 for       Trustee for American
carpentry and excavation work. Based on
our audit of costs billed of $1,9 11,427 for
                                                  Indians
the sheet metal work, we questioned the
allowability of $154,238 because the actual       Accountability Over Monies and
overhead rate for these costs was less than       Trust Funds Inadequate
the billed overhead rate. Based on our audit
of costs of $739,769 billed for carpentry and
excavation work, we increased the amount
billed by a net amount of $28,061. NPS’s
                                                   0     IG issued an audit report prepared by
                                                         an independent public accountant on
                                                  the financial statements for fiscal year 1996
responses to these two reports were not due       for tribal, individual Indian monies, and
during this semiannual reporting period.          other special trust funds managed by the
                                                  Office of Trust Funds Management, which is
Costs of $468,826 for Upgrading                   under the Office of the Special Trustee for
Wastewater Facilities Questioned                  American Indians. The financial statements,
                                                  prepared by the Office of Trust Funds
                                                  Management, reported a trust fund balance
I n 1994, NPS issued a contract to upgrade
  the Paradise Wastewater Treatment
Facilities at Mount Rainier National Park,
                                                  of approximately $2.8 billion.

Washington. After modifications, the

26           Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998
 The independent public accountant rendered         conditions identified in the December 1996
 a qualified opinion on the financial               audit report “Statement of Assets and Trust
 statements for fiscal year 1996 because cash       Fund Balances at September 30, 1995, of
 and overnight investments could not be             the Trust Funds Managed by the Office of
 independently verified, cash balances were         Trust Funds Management, Bureau of Indian
 materially greater than those reported by the      Affairs” (No. 97-I- 196).
 U.S. Treasury, and major deficiencies in
 accounting systems controls and records            Based on the responses from the Office of
 caused the systems to be unreliable. These         Trust Funds Management and BIA to the
 conditions prevented certain material              14 recommendations addressing fiscal year
 accounts from being audited. In addition,          1996 activities, we considered
 the report stated that various tribal              2 recommendations resolved and
organizations and individual Indians for            implemented and 12 recommendations
whom the Office of the Special Trustee held         resolved but not implemented.
assets did not agree with certain balances
reported by the Office and have filed claims
against the Office over its fiduciary
                                                    U.S. Fish and Wildlife
responsibilities. The independent public            Service
accountant’s report on the internal
accounting control structure contained
                                                    Costs Questioned, Revenues Not
 14 recommendations to address three
material weaknesses, nine reportable                Properly Used for Colorado’s Sport
                                                    Fish and Wildlife Program

                                                      e
conditions, and two advisory comments.


                                                    W
The independent public accountant’s report
on compliance with laws and regulations                      questioned costs of $4,842 (of
contained a notice that some tribal                         which $3,632 was the Federal share)
organizations and classes of Indian                related to grant funds provided to the State
individuals had filed various claims against       of Colorado under the Federal Aid in Sport
the Federal Government, stating that the           Fish and the Federal Aid in Wildlife
Federal Government had not fulfilled its           Restoration Acts. We also found that the
fiduciary responsibilities. The report also        State had not complied with the Acts’
addressed a material noncompliance issue           requirements regarding the use of revenues
relating to the unauthorized disbursement of       from the sale of fishing and hunting licenses.
trust funds and three immaterial                   Although Federal regulations required the
noncompliance issues.                              State to use license revenues solely for
                                                   wildlife program purposes, the State used
In addition to the results of the audit of the     license revenues to buy property that was
financial statements as of and for the year        used and/or managed by parties other than
ended September 30, 1996, the independent          the State’s Division of Wildlife and to pay
public accountant’s report stated that the         for the control of depredating animals and
Office of Trust Funds Management and BIA           for damage caused by predatory animals
had made minimal progress in addressing            when such costs may not have been related
the material weaknesses and reportable             to the State’s wildlife program. Also,

              Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998            27
entrance fees of at least $1.2 million from       Guilty Plea Entered in Child
the use of properties purchased with license      Pornography Case
revenues and revenues of $250,000 from
annual passes were not remitted to the
Division for wildlife program use, as
required by the Acts. The report, addressed
                                                  A     USGS employee in Texas used a
                                                         Government computer during office
                                                  hours to access Internet sites that contained
to FWS’s Region 6, contained eight
                                                  adult and child pornography. A joint
recommendations for strengthening controls
                                                  OIG-FBI investigation disclosed that the
over the State’s wildlife program. Based on
                                                  employee used the Government computer
the response, we considered three
                                                  while on duty to obtain and store
recommendations resolved and
                                                  pornographic material. Subsequent to being      .
implemented; four recommendations
                                                  interviewed by an OIG special agent, the
resolved but not implemented; and one
                                                  individual resigned from Government
recommendation, with which FWS
                                                  employment.
disagreed, unresolved.
                                                 On February 24,1998, in Federal court in
U.S. Geological Survey                           San Antonio, Texas, the former employee
                                                 pled guilty to possession of child
Costs of $130,371 for Technical                  pornography involving the sexual
Services Questioned                              exploitation of minors. As part of the plea
                                                 agreement, the Government agreed not to
                                                 prosecute the individual for the theft of
D      uring 199 1, USGS awarded a contract
       totaling $446,948 for technical support
services that included systems analysis and
                                                 services related to the misuse of
                                                 Government time, equipment, and facilities
                                                 in the commission of the crime. Sentencing
design of the National Water Information
                                                 was pending during this semiannual
System. The contractor billed USGS for
                                                 reporting period.
costs of $514,308. Based on our audit, we
questioned $130,37 1, which consisted of
(1) billed overhead costs that exceeded
actual overhead costs and (2) general and
administrative costs and fixed fees that were
associated with the questioned overhead
costs. The contracting officer agreed to
disallow the $130,73 1. Accordingly, we
referred this information to the Departmental
Audit Followup Official to ensure that these
costs were collected.




28           Semiannual Report to the Congress: October 1,1997 - March 3 1,1998
                                               APPENDIX 1

                     SUMMARY OF AUDIT ACTIVITIES FROM
                    OCTOBER 1,1997, THROUGH MARCH 31,1998
                                        AUDlCTS PERFORMED BY:
                                                   OTHER
                                                  FEDERAL             NON-FEDERAL
                                                 AUDITORS                AUDITORS
                                               (With Review and       (With Review and
                                                 Processing by          Processing by
                              OIG STAFF           OIG Staff)             OIG Staff)
                              Internal and       Contract and
                             Contract Audits     Grant Audits           Single Audits    TOTAL

REPORTS ISSUED TO:
Department/
Office of the
Secretary                           4                  0                       2            6
Fish and Wildlife
and           Parks                 8                  4                     24            36
Indian             Affairs          2                  2                    167           171
Insular            Areas           12                  0                     27            39
Land and Minerals
Management                         10                  8                      11           29
Water        and     Science       10                 4                       4            18
  Subtotat                         46                 18                    235           299
                       1
INDIRECT COST PROPOSALS NEGOTIATED FOR:
Indian Tribes and
Organizations                      55                 0                       0            55
Insular            Areas            5                 0                       0             5
State           Agencies           30                 0                       0            30
  SubtotaI                         90                 0                       0            90
    TOTAL                         136                18           I        235            389




                Semiannual Report to the Congress: October 1,1997 - March 3 1,1998               29
                                                              APPENDIX 2

  AUDIT REPORTS ISSUED OR PROCESSED AND INDIRECT COST
 PROPOSALS NEGOTIATED DURING THE 6-MONTH PERIOD ENDED
                     MARCH 31,1998

     This listing includes all internal, contract, and single audit reports issued and indirect cost agreements negotiated during the bmonth period
     ended March 31, 19%. It provides report number, title, issue date. and monetary amounts idcntificd in each report (*funds to be put to better
     use, **questioned costs, ***unsupported costs [unsupported costs are included in questioned cost& and ****lost or potential additionai
     revenues>.



                                                     BUREAU OF                                                 98-I-383 CENTRAL VALLEY
INTERNAL AUDITS                                                                                                PROJECT RESTORATION
                                                     RECLAMATION
                                                                                                               FUND, BUREAU OF
BUREAU OF INDIAN                                                                                               RECLAMATION (3/3 l/98)
                                                     98-I-190 SAFETY OF DAMS
AFFAIRS                                              PROJECT CONSTRUCTED
                                                     BY THE BUREAU OF                                          INSULAR AREAS
98-I-283 USE OF THE                                  RECLAMATION AT
GOVERNMENTWIDE                                       COOLIDGE DAM (l/l 2/98)                                   Guam
PURCHASE CARD, BUREAU
OF INDIAN AFFAIRS                                    98-I-250 FOLLOWUP OF                                      98-I-l 4 PROCUREMENT
(2127198)                                            RECOVERY OF IRRIGATION                                    ACTIVITIES, PORT
                                                     INVESTMENT COSTS,                                         AUTHORITY OF GUAM,
                                                     BUREAU OF RECLAMATION                                     GOVERNMENT OF GUAM
BUREAU OF LAND
                                                     (2113198)                                                 (10/7/97) *$1,635,916
MANAGEMENT
                                                     98-I-253 USE OF THE                                       98-I-l 79 PROTECTION AND
98-I-234 BUREAU OF LAND                              GOVERNMENTWIDE                                            ADVOCACY OF THE
MANAGEMENT                                           PURCHASE CARD, BUREAU                                     MARIANAS, TERRITORY OF
CONSOLIDATED                                         OF RECLAMATION (2/17/98)                                  GUAM (12/23/97) **$743,995
COMPARATIVE FINANCIAL
STATEMENTS FOR FISCAL                                98-I-258 DETERMINATION                                    98-I-264 LEGISLATURE
YEARS 1996 AND 1997                                  OF THE REIMBURSABILITY                                    CAPITAL IMPROVEMENT
(l/16/98)                                            OF ENVIRONMENTAL                                          FUND, GUAM
                                                     ACTIVITIES COSTS                                          LEGISLATURE,
98-I-352 USE OF THE                                  ASSOCIATED WITH GLEN                                      GOVERNMENT OF GUAM
GOVERNMENTWIDE                                       CANYON DAM BY THE                                         (2/20/98) *$9,913,005 AND
PURCHASE CARD, BUREAU                                BUREAU OF RECLAMATION                                     ****!$19,250
OF LAND MANAGEMENT                                   (2123198)
(3/3 l/98)                                                                                                     98-I-335 PROGRAMS AND
                                                      98-I-261 BUREAU OF                                       OPERATIONS,
98-I-363 THE DEL WEBB                                 RECLAMATION FINANCIAL                                    DEPARTMENT OF
LAND EXCHANGE IN                                      STATEMENTS FOR FISCAL                                    VOCATIONAL
NEVADA, BUREAU OF                                     YEARS 1996 AND 1997                                      REHABILITATION,
LAND MANAGEMENT                                       (2125198)                                                GOVERNMENT OF GUAM
(3/23/98)                                                                                                      (3116198) **$1,137,159




30                Semiannual Report to the Congress: October 1,1997 - March 3 1,1998
U.S. Virgin Islands             98-E-343 VERIFICATION OF         MULTI-OFFICE
                                WATCH QUOTA DATA FOR
                                CALENDAR YEAR 1997               98-I-79 COSTS RECOVERED
98-E-98 EXPENDITURES
                                SUBMITTED BY FIRMS               THROUGH NET RECEIPTS
CLAIMED AGAINST THE
                                LOCATED IN THE                   SHARING DEDUCTIONS,
FEDERAL EMERGENCY
                                U.S. VIRGIN ISLANDS              MINERALS MANAGEMENT
MANAGEMENT AGENCY’S
                                (302198)                         SERVICE AND BUREAU OF
COMMUNITY DISASTER
LOAN, GOVERNMENT OF                                              LAND MANAGEMENT
                                98-I-384 HURRICANE-              (1 O/22/97)
THE VIRGIN ISLANDS
                                RELATED CONTRACTING,
(1 l/12/97) *$21,700
                                DEPARTMENT OF                    98-I-242 INTERIOR
                                EDUCATION,                       DEPARTMENT ELECTRONIC
98-I-187 STATUS OF
                                GOVERNMENT OF THE                ACQUISITION SYSTEM
INTERFUND LOANS AND
                                VIRGIN ISLANDS (3/3 l/98)        (IDEAS) (216198)
OTHER OBLIGATIONS,
                                **$5,418
GOVERNMENT OF THE
VIRGIN ISLANDS (12/l 9/97)                                       98-T-350 TESTIMONY ON
                                MINERALS                         FACILITIES MAINTENANCE
98-I-188 INTERNAL               MANAGEMENT                       AT THE BUREAU OF LAND
REVENUE TAXES, BUREAU                                            MANAGEMENT AND THE
                                SERVICE
OF INTERNAL REVENUE,                                             U.S. FISH AND WILDLIFE
GOVERNMENT OF THE                                                SERVICE (3127198)
                                98-I-336 GENERAL
VIRGIN ISLANDS (12/30/97)       CONTROLS OVER THE
****$11,919,000                 AUTOMATED                        NATIONAL PARK
                                INFORMATION SYSTEMS,             SERVICE
98-I-191 BUILDING PERMIT        ROYALTY MANAGEMENT
FEES, DEPARTMENT OF             PROGRAM, MINERALS                98-I-344 FOLLOW-UP OF
PLANNING AND NATURAL            MANAGEMENT SERVICE               MAINTENANCE
RESOURCES,                      (3123198)                        ACTIVITIES, NATIONAL
GOVERNMENT OF THE                                                PARR SERVICE (3127198)
VIRGIN ISLANDS ( 12/30/97)      98-I-382 MINERALS                *$597,000
****$155,069                    MANAGEMENT SERVICE
                                FINANCIAL STATEMENTS             98-I-389 CONCESSIONER
98-I-263 SEWAGE SYSTEM          FOR FISCAL YEARS 1996            IMPROVEMENT ACCOUNTS,
USER FEES, GOVERNMENT           AND 1997 (3/27/98)               NATIONAL PARR SERVICE
OF THE VIRGIN ISLANDS                                            (3/3 l/98) *$224,800
(2/20/98) ****$897,212           98-I-385 FOLLOWUP OF
                                 OFFSHORE MINERALS               OFFICE OF THE
98-I-293 BUSINESS                LEASING ACTIVITIES,             SECRETARY
LICENSING FEES,                  MINERALS MANAGEMENT
DEPARTMENT OF                    SERVICE (3/27/98)               98-I-299 DEPARTMENT OF
LICENSING AND                    ****$20,700,000                 THE INTERIOR
CONSUMER AFFAIRS,                                                DEPARTMENTAL OFFICES
GOVERNMENT OF THE                                                FINANCIAL STATEMENTS
VIRGIN ISLANDS (2/27/98)                                         FOR FISCAL YEARS 1996
****$4,438,470                                                   AND 1997 (2/26/98)




             Semiannual Report to the Congress: October 1,1997 - March 3 1,1998           31
Office of Insular Affairs       U.S. FISH AND                     98-E-51 INFOTEC
                                WILDLIFE SERVICE                  DEVELOPMENT, INC.,
 98-I-300 OFFICE OF                                               FEDERAL SYSTEMS
INSULAR AFFAIRS                 98-I-224 FINANCIAL                DIVISION, COSTS
FINANCIAL STATEMENTS            ACTIVITIES OF                     INCURRED FOR FISCAL
FOR FISCAL YEARS 1996           UNDERCOVER BUSINESS               YEAR ENDED
AND 1997 (2/26/98)              INV#6806AP, U.S. FISH AND         SEPTEMBER 30, 1994
                                WILDLIFE SERVICE ( l/26/98)       (10/16/97)
OFFICE OF THE
                                                                  98-E-70 ZOLMAN
SPECIAL TRUSTEE                 U.S. GEOLOGICAL                   CONSTRUCTION AND
FOR AMERICAN                    SURVEY                            DEVELOPMENT, INC.,
INDIANS                                                           CLAIM FOR EQUITABLE
                                98-I-31 6 USE OF THE              ADJUSTMENT SUBMITTED
98-I-206 FINANCIAL              GOVERNMENTWIDE                    TO BUREAU OF LAND
STATEMENTS FOR FISCAL           PURCHASE CARD,                    MANAGEMENT UNDER
YEAR 1996 FOR OFFICE OF         U.S. GEOLOGICAL SURVEY            CONTRACT
THE SPECIAL TRUSTEE FOR         (3/l 8198)                        NO. 1422-N65 1 -C5-2004
AMERICAN INDIANS                                                  (1 O/23/97) *$79,907
TRIBAL, INDIVIDUAL              CONTRACT AND
INDIAN MONIES, AND                                                98-E-131 IBM
OTHER SPECIAL TRUST
                                GRANT AUDITS                      GOVERNMENT SYSTEMS,
FUNDS MANAGED BY THE                                              COSTS BILLED UNDER
OFFICE OF TRUST FUNDS           BUREAU OF INDIAN                  BUREAU OF LAND
MANAGEMENT (l/23/98)            AFFAIRS                           MANAGEMENT CONTRACT
                                                                  NO. N-652-C-3-0002,
OFFICE OF SURFACE               98-E-238 LUTHER                   SUBCONTRACT NO. 034228,
                                CONSTRUCTION COMPANY,             FOR FISCAL YEAR ENDED
MINING
                                REQUEST FOR EQUITABLE             DECEMBER 3 1, 1993
RECLAMATION AND                 ADJUSTMENT SUBMITTED              (1 l/19/97) **$30,620
ENFORCEMENT                     UNDER BUREAU OF INDIAN
                                AFFAIRS CONTRACT                  98-E-199 IBM
98-I-197 USE OF THE             NO. K600941427 (l/28/98)      ’   GOVERNMENT SYSTEMS,
GOVERNMENTWIDE                  *$212,3 14                        COSTS BILLED FOR
PURCHASE CARD, OFFICE                                             BUREAU OF LAND
OF SURFACE MINING               BUREAU OF LAND                    MANAGEMENT CONTRACT
RECLAMATION AND                                                   NO. N-652-C-3-0002,
                                MANAGEMENT
ENFORCEMENT (l/16/98)                                             SUBCONTRACT NO. 034228,
                                98-E-l 1 COMPUTER                 FOR FISCAL YEAR ENDED
98-I-235 OFFICE OF                                                DECEMBER 3 1, 1994 (l/5/98)
                                SCIENCES CORPORATION,
SURFACE MINING
                                SYSTEM SCIENCES
RECLAMATION AND                                                   98-E-225 COMPUTER
                                DMSION, TIMEKEEPING
ENFORCEMENT                                                       SCIENCES CORPORATION,
                                PRACTICES FOR THE
CONSOLIDATED                                                      SYSTEM SCIENCES
                                PERIOD ENDED MARCH 28,
FINANCIAL STATEMENTS                                              DIVISION, COSTS
                                1997 (10/6/97)
FOR FISCAL YEARS 1996                                             INCURRED FOR FISCAL
AND 1997 (l/20/98)                                                YEAR ENDED MARCH 3 1,
                                                                  1995 (l/13/98)




32          Semiannual Report to the Congress: October 1,1997 - March 3 1,1998
BUREAU OF                      98-E-132 AMERICAN                 98-E-3 13 CAPITOL
                               MANAGEMENT SYSTEMS                MECHANICAL
RECLAMATION
                               OPERATIONS                        CONTRACTORS, INC.,
                               CORPORATION, INC., COSTS          COSTS INCURRED DURING
98-E-241 ASARCO SANTA
                               INCURRED FOR THREE                TWO FISCAL YEARS ENDED
CRUZ, INC., ACTING FOR
                               FISCAL YEARS ENDED                DECEMBER 3 1, 1996, UNDER
THE SANTA CRUZ JOINT
                               DECEMBER 3 1,1995                 NATIONAL PARK SERVICE
VENTURE, COSTS
                               (1 l/19/97) **$56,997             CONTRACT NO.
INCURRED UNDER
                                                                 1443CX300094906 (3/3/98)
COOPERATIVE
                               98-E-351 CONTINENTAL              **$154,238
AGREEMENT NO. CO289001
                               SHELF ASSOCIATES, INC.,
(l/27/98) **$120,774
                               LABOR FLOORCHECKS FOR             U.S. FISH AND
                               FISCAL YEAR ENDED                 WILDLIFE SERVICE
 98-E-255 SOUTHWEST
                               DECEMBER 3 1, 1997 (3/l 7/98)
CONTRACTING, INC.,
COSTS INCURRED UNDER                                             98-E-13 U.S. FISH AND
BUREAU OF RECLAMATION          NATIONAL PARR                     WILDLIFE SERVICE
CONTRACT                       SERVICE                           FEDERAL AID GRANTS TO
NO. 9-PA-40-07990,                                               NORTH CAROLINA’S
DELIVERY ORDER NO. 032         98-E-2 17 RAMPART                 DIVISION OF MARINE
(2/5/98) **$5,25 1             WATERBLAST, INC., CLAIM           FISHERIES FOR THREE
                               SUBMITTED TO THE                  FISCAL YEARS ENDED
98-E-341 BURNS AND ROE         NATIONAL PARK SERVICE             JUNE 30, 1996 (10/6/97)
SERVICES CORPORATION,          UNDER CONTRACT                    **$198,940
LABOR REVIEW FOR               NO. 1443CX-3000-93-904
CALENDAR YEAR ENDED            (l/8/98) *$1,464,523              98-E-198 U.S. FISH AND
DECEMBER 3 1, 1997                                               WILDLIFE SERVICE
(3/l 7/98)                     98-E-245 CALLAS                   FEDERAL AID GR4NTS TO
                               CONTRACTORS, INC.,                COLORADO FOR TWO
MINERALS                       COSTS INCURRED FOR TWO            FISCAL YEARS ENDED
                               FISCAL YEARS ENDED                JUNE 30, 1995 (l/16/98)
MANAGEMENT
                               FEBRUARY 29,1996, AND             **$3,632, ***$3,632, AND
SERVICE                        10 MONTHS ENDED                   *$ 1,450,000
                               DECEMBER 3 1,1996, UNDER
98-E-82 SOURCE ONE             NATIONAL PARK SERVICE             98-E-226 U.S. FISH AND
MANAGEMENT, INC.,              CONTRACT                          WILDLIFE SERVICE
COSTS INCURRED FOR             NO. 1443CX300094906               FEDERAL AID GRANTS TO
FISCAL YEAR ENDED              (l/27/98)                         WASHINGTON’S
DECEMBER 3 1, 1994                                               DEPARTMENT OF FISH AND
( 1 O/29/97)                   98-E-295 OLYMPIC                  WILDLIFE FOR TWO FISCAL
                               WESTERN COMPANY,                  YEARS ENDED JUNE 30,
98-E-83 SOURCE ONE             CLAIM FOR EQUITABLE               1996 (l/14/98) **$217,500
MANAGEMENT, INC.,              ADJUSTMENT SUBMITTED
COSTS INCURRED FOR             TO THE NATIONAL PARK              98-E-232 U.S. FISH AND
FISCAL YEAR ENDED              SERVICE UNDER                     WILDLIFE SERVICE
DECEMBER 3 1, 1995             CONTRACT                          FEDERAL AID GRANTS TO
(1 O/29/97)                    NO. 1443CX900094903               FLORIDA’S GAME AND
                               (314198) *$468,826                FRESH WATER FISH            t
                                                                 COMMISSION FOR TWO
                                                                 FISCAL YEARS ENDED
                                                                 JUNE 30, 1996 (l/28/98)
                                                                 **$254,140


           Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998         33
98-E-390 U.S. FISH AND          SINGLE AUDITS                     98-A-20 DEVILS LAKE
WILDLIFE SERVICE                                                  PUBLIC SCHOOL DISTRICT
FEDERAL AID GRANTS TO                                             NO. 1, FISCAL YEAR ENDED
                                BUREAU OF INDIAN                  JUNE 30, 1997 (10/7/97)
TENNESSEE FOR TWO
FISCAL YEARS ENDED
                                AFFAIRS
JUNE 30, 1996 (3/31/98)                                           98-A-24 CONFEDERATED
                                98-A-2 METLAKATLA                 TRIBES OF THE WARM
?$959,477
                                INDIAN COMMUNITY,                 SPRINGS RESERVATION OF
                                FISCAL YEAR ENDED                 OREGON, FISCAL YEAR
U.S. GEOLOGICAL                 SEPTEMBER 30,1996                 ENDED DECEMBER 3 1,1996
SURVEY                          ( 1 O/2/97)                       (10/9/97)

98-E-l COMPUTER                 98-A-3 NATIVE VILLAGE             98-A-25 SANTA ANA
MANAGEMENT SERVICES,            OF KIANA, FISCAL YEAR             PUEBLO, FISCAL YEAR
FINAL COSTS INCURRED            ENDED DECEMBER 3 1,1996           ENDED SEPTEMBER 30,1996
UNDER U.S. GEOLOGICAL           (1012197)                         ( 1 O/9/97)
SURVEY CONTRACT
NO. 14-08-0001-23599            98-A-4 NATIVE VILLAGE             98-A-26 BRIDGEPORT
(10/2/97) **$130,371            OF DEERING, FISCAL YEAR           INDIAN RESERVATION,
                                ENDED AUGUST 3 1,1996             FISCAL YEAR ENDED
98-E-48 THE AEROSPACE           (10/2/97) **$3,989                DECEMBER 3 1, 1996 ( 1 O/9/97)
CORPORATION,
SUPPLEMENTAL AUDIT OF           98-A-5 AUGUSTINE BAND             98-A-27 SANDIA PUEBLO,
COSTS INCURRED FOR              OF MISSION INDIANS,               FISCAL YEAR ENDED
FISCAL YEAR ENDED               FISCAL YEAR ENDED                 DECEMBER 3 1, 1996 (1 O/9/97)
SEPTEMBER 30,1988               DECEMBER 3 1, 1996 (1 O/2/97)
(10/16/97)                                                        98-A-28 SANTO DOMINGO
                                98-A-6 STEVENS VILLAGE            TRIBE, FISCAL YEAR
98-E-49 THE AEROSPACE           COUNCIL, FISCAL YEAR              ENDED SEPTEMBER 30,1995
CORPORATION,                    ENDED SEPTEMBER 30,1996           (1 O/9/97)
SUPPLEMENTAL AUDIT OF           (1 O/2/97)
COSTS INCURRED FOR                                                98-A-29 UTE MOUNTAIN
FISCAL YEAR ENDED                98-A-7 BEAVER VILLAGE            UTE TRIBE, FISCAL YEAR
SEPTEMBER 30,1989                COUNCIL, FISCAL YEAR             ENDED SEPTEMBER 30,1995
(10/16/97)                       ENDED SEPTEMBER 30,1996          ( 1 O/9/97)
                                 (1 O/2/97)
98-E-50 THE AEROSPACE                                             98-A-30 UTE MOUNTAIN             !
CORPORATION,                     98-A-8 KOBUK                     UTE TRIBE, FISCAL YEAR           P.f
SUPPLEMENTAL AUDIT OF            TRADITIONAL COUNCIL,             ENDED SEPTEMBER 30,1996
COSTS INCURRED FOR               FISCAL YEAR ENDED                ( 1 O/9/97)
FISCAL YEAR ENDED                AUGUST 3 1, 1996 ( 1 O/2/97)
SEPTEMBER 30,199O                                                 98-A-31 LEUPP SCHOOLS,
(10/16/97)                       98-A-9 LUMMI INDIAN              INC., FISCAL YEAR ENDED
                                 BUSINESS COUNCIL,                JUNE 30, 1994 (10/9/97)
                                 FISCAL YEAR ENDED
                                 DECEMBER 3 1, 1996 (1 O/2/97)    98-A-32 LEUPP SCHOOLS,
                                                                  INC., FISCAL YEAR ENDED
                                 98-A-10 LUMMI INDIAN             JUNE 30, 1995 (10/9/97)
                                 BUSINESS COUNCIL,                * *$4,486
                                 FISCAL YEAR ENDED
                                 DECEMBER 3 1, 1995 ( 1 O/2/97)



 34          Semiannual Report to the Congress: October 1,1997 - March 3 1,1998
98-A-33 SENECA-CAYUGA          98-A-52 SAULT STE. MARIE         98-A-62 COW CREEK BAND
TRIBE OF OKLAHOMA,             TRIBE OF CHIPPEWA                OF UMPQUA TRIBE OF
FISCAL YEAR ENDED              INDIANS, FISCAL YEAR             INDIANS, FISCAL YEAR
SEPTEMBER 30,1996              ENDED DECEMBER 3 1,1996          ENDED DECEMBER 3 1,1996
( 1 O/9/97)                    (1006197)                        (10/16/97)

98-A-34 SISSETON-              98-A-53 LOWER BRULE              98-A-63 MUSCOGEE
WAHPETON SIOUX TRIBE,          SIOUX TRIBE, FISCAL YEAR         (CREEK) NATION, FISCAL
FISCAL YEAR ENDED              ENDED SEPTEMBER 30,1995          YEAR ENDED
SEPTEMBER 30,1996              (10/16/97)                       SEPTEMBER 30,1996
(10/9/97) **$3,891                                              ( 1 O/23/97)
                               98-A-54 INTER-TRIBAL
98-A-36 BAY MILLS INDIAN       COUNCIL OF MICHIGAN,             98-A-65 WAHLUKE SCHOOL
COMMUNITY, FISCAL YEAR         INC., FISCAL YEAR ENDED          DISTRICT NO. 73, TWO
ENDED DECEMBER 3 1,1996        SEPTEMBER 30,1996                FISCAL YEARS ENDED
( 1 O/9/97)                    (10/16/97)                       AUGUST 3 1, 1996 (10/22/97)

98-A-37 SENECA NATION          98-A-56 ST. CROIX                98-A-67 MOORETOWN
OF INDIANS, FISCAL YEAR        CHIPPEWA OF WISCONSIN,           RANCHERIA, FISCAL YEAR
ENDED SEPTEMBER 30,1996        FISCAL YEAR ENDED                ENDED DECEMBER 3 1,1996
(10/9/97)                      SEPTEMBER 30,1995                ( 1 O/23/97)
                               (10/16/97) **$1,062
98-A-38 HOULTON BAND                                            98-A-68 PALA BAND OF
OF MALISEET INDIANS,           98-A-57 EASTERN BAND OF          MISSION INDIANS, FISCAL
FISCAL YEAR ENDED              CHEROKEE INDIANS,                YEAR ENDED
SEPTEMBER 30, 1996             FISCAL YEAR ENDED                DECEMBER 3 1, 1996
(1019197)                      SEPTEMBER 30,1996                ( 1 O/23/97)
                               (10/16/97)
98-A-39 SICANGU OYATE                                           98-A-69 ASSOCIATION OF
HO, INC., FISCAL YEAR          98-A-58 KAWERAK, INC.,           VILLAGE COUNCIL
ENDED JUNE 30,1996             FISCAL YEAR ENDED                PRESIDENTS, INC., FISCAL
( 1 O/9/97)                    DECEMBER 3 1,1996                YEAR ENDED
                               (10/16/97)                       DECEMBER 3 1,1996
98-A-40 SAN CARLOS                                              ( 1 O/23/97)
APACHE TRIBE, FISCAL           98-A-59 SUQUAMISH
YEAR ENDED                     TRIBE, FISCAL YEAR               98-A-71 DELAWARE TRIBE
SEPTEMBER 30,1996              ENDED DECEMBER 3 1,1996          OF WESTERN OKLAHOMA,
( 1 O/9/97)                    (10/16/97)                       FISCAL YEAR ENDED
                                                                SEPTEMBER 30,1996
98-A-46 YUPIIT SCHOOL          98-A-60 MUCKLESHOOT              (10/23/97)
DISTRICT, FISCAL YEAR          INDIAN TRIBE, FISCAL
ENDED JUNE 30,1997             YEAR ENDED                       98-A-72 ORGANIZED
(10/14/97)                     DECEMBER 3 1,1996                VILLAGE OF KAKE, FISCAL
                               (10/16/97)                       YEAR ENDED
98-A-47 LOWER YUKON                                             DECEMBER 3 1,1996
SCHOOL DISTRICT, FISCAL        98-A-61 OTTAWA TRIBE OF          ( 1 O/23/97)
YEAR ENDED JUNE 30,1997        OKLAHOMA, FISCAL YEAR
(10/15/97)                     ENDED SEPTEMBER 30,1996
                               (10/16/97)




           Semiannual Report to the Congress: October 1,1997 - March 3 1,1998           35
98-A-73 SOUTHERN UTE             98-A-89 SAN JUAN PUEBLO,         98-A-101 YUROK TRIBE,
INDIAN TRIBE, FISCAL             FISCAL YEAR ENDED                FISCAL YEAR ENDED
YEAR ENDED                       DECEMBER 3 1,1996                SEPTEMBER 30,1996
SEPTEMBER 30,1996                (10/30/97)                       (1 l/6/97)
( 1 O/23/97)
                                 98-A-90 PORT GAMBLE              98-A-102 SAUK-SUIATTLE
98-A-74 SAC AND FOX              S’KLALLAM TRIBE, FISCAL          INDIAN TRIBE, FISCAL
NATION OF MISSOURI,              YEAR ENDED                       YEAR ENDED
FISCAL YEAR ENDED                DECEMBER 3 1, 1996               DECEMBER 3 1, 1996 ( 1 l/6/97)
SEPTEMBER 30,1996                ( 1 O/30/97)
( 1 O/23/97)                                                      98-A-103 BLUE LAKE
                                 98-A-91 CONFEDERATED             RANCHERJA BUSINESS
98-A-75 YAVAPAI-APACHE           TRIBES OF THE GRAND              COUNCIL, FISCAL YEAR
TRIBE, FISCAL YEAR               RONDE COMMUNITY OF               ENDED DECEMBER 3 1,1996
ENDED DECEMBER 3 1,1996          OREGON, FISCAL YEAR              (1116197)
( 1 O/23/97)                     ENDED DECEMBER 3 1,1996
                                 (10/30/97)                       98-A-104 KARLUK IRA
98-A-76 CHOCTAW NATION                                            TRIBAL COUNCIL, FISCAL
OF OKLAHOMA, FISCAL              98-A-92 ABSENTEE                 YEAR ENDED
YEAR ENDED                       SHAWNEE TRIBE OF                 SEPTEMBER 30, 1995
SEPTEMBER 30,1996                OKLAHOMA, FISCAL YEAR            (1 l/6/97)
( 1 O/23/97)                     ENDED DECEMBER 3 1,1996
                                 ( 1 O/30/97)                     98-A-105 KARLUK IRA
98-A-77 CROW CREEK                                                TRIBAL COUNCIL, FISCAL
SIOUX TRIBE, FISCAL YEAR        98-A-93 CHICKASAW                 YEAR ENDED
ENDED SEPTEMBER 30,1995         NATION, FISCAL YEAR               SEPTEMBER 30, 1996
(10/23/97) **$2,293             ENDED SEPTEMBER 30,1996           (1 l/6/97)
                                (10/30/97)
98-A-78 YAVAPAI-                                                  98-A-106 KONGIGANAK
PRESCOTT INDIAN TRIBE,          98-A-95 FORT MOJAVE               TRADITIONAL COUNCIL,
FISCAL YEAR ENDED               INDIAN TRIBE, FISCAL              FISCAL YEAR ENDED
DECEMBER 31,1996                YEAR ENDED                        DECEMBER 31, 1996 (1 l/6/97)
( 1 O/23/97)                    SEPTEMBER 30,1995
                                (10/30/97) **$303,645             98-A-107 GREAT LAKES
98-A-86 MANIILAQ                                                  INDIAN FISH AND
ASSOCIATION, FISCAL             98-A-96 SPIRIT LAKE               WILDLIFE COMMISSION,
YEAR ENDED                      TRIBE, FISCAL YEAR                FISCAL YEAR ENDED
SEPTEMBER 30,1995               ENDED SEPTEMBER 30,1996           DECEMBER 3 1, 1996 (1 l/6/97)
(10/29/97) **$23,511            (10130197)
                                                                  98-A-108 SALT RIVER
98-A-87 MANIILAQ                98-A-99 SCOTTS VALLEY             PIMA-MARICOPA INDIAN
ASSOCIATION, FISCAL             BAND OF POMO INDIANS,             COMMUNITY, FISCAL YEAR
YEAR ENDED                      FISCAL YEAR ENDED                 ENDED SEPTEMBER 30,1996
SEPTEMBER 30,1996               DECEMBER 3 1, 1996 (1 l/6/97)     (1 l/6/97)
(1 O/29/97) **$32,634
                                98-A-100 POINT NO POINT
98-A-88 EMMONAK TRIBAL          TREATY COUNCIL, FISCAL
COUNCIL, FISCAL YEAR            YEAR ENDED
ENDED DECEMBER 3 1,1996         DECEMBER 31, 1996 (1 l/6/97)
(1 O/30/97)



36          Semiannual Report to the Congress: October 1, 1997 - March 3 1,1998
98-A-l 12 TEMECULA BAND         98-A-120 AROOSTOOK               98-A-137 RED LAKE BAND
OF LUISENO MISSION              BAND OF MICMACS,                 OF CHIPPEWA INDIANS,
INDIANS OF THE                  FISCAL YEAR ENDED                FISCAL YEAR ENDED
PECHANGA INDIAN                 DECEMBER 3 1,1996                SEPTEMBER 30,1996
RESERVATION, FISCAL             (1 l/13/97) **s74,995            (1 l/20/97)
YEAR ENDED
SEPTEMBER 30,1996               98-A-121 CONFEDERATED            98-A-138 INDIAN
(1 l/13/97)                     TRIBES OF THE GOSHUTE            TOWNSHIP TRIBAL
                                RESERVATION, FISCAL              GOVERNMENT, FISCAL
98-A-l 13 SWINOMISH             YEAR ENDED                       YEAR ENDED
INDIAN TRIBAL                   SEPTEMBER 30,1995                SEPTEMBER 30, 1996
COMMUNITY, FISCAL YEAR          (1 l/13/97)                      (1 l/20/97) **$2,430
ENDED DECEMBER 3 1,1996
(1 l/13/97)                     98-A-122 HOOPA VALLEY            98-A-151 EASTERN
                                TRIBE, FISCAL YEAR               SHAWNEE TRIBE OF
98-A-l 14 SUSANVILLE            ENDED SEPTEMBER 30,1996          OKLAHOMA, FISCAL YEAR
INDIAN RANCHERJA,               (1 l/13/97)                      ENDED SEPTEMBER 30,1996
FISCAL YEAR ENDED                                                (12/4/97)
DECEMBER 3 1, 1996              98-A-123 YUKON-KOYUKUK
(1 l/13/97)                     SCHOOL DISTRICT, FISCAL          98-A-152 CHEROKEE
                                YEAR ENDED JUNE 30,1997          NATION OF OKLAHOMA,
98-A-l 15 PICURIS PUEBLO,       (1 l/18/97)                      FISCAL YEAR ENDED
FISCAL YEAR ENDED                                                SEPTEMBER 30,1996
DECEMBER 3 1,1995               98-A-124 ST. MARY’S              (1214197)
(1 l/13/97)                     SCHOOL DISTRICT, FISCAL
                                YEAR ENDED JUNE 30, 1997         98-A-153 ZIA PUEBLO,
98-A-l 16 ZUNI PUEBLO,          (1 l/l 8/97)                     FISCAL YEAR ENDED
FISCAL YEAR ENDED                                                DECEMBER 31, 1996 (1214197)
DECEMBER 3 1,1996               98-A-1 25 ANNETTE
(1 l/13/97)                     ISLANDS SCHOOL                   98-A-158 LAC VIEUX
                                DISTRICT, FISCAL YEAR            DESERT BAND OF LAKE
98-A-l 17 CIBECUE               ENDED JUNE 30,1997               SUPERIOR CHIPPEWA
COMMUNITY EDUCATION             (1 l/18/97)                      INDIANS, FISCAL YEAR
BOARD, INC., FISCAL YEAR                                         ENDED DECEMBER 3 1,1995
ENDED JUNE 30,1996              98-A-126 STONE CHILD             ( 1213197)
(1 l/13/97)                     COLLEGE, FISCAL YEAR
                                ENDED SEPTEMBER 30,1996          98-A-159 MANAGEMENT OF
98-A-118 BOIS FORTE             (1 l/18/97)                      FLATHEAD INDIAN
RESERVATION, FISCAL                                              IRRIGATION PROJECT
YEAR ENDED                      98-A-133 LOWER BRULE             ELECTRIC POWER SYSTEM,
SEPTEMBER 30,1996               SIOUX TRIBE, FISCAL YEAR         FISCAL YEAR ENDED
(1 l/13/97)                     ENDED SEPTEMBER 30,1996          SEPTEMBER 30,1996
                                (1 l/20/97)                      ( 1213197)
98-A-119 COUSHATTA
TRIBE OF LOUISIANA,             98-A-136 PAIUTE INDIAN           98-A-168 WAHPETON
FISCAL YEAR ENDED               TRIBE OF UTAH, FISCAL            INDIAN SCHOOL, FISCAL
DECEMBER 3 1,1996               YEAR ENDED                       YEAR ENDED JUNE 30, 1997
(1 l/13/97)                     DECEMBER 3 1, 1996               (12/l l/97)
                                (1 l/20/97)




            Semiannual Report to the Congress: October 1,1997 - March 3 1,1998           37
98-A-169 LONEMAN SCHOOL          98-A-209 LOWER SIOUX             98-A-221 WASHOE TRIBE OF
CORPORATION, FISCAL              INDIAN COMMUNITY,                NEVADA AND CALIFORNIA,
YEAR ENDED JUNE 30,1996          FISCAL YEAR ENDED                FISCAL YEAR ENDED
(12/l l/97) **$9,846             SEPTEMBER 30, 1995 (l/8/98)      DECEMBER 3 1, 1996 (l/8/98)

98-A-170 NOOKSACK INDIAN         98-A-210 OKAGON BAND OF          98-A-228 PLEASANT POINT
TRIBE, FISCAL YEAR ENDED         POTAWATOMI INDIANS,              PASSAMAQUODDY TRIBAL
DECEMBER 31, 1996 (12/11/97)     FISCAL YEAR ENDED                COUNCIL, FISCAL YEAR
                                 SEPTEMBER 30, 1996 (l/8/98)      ENDED SEPTEMBER 30,1996
98-A-171 PEORIA TRIBE OF                                          (l/15/98)
INDIANS OF OKLAHOMA,             98-A-2 12 MINNESOTA
FISCAL YEAR ENDED                CHIPPEWA TRIBE, FISCAL           98-A-230 MOHEGAN TRIBE
MARCH 3 1, 1997 (12/l l/97)      YEAR ENDED SEPTEMBER 30,         OF INDIANS OF
                                 1996 (l/8/98)                    CONNECTICUT, FISCAL
98-A-173 FORT BELKNAP                                             YEAR ENDED SEPTEMBER 30,
INDIAN COMMUNITY,                98-A-2 13 MISSISSIPPI BAND       1996 (l/l 5198)
FISCAL YEAR ENDED                OF CHOCTAW INDIANS,
SEPTEMBER 30,1996                FISCAL YEAR ENDED                98-A-239 CHIPPEWA CREE
(12/18/97)                       SEPTEMBER 30, 1996 (l/8/98)      TRIBE, FISCAL YEAR ENDED
                                                                  SEPTEMBER 30, 1996 (l/22/98)
98-A-174 AK-CHIN INDIAN          98-A-214 CROW TRIBE OF           **$41,968
COMMUNITY, FISCAL YEAR           INDIANS, FISCAL YEAR
ENDED DECEMBER 3 1,1996          ENDED SEPTEMBER 30,1996          98-A-240 TONTO APACHE
(12/l l/97)                      (l/8/98) **$1,965                TRIBE, FISCAL YEAR ENDED
                                                                  DECEMBER 31, 1993 (2/12/98)
98-A-182 LA JOLLA BAND OF        98-A-215 CHIPPEWAiOTTAWA         **$116,907
MISSION INDIANS, FISCAL          TREATY FISHERY
YEAR ENDED DECEMBER 3 1,         MANAGEMENT AUTHORITY,            98-A-251 SEMINOLE TRIBE
1996 (12/18/97)                  FISCAL YEAR ENDED                OF FLORIDA, FISCAL YEAR
                                 DECEMBER 3 1, 1996 (l/8/98)      ENDED JUNE 30, 1996 (l/29/98)
98-A-183 BISHOP PAIUTE
TRIBE, FISCAL YEAR ENDED         98-A-216 MASHANTUCKET            98-A-266 ST. CROIX
DECEMBER 3 1, 1996 (12/18/97)    PEQUOT TRIBE, FISCAL             CHIPPEWA OF WISCONSIN,
                                 YEAR ENDED SEPTEMBER 30,         FISCAL YEAR ENDED
98-A-184 YSLETA DEL SUR          1996 (l/8/98)                    SEPTEMBER 30, 1996 (2/l 2/98)
PUEBLO, FISCAL YEAR
ENDED DECEMBER 3 1,1996          98-A-218 WASHOE TRIBE OF         98-A-267 JOINT TRIBAL
(12/18/97)                       NEVADA AND CALIFORNIA,           COUNCIL OF THE
                                 FISCAL YEAR ENDED                PASSAMAQUODDY TRIBE,
98-A-207 PUEBLO OF               DECEMBER 3 1, 1992 (l/8/98)      FISCAL YEAR ENDED
LAGUNA DEPARTMENT OF                                              SEPTEMBER 30, 1996 (2/12/98)
EDUCATION, FISCAL YEAR           98-A-219 WASHOE TRIBE OF         **$6,000
ENDED JUNE 30, 1996 (l/8/98)     NEVADA AND CALIFORNIA,
                                 FISCAL YEAR ENDED                98-A-272 AMERICAN HORSE
98-A-208 CONFEDERATED            DECEMBER 3 1, 1993 ( l/8/98)     SCHOOL, FISCAL YEAR
TRIBES OF THE UMATILLA                                            ENDED JUNE 30, 1996 (2/17/98)
INDIAN RESERVATION,              98-A-220 WASHOE TRIBE OF
FISCAL YEAR ENDED                NEVADA AND CALIFORNIA,           98-A-273 RAMAH NAVAJO
DECEMBER 3 1, 1996 (l/8/98)      FISCAL YEAR ENDED                CHAPTER, FISCAL YEAR
                                 DECEMBER 3 1, 1995 (l/8/98)      ENDED DECEMBER 3 1,1996
                                                                  (2117198)


38           Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998
98-A-274 RAMAH NAVAJO           98-A-298 NORTHWEST               98-A-317 HOTEVILLA
SCHOOL BOARD, INC.,             INTERTRIBAL COURT                BACAVJ COMMUNITY
FISCAL YEAR ENDED               SYSTEM, FISCAL YEAR              SCHOOL, FISCAL YEAR
DECEMBER 31, 1996 (2/17/98)     ENDED SEPTEMBER 30,1996          ENDED JUNE 30, 1996 (3/5/98)
                                (2/26/98)
98-A-277 EIGHT NORTHERN                                          98-A-3 18 HOTEVILLA
INDIAN PUEBLOS COUNCIL,         98-A-303 STANDING ROCK           BACAVI COMMUNITY
INC., FISCAL YEAR ENDED         SIOUX TRIBE, FISCAL YEAR         SCHOOL, FISCAL YEAR
MARCH 31, 1997 (2/19/98)        ENDED SEPTEMBER 30,1996          ENDED JUNE 30, 1995 (3/5/98)
                                (2126198) **$447,456
98-A-278 SOUTHERN                                                98-A-319 ORGANIZED
CALIFORNIA TRIBAL               98-A-304 LAC VIEUX DESERT        VILLAGE OF KWETHLUK,
CHAIRMAN’S ASSOCIATION,         BAND OF LAKE SUPERIOR            KWETHLUK IRA COUNCIL,
INC., FISCAL YEAR ENDED         CHIPPEWA INDIANS, FISCAL         FISCAL YEAR ENDED
MARCH 31, 1997 (2/19/98)        YEAR ENDED DECEMBER 3 1,         DECEMBER 3 1, 1996 (3/5/98)
                                1996 (2/26/98)
98-A-279 FORT BERTHOLD                                           98-A-320 FLAGSTAFF
COMMUNITY COLLEGE, INC.,        98-A-305 YERINGTON               BORDERTOWN DORMITORY
FISCAL YEAR ENDED               PARJTE TRIBE, FISCAL YEAR        BOARD, INC., FISCAL YEAR
SEPTEMBER 30, 1996 (2/19/98)    ENDED DECEMBER 3 1,1996          ENDED SEPTEMBER 30,1996
                                (2126198)                        (3/5/98)
98-A-284 SANTA CLARA
INDIAN PUEBLO                   98-A-308 DUCKWATER              98-A-321 MARTY INDIAN
ADMINISTRATIVE UNIT,            SHOSHONE TRIBE, FISCAL          SCHOOL BOARD, INC.,
FISCAL YEAR ENDED               YEAR ENDED DECEMBER 3 1,        FISCAL YEAR ENDED
DECEMBER 3 1, 1996 (2/19/98)    1996 (2126198)                  JUNE 30, 1996 (3/5/98)

98-A-285 CENTRAL TRIBES         98-A-309 KAIBAB BAND OF         98-A-322 CONFEDERATED
OF THE SHAWNEE AREA,            PAIUTE INDIANS, FISCAL          TRIBES OF SILETZ INDIANS
INC., FISCAL YEAR ENDED         YEAR ENDED DECEMBER 3 1,        OF OREGON, FISCAL YEAR
NOVEMBER 30, 1996 (2/19/98)     1996 (2126198) **$13,577        ENDED DECEMBER 3 1,1996
                                                                (315198)
98-A-286 PORCUPINE              98-A-310 CHEMEHUEVI
SCHOOL, FISCAL YEAR             INDIAN TRIBE AND THE            98-A-323 GRAND TRAVERSE
ENDED JUNE 30, 1996 (2/19/98)   HAVASU LANDING RESORT,          BAND OF OTTAWA AND
**$124,319                      FISCAL YEAR ENDED               CHIPPEWA INDIANS, FISCAL
                                DECEMBER 3 1, 1994 (2/26/98)    YEAR ENDED SEPTEMBER 30,
98-A-287 PORT GRAHAM                                            1996 (3/5/98)
VILLAGE COUNCIL, FISCAL         98-A-31 1 CHEMEH-UEVI
YEAR ENDED DECEMBER 3 1,        INDIAN TRIBE AND THE            98-A-324 FOREST COUNTY
1995 (2119198)                  HAVASU LANDING RESORT,          POTAWATOMI COMMUNITY,
                                FISCAL YEAR ENDED               INC., FISCAL YEAR ENDED
98-A-296 YAKUTAT NATIVE         DECEMBER 3 1, 1995 (2/26/98)    SEPTEMBER 30, 1996 (3/5/98)
ASSOCIATION, FISCAL YEAR
ENDED DECEMBER 3 1,1996         98-A-312 CHEMEHUEVI             98-A-325 JENA BAND OF
(2/26/98)                       INDIAN TRIBE AND THE            CHOCTAW INDIANS, FISCAL
                                HAVASU LANDING RESORT,          YEAR ENDED DECEMBER 3 1,
98-A-297 KLAMATH TRIBES,        FISCAL YEAR ENDED               1996 (315198)
FISCAL YEAR ENDED               DECEMBER 3 1, 1996 (2/26/98)
DECEMBER 3 1, 1996 (2/26/98)
**$25,597


             Semiannual Report to the Congress: October 1,1997 - March 3 1,1998                39
98-A-342 NAVAJO NATION          98-A-379 LOVELOCK PAIUTE        98-A-164 NORTHAMPTON
AND RELATED TRIBAL              TRIBE, FISCAL YEAR ENDED        COUNTY, VIRGINIA, FISCAL
ENTITIES, FISCAL YEAR           DECEMBER 3 1, 1995 (3126198)    YEAR ENDED JUNE 30, 1996
ENDED SEPTEMBER 30,1996         **$140,907                      ( 12/5/97)
(3112198) **$14,33 1
                                98-A-380 LOVELOCK PAIUTE        98-A-165 YAKIMA COUNTY,
98-A-349 OGLALA SIOUX           TRIBE, FISCAL YEAR ENDED        WASHINGTON, FISCAL YEAR
TRIBE, FISCAL YEAR ENDED        DECEMBER 3 1, 1996 (3126198)    ENDED DECEMBER 3 1,1996
DECEMBER 31, 1996 (3112198)     **$21,947                       ( 1215197)
**$53,144
                                98-A-381 ALABAMA-               98-A-167 KENAI PENINSULA,
98-A-362 PINON                  COUSHATTA INDIAN                ALASKA, FISCAL YEAR
COMMUNITY SCHOOL                RESERVATION, FISCAL YEAR        ENDED JUNE 30, 1997 ( 1219197)
BOARD, INC., FISCAL YEAR        ENDED DECEMBER 3 1,1996
ENDED JUNE 30, 1996 (3120198)   (3127198)                       98-A-205 LAKE COUNTY,
                                                                MONTANA, FISCAL YEAR
98-A-372 LYTTON BAND OF         BUREAU OF LAND                  ENDED JUNE 30, 1996 (117198)
POMO INDIANS, FISCAL            MANAGEMENT
YEAR ENDED DECEMBER 3 1,                                        INSULAR AREAS
1996 (3127198)
                                98-A-19 PRAIRIE COUNTY,
                                MONTANA, FISCAL YEAR            Commonwealth of the
98-A-373 FOUR WINDS
                                ENDED JUNE 30, 1996 (1017197)   Northern Mariana Islands
ELEMENTARY SCHOOL,
FISCAL YEAR ENDED
                                98-A-21 ANACONDA-DEER
JUNE 30, 1995 (3127198)                                         98-A-339 COMMONWEALTH
                                LODGE COUNTY, MONTANA,
                                                                OF THE NORTHERN
                                FISCAL YEAR ENDED
98-A-374 KICKAPOO                                               MARIANA ISLANDS, FISCAL
                                JUNE 30, 1996 (1017197)
TRADITIONAL TRIBE OF                                            YEAR ENDED SEPTEMBER 30,
TEXAS, FISCAL YEAR ENDED                                        1996 (3/l l/98) **$11,176,309
                                98-A-45 ROYAL SCHOOL
SEPTEMBER 30, 1996 (3127198)
                                DISTRICT NO. 160, TWO
                                FISCAL YEARS ENDED              Federated States of
98-A-375 KIPNUK
                                AUGUST 31, 1996 (10114197)      Micronesia
TRADITIONAL TRIBAL
COUNCIL, FISCAL YEAR
                                98-A-84 LEWIS COUNTY,           98-A-269 COLLEGE OF
ENDED DECEMBER 3 1,1996
                                WASHINGTON, FISCAL YEAR         MICRONESIA, FEDERATED
(3127198) **$9,947
                                ENDED DECEMBER 3 1,1996         STATES OF MICRONESIA,
                                (10128197)                      FISCAL YEAR ENDED
98-A-376 SAN PASQUAL
BAND OF MISSION INDIANS,                                        SEPTEMBER 30, 1996 (2112198)
                                98-A-110 TRIPP COUNTY,
FISCAL YEAR ENDED
                                SOUTH DAKOTA, TWO               98-A-386 FEDERATED
DECEMBER 3 1, 1995 (3127198)
                                FISCAL YEARS ENDED              STATES OF MICRONESIA
                                DECEMBER 31, 1996 (11112197)    NATIONAL GOVERNMENT,
98-A-377 ELK VALLEY
RANCHERIA, FISCAL YEAR                                          FISCAL YEAR ENDED
                                98-A-161 CLALLAM COUNTY,        SEPTEMBER 30, 1996 (313 1198)
ENDED DECEMBER 31,1996
                                WASHINGTON, FISCAL YEAR         **$383,920
(3127198)
                                ENDED DECEMBER 3 1,1996
                                (1215197)
98-A-378 LOVELOCK PAIUTE
TRIBE, FISCAL YEAR ENDED
DECEMBER 3 1, 1994 (3126198)
**$8,591


40           Semiannual Report to the Congress: October 1,1997 - March 3 1,1998
Guam                              98-A-302 GUAM                   98-A-195 PALAU NATIONAL
                                  HUMANITIES COUNCIL,             COMMUNICATIONS
98-A-144 GUAM POWER               FISCAL YEAR ENDED               CORPORATION, FISCAL
AUTHORITY, FISCAL YEAR            OCTOBER 3 1, 1992 (2127198)     YEAR ENDED DECEMBER 3 1,
ENDED SEPTEMBER 30,1993                                           1994 ( 12/29/97)
(1 l/25/97)                       98-A-326 GUAM
                                  HUMANITIES COUNCIL,             98-A-196 PALAU NATIONAL
98-A-145 GUAM POWER               FISCAL YEAR ENDED               COMMUNICATIONS
                                  OCTOBER 3 1, 1993 (316198)      CORPORATION, FISCAL
AUTHORITY, FISCAL YEAR
ENDED SEPTEMBER 30,1994                                           YEAR ENDED DECEMBER 3 1,
                                  98-A-354 GUAM ECONOMIC          1995 (12130197)
(1 l/26/97)
                                  DEVELOPMENT AUTHORITY,
                                  FISCAL YEAR ENDED               98-A-201 PALAU NATIONAL
98-A-150 GUAM MASS
                                  SEPTEMBER 30, 1996 (3117198)    COMMUNICATIONS
TRANSIT AUTHORITY,
                                                                  CORPORATION, FISCAL
FISCAL YEAR ENDED
                                                                  YEAR ENDED DECEMBER 3 1,
SEPTEMBER 30, 1995 ( 1212197)     Pohnpei
                                                                  1996 (l/6/98)
98-A-155 GUAM MASS                98-A-268 POHNPEI FAMILY         98-A-340 PALAU
TRANSIT AUTHORITY,                HEAD START PROGRAM,             COMMUNITY COLLEGE,
FISCAL YEAR ENDED                 INC., FISCAL YEAR ENDED         FISCAL YEAR ENDED
SEPTEMBER 30, 1996 (1213197)      MARCH 31, 1996 (2112198)
                                                                  SEPTEMBER 30, 1996 (3/l 1198)
98-A-223 GUAM HOUSING
AND URBAN RENEWAL
                                  Republic of Palau               Trust Territory of the
AUTHORITY, FISCAL YEAR                                            Pacific Islands
ENDED SEPTEMBER 30,1996          98-A-130 REPUBLIC OF
(l/9/98)                         PALAU, FISCAL YEAR ENDED
                                 SEPTEMBER 30,1996                98-A-227 COLLEGE OF
                                 (1 l/19/97)                      MICRONESIA, FISCAL YEAR
98-A-246 SANCTUARY,                                               ENDED SEPTEMBER 30,1996
INCORPORATED, FISCAL                                              (l/16/98)
YEAR ENDED SEPTEMBER 30,         98-A-176 PALAU
1996 (l/27/98)                   COMMUNITY ACTION
                                 AGENCY, FISCAL YEAR              U.S. Virgin Islands
98-A-254 GOVERNMENT OF           ENDED SEPTEMBER 30,1994
GUAM, FISCAL YEAR ENDED          (12112197) **$4,769              98-A-154 GOVERNMENT OF
SEPTEMBER 30, 1996 (214198)                                       THE VIRGIN ISLANDS,
                                 98-A-177 PALAU                   FISCAL YEAR ENDED
98-A-271 GUAM                    COMMUNITY ACTION                 SEPTEMBER 30, 1994 (1212197)
INTERNATIONAL AIRPORT            AGENCY, FISCAL YEAR              **$632,247 AND ***$632,247
AUTHORITY, FISCAL YEAR           ENDED SEPTEMBER 30,1995
ENDED SEPTEMBER 30,1996          (12112197) **$43,843
                                                                  MINERALS
(2/l 3198)
                                 98-A-178 PALAU                   MANAGEMENT
98-A-301 GUAM                    COMMUNITY COLLEGE,               SERVICE
HUMANITIES COUNCIL,              FISCAL YEAR ENDED
FISCAL YEAR ENDED                SEPTEMBER 30,1995                98-A-17 MASSACHUSETTS
OCTOBER 3 1, 199 1 (2127198)     (12/15/97)                       INSTITUTE OF
                                                                  TECHNOLOGY, FISCAL YEAR
                                                                  ENDED JUNE 30, 1996 (1 O/7/97)




              Semiannual Report to the Congress: October 1,1997 - March 3 1, 1998            41
NATIONAL PARR                     98-A-229 NATIONAL               98-A-140 UNIVERSITY OF
SERVICE                           INSTITUTE FOR THE               MINNESOTA, FISCAL YEAR
                                  CONSERVATION OF                 ENDED JUNE 30,1996
                                  CULTURAL PROPERTY, INC.,        (1 l/25/97)
98-A-16 AUSTIN, TEXAS,            FISCAL YEAR ENDED
FISCAL YEAR ENDED                 DECEMBER 31, 1996 (l/15/98)
SEPTEMBER 30, 1996 (1017197)                                      U.S. FISH AND
                                  98-A-306 SOUTHERN
                                                                  WILDLIFE SERVICE
98-A-l 8 CALIFORNIA,              ALLEGHENIES
FISCAL YEAR ENDED                 CONSERVANCY, FISCAL             98-A-22 MAINE, FISCAL
JUNE 30, 1996 ( 1 O/7/97)         YEAR ENDED MAY 3 1, 1997        YEAR ENDED JUNE 30, 1996
                                  (2126198)                       (1 O/7/97)
98-A-80 HUMBOLDT STATE
UNIVERSITY FOUNDATION,            98-A-307 ALICE FERGUSON         98-A-55 PYRAMID LAKE
FISCAL YEAR ENDED                 FOUNDATION, INC., FISCAL        FISHERIES, FISCAL YEAR
JUNE 30, 1997 (1 O/28/97)         YEAR ENDED DECEMBER 3 1,        ENDED DECEMBER 3 1,1996
                                  1996 (2126198)                  (10116197)
98-A-94 LITTLE ROCK,
ARKANSAS, FISCAL YEAR                                             98-A-85 RHODE ISLAND AND
ENDED DECEMBER 3 1,1996           NON-DEPARTMENT OF               PROVIDENCE PLANTATIONS,
( 1 O/30/97)                      THE INTERIOR                    FISCAL YEAR ENDED
                                                                  JUNE 30, 1995 (10128197)
98-A-l 11 NATIVE                  98-A-41 OFFICE OF YOUTH
CALIFORNIA NETWORK,               AFFAIRS, COMMONWEALTH           98-A-97 IOWA, FISCAL YEAR
FISCAL YEAR ENDED                 OF PUERTO RICO, FISCAL          ENDED JUNE 30, 1996 (1 l/4/97)
DECEMBER 31, 1996 (1 l/12/97)     YEAR ENDED JUNE 30, 1995
                                  ( 1 O/7/97)                     98-A-135 ARKANSAS GAME
98-A-134 APPALACHIAN                                              AND FISH COMMISSION,
TRAIL CONFERENCE, FISCAL                                          FISCAL YEAR ENDED
                                  OFFICE OF THE
YEAR ENDED DECEMBER 3 1,                                          JUNE 30, 1996 (1 l/20/97)
1996 (1 l/20/97)                  SECRETARY
                                                                  98-A-147 MISSISSIPPI, FISCAL
98-A-166 MADISON,                 98-A-66 PRIBILOF ISLANDS        YEAR ENDED JUNE 30,1996
WISCONSIN, FISCAL YEAR            SCHOOL DISTRICT, FISCAL         ( 1212197)
ENDED DECEMBER 3 1,1996           YEAR ENDED JUNE 30,1997
( 1215197)                        ( 1 O/22/97)                    98-A-148 NORTH CAROLINA,
                                                                  FISCAL YEAR ENDED
98-A-194 GEORGIA TRUST            98-A-81 NORTHWESTERN            JUNE 30, 1996 (1212197)
FOR HISTORIC                      UNIVERSITY, FISCAL YEAR
PRESERVATION, INC., FISCAL        ENDED AUGUST 31,1996            98-A-149 ARIZONA, FISCAL
YEAR ENDED MARCH 3 1,             (10128197)                      YEAR ENDED JUNE 30,1996
1997 ( 12124197)                                                  ( 1212197)
                                  U.S. BUREAU OF MINES
98-A-211 ICE AGE PARK AND                                         98-A-156 KLICKITAT
TRAIL FOUNDATION, INC.,                                           COUNTY, WASHINGTON,
                                  98-A-15 DEPARTMENT OF
FISCAL YEAR ENDED                                                 FISCAL YEAR ENDED
                                  BUSINESS, ECONOMIC
DECEMBER 3 1, 1996 (l/8/98)                                       DECEMBER 3 1, 1996 ( 1213197)
                                  DEVELOPMENT AND
                                  TOURISM AND HAWAII
                                  COMMUNITY DEVELOPMENT
                                  AUTHORITY, FISCAL YEAR
                                  ENDED JUNE 30, 1996 (10/7/97)


42             Semiannual Report to the Congress: October 1,1997 - March 3 1,1998
98-A-162 METROPOLITAN            98-P-l 28 QUILEUTE TRIBAL        98-P-l 89 STOCKBRIDGE-
PARK DISTRICT, TACOMA,           COUNCIL, FISCAL YEAR             MUNSEE COMMUNITY,
WASHINGTON, FISCAL YEAR          ENDED SEPTEMBER 30,1997          FISCAL YEAR ENDED
ENDED DECEMBER 3 1,1996          (1 l/17/97) *$1,703              SEPTEMBER 30, 1998
(1215197)                                                         (12119197)
                                 98-P-141 ELK VALLEY
98-A-l 63 ALABAMA, FISCAL        RANCHERIA TRIBAL                 98-P-192 METLAKATLA
YEAR ENDED SEPTEMBER 30,         COUNCIL, FISCAL YEAR             INDIAN COMMUNITY,
1996 (1215197)                   ENDED DECEMBER 3 1,1997          FISCAL YEAR ENDED
                                 (1 l/24/97)                      SEPTEMBER 30,1998
98-A-231 NATIONAL                                                 (12122197) *$139,470
TROPICAL BOTANICAL               98-P-142 ELK VALLEY
GARDEN, FISCAL YEAR              RANCHERIA TRIBAL                 98-P-200 MUSCOGEE
ENDED DECEMBER 3 1,1996          COUNCIL, FISCAL YEAR             (CREEK) NATION, FISCAL
(l/15/98)                        ENDED DECEMBER 3 1,1996          YEAR ENDED SEPTEMBER 30,
                                 ( 1 l/24/97)                     1997 (l/5/98)
U.S. GEOLOGICAL
                                 98-P-143 ELK VALLEY              98-P-203 ASSINIBOINE AND
SURVEY                           RANCHERIA TRIBAL                 SIOUX TRIBES, FISCAL YEAR
                                 COUNCIL, FISCAL YEAR             ENDED SEPTEMBER 30,1998
98-A-146 UNIVERSITY AND          ENDED DECEMBER 3 1,1994          (l/6/98)
COMMUNITY COLLEGE                (1 l/24/97) *$4,902
SYSTEM OF NEVADA, FISCAL                                          98-P-222 SWINOMISH INDIAN
YEAR ENDED JUNE 30, 1996         98-P-172 BAD RIVER BAND          TRIBAL COMMUNITY,
( 1212197)                       OF LAKE SUPERIOR TRIBE OF        FISCAL YEAR ENDED
                                 CHIPPEWA INDIANS, FISCAL         DECEMBER 3 1, 1997 (l/8/98)
98-A-181 AMERICAN                YEAR ENDED SEPTEMBER 30,
GEOPHYSICAL UNION,               1997 (12110197)                  98-P-236 OTOE MISSOURIA
FISCAL YEAR ENDED                                                 TRIBE OF INDIANS, FISCAL
DECEMBER 31, 1996 (12/17/97)     98-P-175 NORTHWEST               YEAR ENDED DECEMBER 3 1,
                                 INTERTRIBAL COURT                1997 (l/20/98) *$26,131
INDIRECT COST                    SYSTEM, FISCAL YEAR
                                 ENDED SEPTEMBER 30,1996          98-P-244 ONEIDA INDIAN
PROPOSALS                        (1211 l/97) *!§33,000            NATION, FISCAL YEAR
                                                                  ENDED SEPTEMBER 30,1997
BUREAU OF INDIAN                 98-P-180 CONFEDERATED           (1123198)
AFFAIRS                          TRIBES AND BANDS OF THE
                                 YAKAMA INDIAN NATION,            98-P-247 CHIPPEWA CREE
                                 FISCAL YEAR ENDED                TRIBE OF THE ROCKY BOY’S
98-P-109 CATAWBA INDIAN          SEPTEMBER 30, 1997               RESERVATION, FISCAL YEAR
NATION, FISCAL YEAR              (12/16/97) *$14,017              ENDED SEPTEMBER 30,1997
ENDED DECEMBER 3 1,1997                                           (l/27/98) *$172,521
(1 l/6/97)                       98-P-185 CROW TRIBE OF
                                 INDIANS, FISCAL YEAR             98-P-249 MINNESOTA
98-P-127 LOWER ELWHA             ENDED SEPTEMBER 30,1995          CHIPPEWA TRIBE, FISCAL
S’KLALLAM TRIBE, FISCAL          (12118197)                       YEAR ENDED SEPTEMBER 30,
YEAR ENDED SEPTEMBER 30,                                          1997 (l/28/98)
1998 (11117197)                  98-P-186 CROW TRIBE OF
                                 INDIANS, FISCAL YEAR
                                 ENDED SEPTEMBER 30,1997
                                 (12118197) *$181,280


             Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998          43
98-P-256 MODOC TRIBE OF           98-P-291 MASHANTUCKET            98-P-355 CHEYENNE AND
OKLAHOMA, FISCAL YEAR             PEQUOT TRIBAL NATION,            ARAPAHO TRIBES OF
ENDED SEPTEMBER 30,1998           FISCAL YEAR ENDED                OKLAHOMA, FISCAL YEAR
(215198) *$23,969                 SEPTEMBER 30, 1996 (2119198)     ENDED DECEMBER 3 1,1997
                                                                   (3118198) *$19,023
98-P-257 SPIRIT LAKE SIOUX        98-P-292 COOK INLET
TRIBE, FISCAL YEAR ENDED          TRIBAL COUNCIL, INC.,            98-P-356 TURTLE MOUNTAIN
SEPTEMBER 30, 1997 (215198)       FISCAL YEAR ENDED                COMMUNITY COLLEGE,
                                  SEPTEMBER 30, 1998 (2119198)     FISCAL YEAR ENDED
98-P-259 TUOLUMNE BAND                                             JUNE 30, 1996 (3118198) *$7,417
OF ME-WUK INDIANS,                98-P-314 PRAIRIE BAND OF
FISCAL YEAR ENDED                 POTAWATOMI INDIANS,              98-P-357 TURTLE MOUNTAIN
SEPTEMBER 30, 1998 (2/6/98)       FISCAL YEAR ENDED                COMMUNITY COLLEGE,
*$6,092                           DECEMBER 3 1, 1997 (312198)      FISCAL YEAR ENDED
                                  *$22,675                         JUNE 30, 1997 (3/18/98)
98-P-260 SALK-SUIATTLE                                             *$238,206
INDIAN TRIBE, FISCAL YEAR         98-P-3 15 WHITE MOUNTAIN
ENDED DECEMBER 3 1,1997           APACHE TRIBE, FISCAL             98-P-358 ONEIDA INDIAN
(216198)                          YEAR ENDED APRIL 30, 1998        NATION, FISCAL YEAR
                                  (312198) *$6,409                 ENDED SEPTEMBER 30,1998
98-P-262 TORRES-MARTINEZ                                           (3/l 8198)
DESERT CAHUILLA INDIANS,          98-P-337 THE SUQUAMISH
FISCAL YEAR ENDED                 TRIBE, FISCAL YEAR ENDED         98-P-359 GREAT LAKES
SEPTEMBER 30, 1998 (219198)       DECEMBER 3 1, 1997 (319198)      INDIAN FISH AND WILDLIFE
                                  *$77,552                         COMMISSION, FISCAL YEAR
98-P-265 ORGANIZED                                                 ENDED DECEMBER 3 1,1998
VILLAGE OF KAKE, FISCAL           98-P-338 KALISPEL TRIBE OF       (3/l 8198)
YEAR ENDED DECEMBER 3 1,          INDIANS, FISCAL YEAR
1997 (2/l O/98) *$24,085          ENDED SEPTEMBER 30,1998          98-P-360 WAMPANOAG
                                  (3/9/98) *$10,587                TRIBE OF GAY HEAD, FISCAL
98-P-270 FAIRBANKS                                                 YEAR ENDED SEPTEMBER 30,
NATIVE ASSOCIATION, INC.,         98-P-345 GRAND PORTAGE           1998 (308198)
FISCAL YEAR ENDED                 RESERVATION, FISCAL YEAR
JUNE 30, 1998 (2112198)           ENDED SEPTEMBER 30,1998          98-P-361 INTER-TRIBAL
                                  (3/l l/98)                       COUNCIL OF MICHIGAN,
98-P-280 DULL KNIFE                                                INC., FISCAL YEAR ENDED
MEMORIAL COLLEGE,                 98-P-346 WHITE EARTH             SEPTEMBER 30, 1998 (3118198)
FISCAL YEAR ENDED                 RESERVATION TRIBAL
JUNE 30, 1996 (2118198)           COUNCIL, FISCAL YEAR             98-P-364 MOAPA BAND OF
                                  ENDED SEPTEMBER 30,1997          PAIUTES, FISCAL YEAR
98-P-281 DULL KNIFE               (3112198)                        ENDED DECEMBER 3 1,1998
MEMORIAL COLLEGE,                                                  (3123198) *$5,761
FISCAL YEAR ENDED                 98-P-347 JAMESTOWN
JUNE 30, 1998 (2118198)           S’KLALLAM TRIBE, FISCAL          98-P-365 PUEBLO OF ZIA,
                                  YEAR ENDED SEPTEMBER 30,         FISCAL YEAR ENDED
98-P-282 PORT GAMBLE              1998 (3112198) *$5,55 1          DECEMBER 3 1, 1997 (3123198)
S’KLALLAM TRIBE, FISCAL
YEAR ENDED DECEMBER 3 1,          98-P-353 PYRAMID LAKE
1997 (2/l 8/98) *$22,440          PAIUTE TRIBE, FISCAL YEAR
                                  ENDED DECEMBER 3 1,1997
                                  (3113198) *$577


44            Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998
98-P-366 BERRY CREEK             98-P-23 VIRGIN ISLANDS           NATIONAL PARK
RANCHERIA OF MAIDU               TERRITORIAL EMERGENCY
INDIANS, FISCAL YEAR
                                                                  SERVICE
                                 MANAGEMENT AGENCY,
ENDED DECEMBER 3 1,1998          FISCAL YEAR ENDED
                                                                  98-P-35 SOUTH CAROLINA
(3123198)                        SEPTEMBER 30, 1999 ( 1 O/7/97)
                                                                  DEPARTMENT OF PARKS,
98-P-368 SISSETON-                                                RECREATION AND TOURISM,
                                 98-P-294 ISLAND
                                                                  FISCAL YEAR ENDED
WAHPETON COMMUNITY               RESOURCES FOUNDATION,
                                                                  JUNE 30, 1998 (1018197)
COLLEGE, FISCAL YEAR             INC., FISCAL YEAR ENDED
ENDED JUNE 30, 1998 (3126198)    JUNE 30, 1999 (2120198)
                                                                  98-P-44 ARKANSAS
                                                                  DEPARTMENT OF PARKS
98-P-369 SISSETON-               98-P-367 VIRGIN ISLANDS
                                                                  AND TOURISM, FISCAL YEAR
WAHPETON COMMUNITY               DEPARTMENT OF
                                                                  ENDED JUNE 30, 1998
COLLEGE, FISCAL YEAR             AGRICULTURE, THREE
                                                                  (10/14/97)
ENDED JUNE 30, 1997 (3/26/98)    FISCAL YEARS ENDED
                                 SEPTEMBER 30, 1999 (3125198)
                                                                  98-P-160 NEW HAMPSHIRE
98-P-371 ST. REGIS MOHAWK
                                                                  DEPARTMENT OF
TRIBE, FISCAL YEAR ENDED         MINERALS                         RESOURCES AND ECONOMIC
DECEMBER 3 1, 1998 (3126198)     MANAGEMENT                       DEVELOPMENT, FISCAL
                                 SERVICE                          YEAR ENDED JUNE 30,1998
98-P-387 SUMMIT LAKE
                                                                  (1213197)
PAIUTE TRIBE, FISCAL YEAR
                                 98-P-64 COLORADO
ENDED DECEMBER 3 1,1997                                           98-P-243 CONNECTICUT
                                 DEPARTMENT OF REVENUE,
(3130198) *$5 1,666                                               HISTORICAL COMMISSION,
                                 FISCAL YEAR ENDED
                                 JUNE 30, 1998 (10120197)         TWO FISCAL YEARS ENDED
98-P-388 CROW CREEK
                                                                  JUNE 30, 1999 (l/23/98)
SIOUX TRIBE, FISCAL YEAR
ENDED SEPTEMBER 30,1997          MULTI-OFFICE
                                                                  98-P-248 MINNESOTA
(3/30/98)                                                         DEPARTMENT OF NATURAL
                                 98-P-43 ALASKA
                                 DEPARTMENT OF NATURAL            RESOURCES, FISCAL YEAR
INSULAR AREAS                    RESOURCES, FISCAL YEAR           ENDED JUNE 30, 1998 (l/27/98)
                                 ENDED JUNE 30, 1998 (1019197)    *$5,818
Guam
                                 98-P-204 CALIFORNIA FISH         98-P-252 LOUISIANA
                                 AND GAME DEPARTMENT,             DEPARTMENT OF CULTURE,
98-P-129 GOVERNMENT OF
                                 FISCAL YEAR ENDED                RECREATION AND TOURISM,
GUAM, FISCAL YEAR ENDED                                           FISCAL YEAR ENDED
SEPTEMBER 30, 1998               JUNE 30, 1998 (l/6/98) *$3,521
                                                                  JUNE 30, 1998 (213198)
(1 l/17/97) *$1,621,592
                                 98-P-237 UTAH                    *$252,462

U.S. Virgin Islands              DEPARTMENT OF
                                 COMMUNITYAND                     98-P-289 WISCONSIN
                                 DEVELOPMENT, DIVISION OF         DEPARTMENT OF NATURAL
98-P-12 DEPARTMENT OF                                             RESOURCES, FISCAL YEAR
                                 STATE HISTORY, FISCAL
PLANNING AND NATURAL                                              ENDED JUNE 30, 1998 (2112198)
                                 YEAR ENDED JUNE 30,1998
RESOURCES, GOVERNMENT
OF THE VIRGIN ISLANDS,           (l/20/98)
                                                                  98-P-331 MASSACHUSETTS
FISCAL YEAR ENDED                                                 HISTORICAL COMMISSION,
SEPTEMBER 30, 1999 (1013197)                                      TWO FISCAL YEARS ENDED
                                                                  JUNE 30, 1999 (3/5/98)




             Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998           45
OFFICE OF SURFACE               98-P-288 KENTUCKY               98-P-348 ATLANTIC STATES
MINING                          DEPARTMENT OF FISH AND          MARINE FISHERIES
                                WILDLIFE RESOURCES,             COMMISSION, FISCAL YEAR
RECLAMATION AND                 FISCAL YEAR ENDED               ENDED JUNE 30, 1998 (3112198)
ENFORCEMENT                     JUNE 30, 1998 (2112198)
                                                                98-P-370 OHIO DEPARTMENT
98-P-139 WEST VIRGINIA          98-P-290 NORTH CAROLINA         OF NATURAL RESOURCES,
DIVISION OF                     WILDLIFE RESOURCE               FISCAL YEAR ENDED
ENVIRONMENTAL                   COMMISSION, FISCAL YEAR         JUNE 30, 1998 (3126198)
PROTECTION, FISCAL YEAR         ENDED JUNE 30, 1998 (2119198)
ENDED JUNE 30, 1998
(1 l/20/97)                     98-P-327 MASSACHUSETTS
                                EXECUTIVE OFFICE OF
U.S. FISH AND                   ENVIRONMENTAL AFFAIRS,
WILDLIFE SERVICE                TWO FISCAL YEARS ENDED
                                JUNE 30, 1999 (315198)
98-P-42 SOUTH CAROLINA
DEPARTMENT OF NATURAL           98-P-328 MASSACHUSETTS
RESOURCES, FISCAL YEAR          DEPARTMENT OF FOOD AND
ENDED JUNE 30, 1998 (1018197)   AGRICULTURE, TWO FISCAL
                                YEARS ENDED JUNE 30,1999
98-P-193 NEW HAMPSHIRE          (315198)
FISH AND GAME
DEPARTMENT, FISCAL YEAR         98-P-329 MASSACHUSETTS
ENDED JUNE 30, 1998             MARINE FISHERIES, TWO
( 12123197)                     FISCAL YEARS ENDED
                                JUNE 30, 1999 (315198)
98-P-202 NEW MEXICO
DEPARTMENT OF GAME AND          98-P-330 MASSACHUSETTS
FISH, FISCAL YEAR ENDED         ENVIRONMENTAL LAW
JUNE 30, 1998 (l/6/98)          ENFORCEMENT, TWO FISCAL
                                YEARS ENDED JUNE 30, 1999
98-P-233 MISSISSIPPI            (315198)
DEPARTMENT OF
ENVIRONMENTAL QUALITY,          98-P-332 MASSACHUSETTS
FISCAL YEAR ENDED               FISHERIES AND WILDLIFE,
JUNE 30, 1998 (l/15/98)         TWO FISCAL YEARS ENDED
                                JUNE 30, 1999 (315198)
98-P-275 KANSAS
DEPARTMENT OF WILDLIFE          98-P-333 MASSACHUSETTS
AND PARKS, FISCAL YEAR          DEPARTMENT OF
ENDED JUNE 30, 1998 (2113198)   ENVIRONMENTAL
                                MANAGEMENT, TWO FISCAL
98-P-276 KANSAS                 YEARS ENDED JUNE 30,1999
DEPARTMENT OF WILDLIFE          (315198)
AND PARKS, FISCAL YEAR
ENDED JUNE 30, 1999 (2113198)   98-P-334 AMERICAN
                                FISHERIES SOCIETY, FISCAL
                                YEAR ENDED DECEMBER 3 1,
                                1996 (3/6/98)



46           Semiannual Report to the Congress: October 1,1997 - March 3 1,1998
                                            . APPENDIX 3

                MONETARY IMPACT OF AUDIT ACTIVITIES FROM
                  OCTOBER 1,1997, THROUGH MARCH 31,1998
                                                       FUNDS TO
                                  QUESTIONED          BE PUT TO
         ACTIVITY                   COSTS            BETTER USE*          REVENUES””           TOTAL

Bureau of Indian
Affairs                              $1,489,438            $1,307,348                  0       Z&2,796,786
Bureau of Land
Managment                                 30,620              79,907                   0          110,527
Bureau of Reclamation                    126,025                      0                01         126,025
Insular Areas: ***
                                                                                           I
  - Commonwealth of
     the Northern
     Mariana &lands                  11,176,309                       0                0       1 I, 176,309
      - Federated States of
        Micronesia                      383,920                       0                0          383,920
  -        Guam               ]        1,881,154           13,170,513            19,250 1I_
                                                                                          lS,O70,91?
    i” “:p
  - Republic of IPafau                    48,612                      0               0       48,lti12
                              I
  - U.S. Virgin Islands                 637,665                       0      17,409,75 1       f&047,416
Minerals Management
service                                   56,997                      0      20,700,OOO        20,756,997
Multi-Office                                   0               3,521                   0            3,521
                                                                                           I
Vational Park Service                   154,238             3,013,429                  0        3,167,667
VowDepartmental
iudits                                         0              21,700                   0           21,700
U.S. Fiih and Wildlife
service                                1,633,689            1,450,000                  0        3,083,689
KS. Geological Survey                   130,371                       0               0           130,371
 Total                              $17,749,038          $l9,046,418        $38,129,001 1 $74,924,457
                              I
’ Includes monetary impact of indirect cost proposals negotiated.
‘* Represents lost or potential revenues.
‘** Includes monetary impact of non-Federal tids ( see Appendix 4).



               Semiannual Report to the Congress: October 1,1997 - March 3 1, 1998                           47
                                     APPENDIX 4

               NON-FEDERAL FUNDING INCLUDED IN
              MONETARY IMPACT OF AUDIT ACTIVITIES
               DURING THE &MONTH PERIOD ENDED
                        MARCH 31,1998
No. 98-I-14 - “Procurement Activities, Port Authority of Guam, Government of Guam,”
dated October 7, 1997. All of the $1,635,9 16 reported as monetary impact represents insular
area tinds.

No. 98-I-188 - “Internal Revenue Taxes, Bureau of Internal Revenue, Government of the
Virgin Islands,” dated December 30, 1997. All of the $11,919,000 reported as monetary
impact represents insular area funds.

No. 98-I-191 - “Building Permit Fees, Department of Planning and Natural Resources,
Government of the Virgin Islands,” dated December 30, 1997. All of the $155,069 reported
as monetary impact represents insular area funds.

No. 98-I-263 - “Sewage System User Fees, Government of the Virgin Islands,” dated
February 20,1998. All of the $897,2 12 reported as monetary impact represents insular area
funds.

No. 98-I-264 - “Legislature Capital Improvement Fund, Guam Legislature, Government of
Guam,” dated February 20, 1998. All of the $9,932,255 reported as monetary impact
represents insular area funds.

No. 98-I-293 - “Business Licensing Fees, Department of Licensing and Consumer Affairs,
Government of the Virgin Islands,” dated February 27, 1998. All of the $4,438,470 reported
as monetary impact represents insular area tids.

No. 98-I-335 - “Programs and Operations, Department of Vocational Rehabilitation,
Government of Guam,” dated March 16, 1998. Of the $1,137,159 reported as monetary
impact, $150,063 represents insular area funds.

No. 98-I-384 - “Hurricane-Related Contracting, Department of Education, Government of
the Virgin Islands,” dated March 3 1, 1998. All of the $5,418 reported as monetary impact
represents insular area funds.




48       Semiannual Report to the Congress: October 1,1997 - March 3 1, 1998
                                                     APPENDIX 5
                                                       Table I

                         INSPECTOR GENERAL AUDIT REPORTS
                              WITH QUESTIONED COSTS

                                                                                                      Unsupported
                                      No. of Reports*               Questioned Costs                   costs**
A. For which no
management decision had
been made by the
commencement of the
reporting period                                65                      $39,417,786                     $1,635,859
B. Which were issued
during the reporting
period                                          ti                       J-7*749.03 8                      63$.879
    Total (At-B)                              m                         $57.166.824                    $2.271.738

C. For which a
management decision              1
was made during the
reporting period                                39                         7,022,364                     1,111,539
   (i) dollar value of
       disallowed costs                         28                         2,933,686                       810,311

   (ii) dollar value of
        costs not
        disallowed                              16                         4,088,678                       301,228

D. For which no
management decision had                                                                         ”
been made by the end of
the reporting period                            70                        50,144,460                     1,160,199

E. For which no
management decision
was made within 6
months of issuance                              38              I         33,062,357                        524,320
* Report totals cannot be reconciled because some reports have dollar amounts in both the allowed and disallowed categories.
** Unsupported costs are included in questioned costs.




                Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998                                       49
                                                     APPENDIX 5
                                                       Table II

            INSPECTOR GENERAL AUDIT REPORTS WITH
       RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                           No. of     Reports*          Dollar Value**
 A. For which no management decision had been made by
 the commencement of the reporting period                                           28                   $217,308,941
 B. Which were issued during the reporting period                                   z!                        19.046.418*“*
     Total (A+B)                                                                    65                   $236.355.359
 C. For which a management decision was made during the
 reporting period                                                                   37                       $12,754,618
     (i) dollar value of recommendations that were agreed
         to by management                                                           36                       $9,803,194””
     (ii) dollar value of recommendations that were not
          agreed to by management                                                     5                       $2,95 1,424
 D. For which no management decision had been made by
 the end of the reporting period                                                    28                   $223,690,74 1
 ,             -        ..,                                                                         Lecl:’
 E. For which no management decision was made within
 6 months of issuance                                                               20                   $X)9,248,573
 * Report totals cannot be reconciled because some reports have dollar amounts in both the agreed and disagreed categories.
 ** Amounts include preaward audits.
 * ** Amounts include indirect cost proposals negotiated.




so               Semiannual Report to the Congress: October 1,1997 - March 3 1,1998
                                                    APPENDIX 5
                                                      Table III

          INSPECTOR GENERAL AUDIT REPORTS WITH LOST OR
                 POTENTIAL ADDITIONAL REVENUES


                                                                           No. of Reports.              Dollar Value
A. For which no management decision had been made
by the commencement of the reporting period                                         10                   $152,303,613
B. Which were issued during the reporting period                                    6                       38.129.001
    Total (A+B)                                                                    16                    $190.432,61%
C. For which a management decision was made during
the reporting period                                                                 2                    $25,138,470*
   (i) dollar value of recommendations that were
    agreed to by management                                                          2                    $25,138,470
   (ii) dolIar value of recommendations that were not
    agreed to by management                                                          0                                 Q
D. For which no management decision had been made
by the end of the reporting period                                                 14                   $165,294,144
                                                                      L
E. For which no management decision was made within
6 months of issuance                                                                 8                    $51,107,613
                                                                                                                            4
*Of this amount, $20,700,000 represents additional savings indentifiable to a recommendation made in Audit Report
No. 94-I-I 79, issued in December 1993. This updated amount was based on data obtained during our followup evakation (Report
No. 98-I-385, issued in March 1998) in which we found that h&IS’s implementation of the recommendation resulted in the higher
savings.




                Semiannual Report to the Congress: October 1,1997 - March 3 1,1998                                         51
                                                         APPENDIX 6

           SUMMARY OF AUDIT REPORTS OVER 6 MONTHS OLD
                             PENDING MANAGEMENT DECISIONS

     This listing includes a summary of internal, contract (except preawards), grant, and singk audit reparts that were over 6 months
     old on March 3 1, 1998, and still pending a management decision, It provides report number, title, issue date, number of
     unresolved recommendations, and unresalved amount of monetary benefits identified in the audit report.



INTERNAL AUDITS                                 Commonwealth of the                                 93-I-706 SELECTED
                                                Northern Mariana                                    SPECIAL REVENUE FUNDS,
                                                                                                    GOVERNMENT OF GUAM
BUREAU OF LAND                                  Islands                                             (3/l 5193)
MANAGEMENT                                                                                          7 RECOMMENDATIONS
                                                94-I-936 FOLLOWUP                                   AND $39,330,4 11
                                                OF RECOMMENDATIONS                                  UNRESOLVED
94-I-496 SALE OF
                                                CONCERNING THE
MATERIALS FROM PUBLIC
                                                ECONOMIC DEVELOPMENT                                93-I-l 195 IMPACT OF THE
LANDS, BUREAU OF LAND
                                                LOAN FUND,                                          COMPACT OF FREE
MANAGEMENT (313 l/94)
                                                COMMONWEALTH                                        ASSOCIATION ON THE
1 RECOMMENDATION AND
                                                DEVELOPMENT                                         GOVERNMENT OF GUAM
$3,062,000 UNRESOLVED
                                                AUTHORITY (7/l 8194)                                (6128193)
                                                2 RECOMMENDATIONS                                   1 RECOMMENDATION AND
96-I-1300 ISSUANCE OF
                                                UNRESOLVED                                          $15,911,978 UNRESOLVED
MINERAL PATENTS,
BUREAU OF LAND
                                                96-I-596 MANAGEMENT OF                              94-I-106 REVIEW OF
MANAGEMENT AND
                                                PUBLIC LAND,                                        GUAM’S
OFFICE OF THE SOLICITOR
                                                COMMONWEALTH OF THE                                 GOVERNMENTWIDE
(9130197)
                                                NORTHERN MARIANA                                    TRAVEL PRACTICES
4 RECOMMENDATIONS
                                                ISLANDS (3120196)                                   (11/26/93)
UNRESOLVED
                                                6 RECOMMENDATIONS                                   16 RECOMMENDATIONS
                                                AND $145,877,257                                    AND $1,689,650
INSULAR AREAS                                   UNRESOLVED                                          UNRESOLVED

American Samoa                                  Guam                                                 97-I-591 GUAM
                                                                                                     LEGISLATURE,
93-I-1600 REVIEW OF                             92-I-597 SELECTION,                                  GOVERNMENT OF GUAM
GRANT ADMINISTRATION,                           PROCUREMENT, AND                                     (3124197)
DEPARTMENT OF                                   ADMINISTRATION OF                                    5 RECOMMENDATIONS
EDUCATION, AMERICAN                             WATER DISTRIBUTION                                   AND $1,004,084
SAMOA GOVERNMENT                                PROJECTS, PUBLIC UTILITY                             UNRESOLVED
(9130193)                                       AGENCY OF GUAM,
2 RECOMMENDATIONS                               GOVERNMENT OF GUAM
AND $306,637 UNRESOLVED                         (3120192)
                                                2 RECOMMENDATIONS
                                                UNRESOLVED




52              Semiannual Report to the Congress: October 1,1997 - March 3 1,1998
97-I-617 FOLLOW-UP OF           92-I-1086 PERSONNEL              96-E-828 ACCOUNTING
RECOMMENDATIONS                 MANAGEMENT,                      CONTROLS FOR DISASTER
CONCERNING FOOD                 GOVERNMENT OF THE                ASSISTANCE FUNDS,
SERVICES OPERATIONS,            VIRGIN ISLANDS (813192)          POLICE DEPARTMENT,
DEPARTMENT OF                   6 RECOMMENDATIONS                GOVERNMENT OF THE
EDUCATION, GOVERMENT            AND $5 1,542 UNRESOLVED          VIRGIN ISLANDS (513 l/96)
OF GUAM (3126197)                                                2 RECOMMENDATIONS
1 RECOMMENDATION AND            93-I-363 INMATE CARE,            UNRESOLVED
$334,882 UNRESOLVED             REHABILITATION, AND
                                SAFETY, BUREAU OF                97-I-40 DIVISION OF
97-I-1051 FOLLOW-UP OF          CORRECTIONS,                     AGRICULTURE,
RECOMMENDATIONS                 GOVERNMENT OF THE                DEPARTMENT OF
CONCERNING PERSONNEL            VIRGIN ISLANDS ( 1213 1192)      ECONOMIC DEVELOPMENT
AND PAYROLL PRACTICES,          10 RECOMMENDATIONS               AND AGRICULTURE,
LEGISLATIVE BRANCH,             UNRESOLVED                       GOVERNMENT OF THE
GOVERNMENT OF GUAM                                               VIRGIN ISLANDS (1 O/2 1196)
(713 l/97)                      93-I-572 SUPPLY AND              8 RECOMMENDATIONS
1 RECOMMENDATION                EQUIPMENT                        AND $90,000 UNRESOLVED
UNRESOLVED                      MANAGEMENT,
                                DEPARTMENT OF                    97-E-189 SUBGRANT
97-I-1294 SCHOOL BUS            EDUCATION,                       ADMINISTRATION FOR
OPERATIONS,                     GOVERNMENT OF THE                DISASTER ASSISTANCE
DEPARTMENT OF PUBLIC            VIRGIN ISLANDS (2/l 9193)        FUNDS, OFFICE OF
WORKS, GOVERNMENT OF            9 RECOMMENDATIONS                MANAGEMENT AND
GUAM (9130197)                  AND $3 10,000 UNRESOLVED         BUDGET, GOVERNMENT OF
6 RECOMMENDATIONS                                                THE VIRGIN ISLAN-DS
AND $3,584,034                  93-I-670 PERSONNEL,              (1 l/26/96)
UNRESOLVED                      PROPERTY MANAGEMENT,             2 RECOMMENDATIONS
                                AND PROCUREMENT                  UNRESOLVED
Republic of the Marshall        PRACTICES, BUREAU OF
                                CORRECTIONS,                     97-E-239 PROCUREMENT
Islands
                                GOVERNMENT OF THE                PRACTICES FOR
                                VIRGIN ISLANDS (3/l 1193)        HURRICANE-RELATED
94-I-21 CAPITOL
                                14 RECOMMENDATIONS               DEBRIS REMOVAL,
RELOCATION PROJECT,
                                AND $265,823 UNRESOLVED          DEPARTMENT OF PUBLIC
REPUBLIC OF THE
                                                                 WORKS, GOVERNMENT OF
MARSHALL ISLANDS
                                95-I-1258 SCHOOL LUNCH           TI-IE VIRGIN ISLANDS
(10/18/93)
                                PROGRAM, DEPARTMENT              (12/17/96)
2 RECOMMENDATIONS
                                OF EDUCATION,                    1 RECOMMENDATION
UNRESOLVED
                                GOVERNMENT OF THE                UNRESOLVED
                                VIRGIN ISLANDS (9112195)
U.S. Virgin Islands             1 RECOMMENDATION                 97-I-243 WORKMEN’S
                                UNRESOLVED                       COMPENSATION
91-I-467 FOLLOWUP OF                                             PROGRAM, GOVERNMENT
RECOMMENDATIONS                                                  OF THE VIRGIN ISLANDS
CONTAINED IN REPORT ON                                           ( 12130196)
THE ROAD FUND,                                                   15 RECOMMENDATIONS
GOVERNMENT OF THE                                                AND $2,530,000
VIRGIN ISLANDS (2/19/91)                                         UNRESOLVED
1 RECOMMENDATION
UNRESOLVED



            Semiannual Report to the Congress: October 1,1997 - March 3 1,1998            53
97-E-279 ACCOUNTING            97-I-936 NATIONAL PARK           INSULAR AREAS
CONTROLS FOR DISASTER          SERVICE FINANCIAL
ASSISTANCE FUNDS,              STATEMENTS FOR FISCAL            Republic of the Marshall
VIRGIN ISLANDS WATER           YEARS 1995 AND 1996
AND POWER AUTHORITY            (6113197)
                                                                Islands
(i/7/97)                       3 RECOMMENDATIONS
                                                                95-E-951 GRANT AND
3 RECOMMENDATIONS              UNRESOLVED
UNRESOLVED                                                      TRUST FUNDS PROVIDED
                                                                FOR THE RONGELAP
                               97-I-1304 SERVICEWIDE
                                                                RESETTLEMENT PROJECT,
MINERALS                       MEDIA PROGRAM,
                                                                REPUBLIC OF THE
MANAGEMENT                     NATIONAL PARK SERVICE
                                                                MARSHALL ISLANDS
                               (9130197)
SERVICE                                                         (5122195) $2 15,960
                               6 RECOMMENDATIONS
                                                                UNRESOLVED
                               AND $204,000 UNRESOLVED
96-I-1255 SELECTED
ACTIVITIES OF THE                                               NATIONAL PARR
ROYALTY MANAGEMENT             CONTRACT AND
                                                                SERVICE
SYSTEM, MINERALS               GRANT AUDITS
MANAGEMENT SERVICE                                              97-E-589 RESERVE
(9130196)                      BUREAU OF INDIAN                 CONSTRUCTION COMPANY,
3 RECOMMENDATIONS                                               INC., COST PROPOSAL
AND $3,860,000
                               AFFAIRS
                                                                SUBMITTED TO THE
UNRESOLVED                                                      NATIONAL PARK SERVICE
                               94-E-784 COSTS CLAIMED
                               BY DIVERSIFIED BUSINESS          UNDER SOLICITATION
MULTI-OFFICE                   TECHNOLOGIES                     NO. 1443CX500095905
                               CORPORATION UNDER                (3110197) $163,076
97-I-l 293 VALUE               CONTRACT NO. CBM000047           UNRESOLVED
ENGINEERING PROGRAM,           (6110194) $825,170
DEPARTMENT OF THE              UNRESOLVED (Circumstances        U.S. FISH AND
INTERIOR (9/29/97)             beyond the Bureau k control
4 RECOMMENDATIONS
                                                                WILDLIFE SERVICE
                               have delayed resolution of the
UNRESOLVED                     costs.)                          97-E-100 U.S. FISH AND
                                                                WILDLIFE SERVICE
NATIONAL PARR                  94-E-919 COSTS CLAIMED           WILDLIFE AND SPORT FISH
SERVICE                        BY DIVERSIFIED BUSINESS          RESTORATION GRANTS TO
                               TECHNOLOGIES                     CONNECTICUT, TWO
96-I-806 EMERGENCY             CORPORATION UNDER                FISCAL YEARS ENDED
MEDICAL AND SEARCH             CONTRACT NO. CBMOOO147           JUNE 30, 1995 (10/30/96)
AND RESCUE SERVICES,           (6130194) $247,414               6 RECOMMENDATIONS
NATIONAL PARK SERVICE          UNRESOLVED (Circumstances        AND $1,750,514
(6110196)                      beyond the Bureau’s control      UNRESOLVED
2 RECOMMENDATIONS              have delayed resolution of the
AND $4,501,000                 costs.)
UNRESOLVED

97-I-908 AUTOMATED LAW
ENFORCEMENT SYSTEM,
NATIONAL PARK SERVICE
(6123197)
2 RECOMMENDATIONS
UNRESOLVED


54         Semiannual Report to the Congress: October 1,1997 - March 3 1,1998
96-E-1254 U.S. FISH AND             INSULAR AREAS                    93-A-l 10 MARIANA
WILDLIFE SERVICE                                                     ISLANDS HOUSING
FEDERAL AID GRANTS TO               Commonwealth of the              AUTHORITY, FISCAL YEAR
THE STATE OF FLORIDA’S                                               ENDED SEPTEMBER 30,199O
                                    Northern Mariana                 ( 10126192)
DEPARTMENT OF
ENVIRONMENTAL                       Islands                          i RECOMMENDATION AND
PROTECTION FOR TWO                                                   $124,450 UNRESOLVED
FISCAL YEARS ENDED                  91-A-731 COMMONWEALTH
JUNE 30, 1996 (9118197)             UTILITIES CORPORATION,           93-A-225 MARIANA
1 RECOMMENDATION                    FISCAL YEAR ENDED                ISLANDS HOUSING
UNRESOLVED                          SEPTEMBER 30,1988                AUTHORITY, FISCAL YEAR
                                    (412619 1)                       ENDED SEPTEMBER 30,199l
U.S. GEOLOGICAL                     12 RECOMMENDATIONS               (1 l/19/92)
                                    AND $6,087,882                   1 RECOMMENDATION AND
SURVEY                              UNRESOLVED                       $1,119,337 UNRESOLVED
93-E-339 TGS                        91-A-803 MARIANA                 93-A-l 563
TECHNOLOGY, INC.,                   ISLANDS HOUSING                  COMMONWEALTH
CLOSING STATEMENT                   AUTHORITY, FISCAL YEAR           DEVELOPMENT
(12122192) $520,235                 ENDED SEPTEMBER 30,1986          AUTHORITY, FISCAL YEAR
UNRESOLVED                          (51719 1)                        ENDED SEPTEMBER 30,1988
                                     1 RECOMMENDATION AND            (9/l 3193)
SINGLE AUDITS                       $1,537,321 UNRESOLVED            52 RECOMMENDATIONS
                                                                     AND $4,998,398
BUREAU OF INDIAN                    91-A-823 MARIANA                 UNRESOLVED
                                    ISLANDS HOUSING
AFFAIRS
                                    AUTHORITY, FISCAL YEAR           94-A-525 COMMONWEALTH
                                    ENDED SEPTEMBER 30,1987          DEVELOPMENT
96-A-l 122 NORTHWESTERN
                                    (5/10/91)                        AUTHORITY, FISCAL YEAR
BAND OF THE SHOSHONI
                                    1 RECOMMENDATION AND             ENDED SEPTEMBER 30,1989
NATION, FISCAL YEAR
                                    $455,857 UNRESOLVED              (4115194)
ENDED DECEMBER 30,1994
(08/l 5196)                                                          45 RECOMMENDATIONS
                                    91-A-824 MARIANA                 AND $6,078,308
1 RECOMMENDATION
                                    ISLANDS HOUSING                  UNRESOLVED
UNRESOLVED (Circumstances
                                    AUTHORITY, FISCAL YEAR
beyond the Bureau’s control
                                    ENDED SEPTEMBER 30,1988          94-A-574 COMMONWEALTH
have delayed resolution of the
                                    (5/10/91)                        UTILITIES CORPORATION,
recommendation.)
                                    1 RECOMMENDATION AND             FISCAL YEAR ENDED
                                    $196,593 UNRESOLVED              SEPTEMBER 30, 1990 (516194)
BUREAU OF LAND
                                                                     61 RECOMMENDATIONS
MANAGEMENT                          92-A-l 179 MARIANA               AND !§ 166,509 UNRESOLVED
                                    ISLANDS HOUSING
97-A-847 UTAH, FISCAL               AUTHORITY,                       94-A-818 COMMONWEALTH
YEAR ENDED JUNE 30,1994             FISCAL YEAR ENDED                UTILITIES CORPORATION,
(512 l/97)                          SEPTEMBER 30,1989                FISCAL YEAR ENDED
1 RECOMMENDATION                    (8113192)                        SEPTEMBER 30,199 1
UNRESOLVED                          1 RECOMMENDATION AND             (6/l 6194)
                                    $168,711 UNRESOLVED              42 RECOMMENDATIONS
                                                                     UNRESOLVED




                Semiannual Report to the Congress: October 1,1997 - March 3 1,1998            55
94-A-836 COMMONWEALTH           Federated States of              94-A-374 STATE OF CHUUK,
OF THE NORTHERN                 Micronesia                       FEDERATED STATES OF
MARIANA ISLANDS, FISCAL                                          MICRONESIA, FISCAL YEAR
YEAR ENDED                      95-A-1043 FEDERATED              ENDED SEPTEMBER 30,1992
SEPTEMBER 30, 1993              STATES OF MICRONESIA             (2128194)
(6120194)                       NATIONAL GOVERNMENT,             15 RECOMMENDATIONS
59 RECOMMENDATIONS              FISCAL YEAR ENDED                UNRESOLVED
UNRESOLVED                      SEPTEMBER 10, 1993
                                (6127195)                        Kosrae
94-A-1075 NORTHERN              10 RECOMMENDATIONS
MARIANAS COLLEGE,               UNRESOLVED                       94-A-367 STATE OF
COMMONWEALTH OF THE                                              KOSRAE, FEDERATED
NORTHERN MARIANA                96-A-482 FEDERATED               STATES OF MICRONESIA,
ISLANDS, FISCAL YEAR            STATES OF MICRONESIA,            FISCAL YEAR ENDED
ENDED SEPTEMBER 30,199 1        STATUS OF NATIONAL               SEPTEMBER 30,1992
(7129194)                       GOVERNMENT, FISCAL               (2124194)
30 RECOMMENDATIONS              YEAR ENDED                       9 RECOMMENDATIONS
AND $4,600 UNRESOLVED           SEPTEMBER 30, 1994               UNRESOLVED
                                (2129196)
94-A-l 083 MARIANA              19 RECOMMENDATIONS               Pohnpei
ISLANDS HOUSING                 AND $57,900 UNRESOLVED
AUTHORITY, FISCAL YEAR                                           91-A-398 POHNPEI STATE
ENDED SEPTEMBER 30,1993         97-A-244 FEDERATED               GOVERNMENT, FISCAL
(813194)                        STATES OF MICRONESIA             YEAR ENDED
5 RECOMMENDATIONS               NATIONAL GOVERNMENT,             SEPTEMBER 30, 1989 (214191)
UNRESOLVED                      FISCAL YEAR ENDED                1 RECOMMENDATION AND
                                SEPTEMBER 30,1995                $98,216 UNRESOLVED
95-A-784 COMMONWEALTH           (12123196)
PORTS AUTHORITY,                22 RECOMMENDATIONS               94-A-527 STATE OF
FISCAL YEAR ENDED               AND $166,523 UNRESOLVED          POHNPEI, FEDERATED
SEPTEMBER 30, 1994                                               STATES OF MICRONESIA,
(4112195)                                                        FISCAL YEAR ENDED
                                Chuuk
10 RECOMMENDATIONS                                               SEPTEMBER 30,1992
UNRESOLVED                                                       (4119194)
                                91-A-505 CHUUK STATE
                                GOVERNMENT, FISCAL               21 RECOMMENDATIONS
97-A-851 NORTHERN                                                AND $2,764 UNRESOLVED
                                YEAR ENDED
MARIANAS COLLEGE,
                                SEPTEMBER 30,1989
FISCAL YEAR ENDED
                                (212019 1)                       Yap
SEPTEMBER 30,1993
                                 1 RECOMMENDATION AND
(5116197)
                                $665,8 17 UNRESOLVED             94-A-371 STATE OF YAP,
36 RECOMMENDATIONS
                                                                 FEDERATED STATES OF
UNRESOLVED
                                92-A-519 CHUUK STATE             MICRONESIA, FISCAL YEAR
                                GOVERNMENT, FISCAL               ENDED SEPTEMBER 30,1992
                                YEAR ENDED                       (2125194)
                                SEPTEMBER 30,199O                22 RECOMMENDATIONS
                                (2125192)                        UNRESOLVED
                                1 RECOMMENDATION AND
                                $1,940,938 UNRESOLVED




56          Semiannual Report to the Congress: October 1,1997 - March 3 1, 1998
Guam                           93-A-1053 PALAU                  U.S. Virgin Islands
                               COMMUNITY ACTION
                               AGENCY, FISCAL YEAR              92-A-107 VIRGIN ISLANDS
97-A-514 GOVERNMENT OF         ENDED SEPTEMBER 30,199 1
GUAM, FISCAL YEAR                                               WATER AND POWER
                               (5/l 1193)                       AUTHORITY (10/16/91)
ENDED SEPTEMBER 30, 1995       12 RECOMMENDATIONS
(212 1197)                                                      3 RECOMMENDATIONS
                               UNRESOLVED                       UNRESOLVED
106 RECOMMENDATIONS
UNRESOLVED                     93-A-1629 REPUBLIC OF            93-A-177 UNIVERSITY OF
                               PALAU, FISCAL YEAR               THE VIRGIN ISLANDS, TWO
Republic of the Marshall       ENDED SEPTEMBER 30,199O          FISCAL YEARS ENDED
Islands                        (9130193)                        SEPTEMBER 30, 1991
                               1 RECOMMENDATION AND             (1 l/5/92)
96-A-104 REPUBLIC OF THE       $40 1,843 UNRESOLVED             4 RECOMMENDATIONS
MARSHALL ISLANDS,                                               UNRESOLVED
FISCAL YEAR ENDED              94-A-499 REPUBLIC OF
SEPTEMBER 30, 1994             PALAU, FISCAL YEAR               96-A-1144 GOVERNMENT
(1 l/l/95)                     ENDED SEPTEMBER 30,199 1         OF THE VIRGIN ISLANDS,
75 RECOMMENDATIONS             (416194)                         TWO FISCAL YEARS ENDED
AND $1,068,317                 11 RECOMMENDATIONS               SEPTEMBER 30,199O
UNRESOLVED                     AND $517,693 UNRESOLVED          (8120196)
                                                                16 RECOMMENDATIONS
97-A-1272 REPUBLIC OF           94-A-882 REPUBLIC OF            UNRESOLVED
THE MARSHALL ISLANDS,           PALAU, FISCAL YEAR
FISCAL YEAR ENDED               ENDED SEPTEMBER 30,1992         NATIONAL PARR
SEPTEMBER 30,1996               (6127194)
                                                                SERVICE
(9123197)                       37 RECOMMENDATIONS
29 RECOMMENDATIONS              AND $4,085 UNRESOLVED
                                                                97-A-1019 ILLINOIS
UNRESOLVED
                                                                HISTORIC PRESERVATION
                                95-A-1395 MICRONESIA
                                                                AGENCY, TWO FISCAL
Republic of Palau               OCCUPATIONAL COLLEGE,
                                                                YEARS ENDED JUNE 30,
                                PALAU, TWO FISCAL
                                                                1996 (7110197)
92-A-368 PALAU                  YEARS ENDED
                                                                1 RECOMMENDATION
COMMUNITY ACTION                SEPTEMBER 30,1992
                                                                UNRESOLVED
AGENCY, FISCAL YEAR             (9128195)
ENDED SEPTEMBER 30,199O         6 RECOMMENDATIONS
                                UNRESOLVED                       U.S. FISH AND
(l/24/92)
1 RECOMMENDATION AND
                                                                 WILDLIFE SERVICE
$2,593 UNRESOLVED               Trust Territory of the
                                                                 97-A-843 NATIONAL
                                Pacific Islands
92-A-885 REPUBLIC OF                                             TROPICAL BOTANICAL
PALAU, FISCAL YEAR                                               GARDEN, FISCAL YEAR
                                91-A-1 112 TRUST
ENDED SEPTEMBER 30,1989                                          ENDED DECEMBER 3 1,1995
                                TERRITORY OF THE
(615192)                                                         (5/l 5197)
                                PACIFIC ISLANDS, FISCAL
1 RECOMMENDATION AND                                             5 RECOMMENDATIONS
                                YEAR ENDED
$40,262 UNRESOLVED                                               UNRESOLVED
                                SEPTEMBER 30,199O
                                (713 1191)
                                1 RECOMMENDATION AND
                                $437,482 UNRESOLVED




            Semiannual Report to the Congress: October 1,1997 - March 3 1,1998         57
97-A-848 WYOMING,                97-A-1270 ALASKA, FISCAL
FISCAL YEAR ENDED                YEAR ENDED JUNE 30, 1996
JUNE 30, 1995 (5121197)          (9123197)
2 RECOMMENDATIONS                1 RECOMMENDATION
UNRESOLVED                       UNRESOLVED

97-A-954 NEW MEXICO
DEPARTMENT OF GAME
AND FISH, FISCAL YEAR
ENDED JUNE 30,1996
(6119197)
20 RECOMMENDATIONS
AND $30,740 UNRESOLVED

97-A-993 VIRGINIA, FISCAL
YEAR ENDED JUNE 30,1995
(818197)
2 RECOMMENDATIONS
UNRESOLVED

97-A-1119 HAWAII
DEPARTMENT OF LAND
NATURAL RESOURCES,
FISCAL YEAR ENDED
JUNE 30, 1996 (8114197)
16 RECOMMENDATIONS
UNRESOLVED

97-A-1180 WISCONSIN,
FISCAL YEAR ENDED
JUNE 30, 1995 (915197)
3 RECOMMENDATIONS
AND $26,4 10 UNRESOLVED

97-A-1206 SOUTH DAKOTA,
FISCAL YEAR ENDED
JUNE 30, 1996 (9/10/97)
3 RECOMMENDATIONS
AND $7,465 UNRESOLVED

97-A-1241 SOUTH
CAROLINA, FISCAL YEAR
ENDED JUNE 30,1996
(9117197)
2 RECOMMENDATIONS
UNRESOLVED




58           Semiannual Report to the Congress: October 1,1997 - March 3 1,1998
                                                          APPENDIX 7

     SUMMARY OF INTERNAL AUDIT REPORTS OVER 6 MONTHS
             OLD PENDING CORRECTIVE ACTION

      This is a listing of internal audit reports with management decisions over 6 months old for which corrective action has not been
      completed. It provides report number, title, issue date, and the number of recommendations without final corrective action.
      These audits continue to be monitored by the Focus Leader for Management Control and Audit Followup, Assistant
      Secretary - Policy, Management and Budget, for completion of corrective action. Note: The insular area reports contain
      recommendations made specifically to the insular area governors and other territorial offkials, who do not report to the
      Secretary and are not subject to the palicy.y, guidance, and administrative oversight established by the Assistant Secretary -
      Pohcy, Management and Budget.



BUREAU OF INDIAN                                 97-I-771 GENERAL                                     95-I-379 FOLLOWUP
AFFAIRS                                          CONTROLS OVER                                        OF RECOMMENDATIONS
                                                 AUTOMATED                                            RELATING TO BUREAU OF
                                                 INFORMATION SYSTEMS,                                 LAND MANAGEMENT USER
95-I-598 BUREAU OF                               OPERATIONS SERVICE                                   CHARGES FOR
INDIAN AFFAIRS                                   CENTER, BUREAU OF                                    MINERAL-RELATED
PRINCIPAL FINANCIAL                              INDIAN AFFAIRS (4/30/97)                             DOCUMENT PROCESSING
STATEMENTS FOR FISCAL                            12 RECOMMENDATIONS                                   (l/23/95)
YEARS 1993 AND 1994                                                                                   2 RECOMMENDATIONS
(2128195)                                        97-I-834 BUREAU OF
2 RECOMMENDATIONS                                INDIAN AFFAIRS                                       95-I-638 ONSHORE OIL AND
                                                 CONSOLIDATED                                         GAS LEASING ACTMTIES,
95-I-1402 WAPATO                                 FINANCIAL STATEMENTS                                 BUREAU OF LAND
IRRIGATION PROJECT,                              FOR FISCAL YEARS 1995                                MANAGEMENT (3/20/95)
BUREAU OF INDIAN                                 AND 1996 (519197)                                    2 RECOMMENDATIONS
AFFAIRS (9130195)                                3 RECOMMENDATIONS
6 RECOMMENDATIONS                                                                                     95-I-747 RIGHT-OF-WAY
                                                 97-I-l 166 OPERATION AND                             GRANTS, BUREAU OF LAND
96-I-641 REVIEW OF                               MAINTENANCE OF                                       MANAGEMENT (313 l/95)
INDIAN IRRIGATION                                GOVERNMENT FURNISHED                                 8 RECOMMENDATIONS
PROJECTS, BUREAU OF                              QUARTERS, EASTERN
INDIAN AFFAIRS (3129196)                         NAVAJO AND FORT                                      96-I-638 INSPECTION OF
13 RECOMMENDATIONS                               DEFIANCE AREA OFFICES,                               SELECTED
                                                 BUREAU OF INDIAN                                     ADMINISTRATIVE
96-I-1266 ADMINISTRATION                         AFFAIRS (9/l 5197)                                   ACTIVITIES, COLORADO
OF DELINQUENT LOANS BY                           1 RECOMMENDATION                                     STATE OFFICE, BUREAU OF
THE PHOENIX AREA                                                                                      LAND MANAGEMENT
OFFICE, BUREAU OF                                                                                     (3129196)
                                                 BUREAU OF LAND
INDIAN AFFAIRS (9130196)                                                                              2 RECOMMENDATIONS
1 RECOMMENDATION                                 MANAGEMENT
                                                                                                      96-I-1025 NEVADA LAND
97-I-504 DIRECT AND                              92-I-828 ONSHORE
                                                 GEOPHYSICAL                                          EXCHANGE ACTIVITIES,
GUARANTEED LOAN                                                                                       BUREAU OF LAND
PROGRAMS, EASTERN                                EXPLORATION PROGRAM
                                                 (5126192)                                            MANAGEMENT (7/l 5196)
AREA OFFICE, BUREAU OF                                                                                3 RECOMMENDATIONS
INDIAN AFFAIRS (3110197)                         2 RECOMMENDATIONS
1 RECOMMENDATION

                Semiannual Report to the Congress: October 1,1997 - March 3 1,1998                                                       59
96-I-1265 OCCUPANCY            92-I-1151 REVIEW OF THE           95-I-l 204 FINANCIAL
TRESPASS RESOLUTION,           COST ALLOCATION FOR               MANAGEMENT OF THE
BUREAU OF LAND                 THE CENTRAL ARIZONA               COLUMBIA BASIN
MANAGEMENT (9/30/96)           PROJECT (8/l 7192)                PROJECT, PACIFIC
2 RECOMMENDATIONS              5 RECOMMENDATIONS                 NORTHWEST REGION
                               (Final action is pending          (8122195)
97-I-375 EXPENDITURES          outcome of litigation.)           1 RECOMMENDATION
CHARGED TO THE WILD
HORSE AND BURRO                93-I-577 PROPOSED                 95-I-1376 FOLLOWUP OF
PROGRAM, BUREAU OF             DEFERRAL OF NOTICE OF             RECOVERY OF OPERATION
LAND MANAGEMENT                SUBSTANTIAL                       AND MAINTENANCE
(217197)                       COMPLETION OF THE                 PROGRAM EXPENSES
2 RECOMMENDATIONS              CENTRAL ARIZONA                   (9129195)
                               PROJECT (2119193)                 1 RECOMMENDATION
97-I-l 104 MANAGEMENT          3 RECOMMENDATIONS
OF HERD LEVELS, WILD           (Final action is pending          95-I-1383 RECOVERY OF
HORSE AND BURRO                outcome of litigation.)           OPERATION AND
PROGRAM, BUREAU OF                                               MAINTENANCE COSTS,
LAND MANAGEMENT                93-I-81 0 IMPLEMENTATION          COLUMBIA BASIN PROJECT
(8112197)                      OF THE COLORADO RIVER             (9129195)
2 RECOMMENDATIONS              BASIN SALINITY CONTROL            2 RECOMMENDATIONS
                               PROGRAM (313 1193)
97-I-l 299 RECREATION          3 RECOMMENDATIONS                96-I-313 AWARD AND
MANAGEMENT, BUREAU                                              ADMINISTRATION OF
OF LAND MANAGEMENT             93-I-l 641 PICK-SLOAN            CONTRACT
(9130197)                      MISSOURI RIVER BASIN             NO. 1425-2-CC-40- 12260
4 RECOMMENDATIONS              PROGRAM COST                     WITH ENVIRONMENTAL
                               ALLOCATION (9/30/93)             CHEMICAL CORPORATION
BUREAU OF                      5 RECOMMENDATIONS                RELATED TO THE
                                                                SUMMITVILLE MINE SITE
RECLAMATION
                               94-I-884 DEVELOPMENT             CLEANUP, BUREAU OF
                               STATUS OF THE DOLORES            RECLAMATION (3/l 4196)
91-I-1445
                               AND THE                          1 RECOMMENDATION
IMPLEMENTATION OF THE
                               ANIMAS-LA PLATA
FEDERAL FINANCIAL
                               PROJECTS (7/l 1194)              96-I-644 WORKING
SYSTEM (9130191)
                               1 RECOMMENDATION                 CAPITAL FUND, BUREAU
2 RECOMMENDATIONS
                                                                OF RECLAMATION (3129196)
                               94-I-930 IRRIGATION OF           1 RECOMMENDATION
92-I-887 MISCELLANEOUS
                               INELIGIBLE LANDS (7/l 1194)
REVENUE COLLECTION
                               3 RECOMMENDATIONS                97-I-683 MAINFRAME
AND DISTRIBUTION
                                                                COMPUTER POLICIES AND
(6112192)
                               95-I-870 RECREATION              PROCEDURES,
2 RECOMMENDATIONS
                               MANAGEMENT ACTIVITIES            ADMINISTRATIVE SERVICE
                               AT SELECTED SITES                CENTER, BUREAU OF
92-I-1128 REPAYMENT OF
                               (5117195)                        RECLAMATION (313 1197)
MUNICIPAL AND
                               2 RECOMMENDATIONS                2 RECOMMENDATIONS
INDUSTRIAL WATER
SUPPLY INVESTMENT
COSTS (8113192)
1 RECOMMENDATION




60         Semiannual Report to the Congress: October 1,1997 - March 3 1, 1998
97-I-937 BUREAU OF              Republic of Palau               94-I-248 PROPERTY
RECLAMATION FINANCIAL                                           MANAGEMENT
STATEMENTS FOR FISCAL           92-I-1368 BILLINGS AND          FUNCTIONS, POLICE
YEARS 1995 AND 1996             COLLECTIONS OF THE              DEPARTMENT,
(6113197)                       REPUBLIC OF PALAU’S             GOVERNMENT OF THE
2 RECOMMENDATIONS               GROSS REVENUE TAX               VIRGIN ISLANDS ( 1124194)
                                (9128192)                       1 RECOMMENDATION
INSULAR AREAS                   3 RECOMMENDATIONS
                                                                95-I-52 SELECTED
                                U.S. Virgin Islands             ADMINISTRATIVE
American Samoa
                                                                FUNCTIONS, ST. CROIX
                                                                INTERIM HOSPITAL,
96-I-533 AMERICAN               91-1-l 188 SECURITY AND
                                                                GOVERNMENT OF THE
SAMOA LEGISLATURE,              MAINTENANCE OF
                                                                VIRGIN ISLANDS ( 1013 1194)
AMERICAN SAMOA                  CORRECTIONAL
                                                                2 RECOMMENDATIONS
GOVERNMENT (3122196)            FACILITIES, GOVERNMENT
8 RECOMMENDATIONS               OF THE VIRGIN ISLANDS
                                                                97-I-257 SMALL BUSINESS
                                (8129191)
                                                                DEVELOPMENT AGENCY,
Commonwealth of the             16 RECOMMENDATIONS
                                                                GOVERNMENT OF THE
Northern Mariana                                                VIRGIN ISLANDS (ill 5197)
                                91-I-1431 FOLLOWUP OF
Islands                                                         4 RECOMMENDATIONS
                                AUDIT OF THE
                                GOVERNMENT
94-I-1323 UTILITIES RATE                                        97-I-590 SUPPLEMENTAL
                                EMPLOYEES’ RETIREMENT
STRUCTURE,                                                      FOOD PROGRAM FOR
                                SYSTEM, GOVERNMENT OF
COMMONWEALTH OF THE                                             WOMEN, INFANTS AND
                                THE VIRGIN ISLANDS
NORTHERN MARIANA                                                CHILDREN, DEPARTMENT
                                (913019 1)
ISLANDS (9130194)                                               OF HEALTH, GOVERNMENT
                                1 RECOMMENDATION
3 RECOMMENDATIONS                                               OF THE VIRGIN ISLANDS
                                                                (3124197)
                                92-I-90 PRISON
95-I-l 06 CONTRACTING                                           1 RECOMMENDATION
                                OVERCROWDING, BUREAU
AND CONTRACT                    OF CORRECTIONS ( 1 O/28/9 1)
ADMINISTRATION,                 5 RECOMMENDATIONS               MINERALS
COMMONWEALTH                                                    MANAGEMENT
UTILITIES CORPORATION,          92-I-688 COSTS INCURRED         SERVICE
COMMONWEALTH OF THE             BY THE
NORTHERN MARIANA                DEJONGHWILLIAMS JOINT           92-I-130 OFFSHORE
ISLANDS (1 l/14/94)             VENTURE ON THE VIRGIN           INSPECTION PROGRAM
5 RECOMMENDATIONS               ISLANDS CAPITAL                 (11/12/91)
                                IMPROVEMENT PROGRAM             1 RECOMMENDATION
Guam                            (313 1192)
                                10 RECOMMENDATIONS              92-I-657 GAS CONTRACT
92-I-1360 GOVERNMENT OF                                         SETTLEMENTS (3130192)
GUAM RETIREMENT FUND                                            1 RECOMMENDATION
(9/l 8192)
7 RECOMMENDATIONS                                               97-I-1042 ROYALTY
                                                                MANAGEMENT
                                                                PROGRAM’S AUTOMATED
                                                                INFORMATION SYSTEMS,
                                                                MINERALS MANAGEMENT
                                                                SERVICE (713 1197)
                                                                5 RECOMMENDATIONS

            Semiannual Report to the Congress: October 1,1997 - March 3 1,1998              61
 MULTI-OFFICE                   94-I-l 2 11 CONCESSIONS          OFFICE OF THE
                                MANAGEMENT
                                IMPROVEMENT (9126194)
                                                                 SPECIAL TRUSTEE FOR
 92-I-140 COMPLIANCE WITH
 THE FEDERAL MANAGERS’          1 RECOMMENDATION                 AMERICAN INDIANS
 FINANCIAL INTEGRITY ACT
 OF 1982 FOR FISCAL YEAR        96-I-49 SPECIAL USE FEES,       97-I-196 STATEMENT OF
 199 1, BUREAU OF LAND          NATIONAL PARK SERVICE           ASSETS AND TRUST FUND
 MANAGEMENT (11/18/91)          ( 10127195)                     BALANCES AT
 1 RECOMMENDATION               1 RECOMMENDATION                SEPTEMBER 30,1995, OF THE
                                                                TRUST FUNDS MANAGED BY
96-I-1264 NEGOTIATED           97-I-515 OVERSIGHT OF            THE OFFICE OF TRUST FUNDS
ROYALTY SETTLEMENTS,           CONCESSIONS OPERATIONS           MANAGEMENT (12/13/96)
MINERALS MANAGEMENT            AND FEE PAYMENTS, GUEST          16 RECOMMENDATIONS
SERVICE (9/30/96)              SERVICES, INC., AND ROCK
2 RECOMMENDATIONS              CREEK PARK HORSE CENTRE,         97-I-l 167 JUDGMENT FUNDS
                               INC., NATIONAL PARK              AWARDED TO THE TURTLE
96-I-1267 INSPECTION AND       SERVICE (2/28/97)                MOUNTAIN BAND OF
ENFORCEMENT PROGRAM            1 RECOMMENDATION                 CHIPPEWA INDIANS (9122197)
AND SELECTED RELATED                                            1 RECOMMENDATION
ACTIVITIES, BUREAU OF          OFFICE OF SURFACE
LAND MANAGEMENT                                                 97-I-l 168 JUDGMENT FUNDS
                               MINING                           AWARDED TO THE NAVAJO
(9/30/96)
                               RECLAMATION AND                  NATION (9122197)
11 RECOMMENDATIONS
                               ENFORCEMENT                      1 RECOMMENDATION
96-I-l 268 WITHDRAWN
LANDS, DEPARTMENT OF           97-I-1303 FEE COMPLIANCE         97-I-l 169 JUDGMENT FUNDS
THE INTERIOR (9130196)         PROGRAM, OFFICE OF               AWARDED TO THE PAPAGO
2 RECOMMENDATIONS              SURFACE MINING                   TRIBE OF ARIZONA (9/l 5/97)
                               RECLAMATION AND                  2 RECOMMENDATIONS
97-I-548 ADMINISTRATIVELY      ENFORCEMENT (9130197)
UNCONTROLLABLE                 1 RECOMMENDATION                 U.S. FISH AND
OVERTIME, DEPARTMENT OF                                         WILDLIFE SERVICE
THE INTERIOR (2/27/97)         OFFICE OF THE
2 RECOMMENDATIONS              SECRETARY                        93-I-864 AUTOMATED DATA
                                                                PROCESSING MANAGEMENT
NATIONAL PARR                  97-I-769 FINANCIAL               (313 1193)
SERVICE                        MANAGEMENT ACTIVITIES            1 RECOMMENDATION
                               OF THE NATIONAL INDIAN
92-I-204 NATIONAL              GAMING COMMISSION               94-I-62 LAW ENFORCEMENT
NATURAL LANDMARKS              (4128197)                       SPECIAL FUNDS, U.S. FISH
PROGRAM ( 121519 1)            4 RECOMMENDATIONS               AND WILDLIFE SERVICE
4 RECOMMENDATIONS                                              (1 i/8/93)
                                                               1 RECOMMENDATION
93-I-l 615 RECREATIONAL
ASSISTANCE PROVIDED TO                                         94-I-408 FARMING
STATE AND LOCAL                                                OPERATIONS CONDUCTED
GOVERNMENTS (9130193)                                          BY THE U.S. FISH AND
1 RECOMMENDATION                                               WILDLIFE SERVICE (312 1194)
                                                               1 RECOMMENDATION




62         Semiannual Report to the Congress: October 1, 1997 - March 3 1, 1998
95-I-376 CONCESSION FEES,
U.S. FISH AND WILDLIFE
SERVICE (l/17/95)
1 RECOMMENDATION

97-I-l 112 ADMINISTRATION
OF GRANTS AWARDED
UNDER THE NORTH
AMERICAN WETLANDS
CONSERVATION ACT,
U.S. FISH AND WILDLIFE
SERVICE (8129197)
2 RECOMMENDATIONS

97-I-1302 PARTNERS FOR
WILDLIFE HABITAT
RESTORATION PROGRAM,
U.S. FISH AND WILDLIFE
SERVICE (9129197)
5 RECOMMENDATIONS

97-I-1305 AUTOMATED LAW
ENFORCEMENT SYSTEM,
U.S. FISH AND WILDLIFE
SERVICE (9130197)
6 RECOMMENDATIONS

U.S. GEOLOGICAL
SURVEY

96-I-1239 INVENTORY
MANAGEMENT AND
VALUATION, NATIONAL
MAPPING DIVISION,
U.S. GEOLOGICAL SURVEY
(9130196)
2 RECOMMENDATIONS

97-I-98 GENERAL CONTROL
ENVIRONMENT OF THE
FEDERAL FINANCIAL
SYSTEM AT THE RESTON
GENERAL PURPOSE
COMPUTER CENTER ( 1 O/3 l/96)
2 RECOMMENDATIONS

97-I-927 U.S. GEOLOGICAL
SURVEY FINANCIAL
STATEMENTS FOR FISCAL
YEAR 1996 (6112197)
9 RECOMMENDATIONS


             Semiannual Report to the Congress: October 1,1997 - March 3 1,1998   63
                                              APPENDIX 8
          STATUTORY AND ADMINISTRATIVE RESPONSIBILITIES
The Inspector General Act of 1978 (Public Law 950452), as amended, sets forth specific requirements for
semiannual reports to be made to the Secretary for transmittal to the Congress. A selection of other statutory
and administrative responsibilities and criminal and civil investigative authorities of the OIG follows:

                                    Statutory Audit Responsibilities

Statutory audit resDonsibilities include:

P.L. 96-5 10         Comprehensive Environmental Response, Compensation and Liability Act of 1980
                       (Superfund)
P.L.   97-357        Insular Areas Act of 1982
P.L.   97-45 1       Federal Oil and Gas Royalty Management Act of 1982
P.L.   98-502        Single Audit Act of 1984
P.L.   99-499        Superfund Amendments and Reauthorization Act of 1986
P.L.   101-576       Chief Financial Officers Act of 1990
P.L.   103-382       Improving American Schools Act of 1994
P.L.   104-208       Federal Financial Management Improvement Act of 1996
P.L.   104-316       General Accounting Office Act of 1996, Section 108, To Require DOI-OIG
                      To Audit the Central Utah Project Cost Allocation

                                    Administrative Responsibilities

Office of Management and Budget Circulars and Bulletin:

       A-50          Audit Followup
       A-76          Performance of Commercial Activities
       A-123         Management Accountability and Control
       A-129         Managing Federal Credit Programs
       A-131         Value Engineering
       A-133         Audits of States, Local Governments, and Non-profit Organizations
       97-o 1        Form and Content of Agency Financial Statements (Bulletin)

                            Criminal and Civil Investigative Authorities

Criminal investigative authorities include:

       - Title 18, United States Code, section on crime and criminal procedures as they pertain to OIG’s
          oversight of DO1 programs and employee misconduct.

Civil and administrative investigative authorities include civil monetarv Denaltv authorities such as:

       - Title 3 1, United States Code, Section 380 1 et seq., the Program Fraud Civil Remedies Act.
       - Title 3 1, United States Code, Section 3729-3733, the False Claims Act.


64               Semiannual Report to the Congress: October 1,1997 - March 3 1, 1998
                                        APPENDIX 9

        CROSS-REFERENCES TO THE INSPECTOR GENERAL ACT

Insnector General Act. as amended                                                  Pane

Section 4(a)(2)         Review of Legislation and Regulations                          8

Section S(a)( 1)        Significant Problems, Abuses, and Deficiencies             1 O-28

Section S(a)(2)         Recommendations With Respect to Significant Problems,      1 O-28
                        Abuses, and Deficiencies

Section S(a)(3)         Summary of Audits From Agency’s Previous Report on         59-63
                        Which Corrective Action Has Not Been Completed

Section S(a)(4)         Matters Referred to Prosecutive Authorities                    V


Section S(a)(S)         Summary of Instances Where Information Was Refused         N/A*

Section S(a)(6)         List of Audit Reports                                      3 O-46

Section S(a)(7)         Summary of Significant Reports                             lo-28

Section S(a)(8)         Statistical Table - Questioned Costs                          49

Section S(a)(9)         Statistical Table - Recommendations That Funds Be             so
                        Put To Better Use

Section S(a)( 10)       Summary of Audit Reports Issued Before the                 52-58
                        Commencement of the Reporting Period for Which
                        No Management Decision Has Been Made

Section S(a)( 11)       Significant Revised Management Decisions Made              N/A”
                        During the Reporting Period

Section S(a)( 12)       Management Decisions With Which the                        N/A*
                        Inspector General Is in Disagreement



*N/A: Not Applicable.



              Semiannual Report to the Congress: October 1,1997 - March 3 1,1998      65
                      GENERAL INFORMATION

Send Requests for Publications to:

 U.S. Department of the Interior           (202) 208-4599
 Office of Inspector General
 1849 C Street, NW
 Mail Stop 5341, MIB
 Washington, D.C. 20240


 Facsimile Number:                         (202) 208-4998



 World Wide Web Site:                     www.access.gpo.gov/doi




 HOTLINE

 Toll Free Numbers:                       l-800-424-508 1
                                          TDD l-800-3 54-0996



 FTS/Commercial Numbers:                  (202) 208-5300
                                          TDD (202) 208-2420

 U.S. Department of the Interior
 Office of Inspector General
 1849 C Street, NW
 Mail Stop 5341, MIB
 Washington, D.C. 20240




         Semiannual Report to the Congress: October 1,1997 - March 31,1998
ILLEGAL OR WASTEFUL ACTIVITIES
SHOULD BE REPORTED TO THE
OFFICE OF INSPECTOR GENERAL BY:


Sending Written Documents to:         Calling:


             Within the Continental United States
Office of Inspector General           Our 24-hour Telephone HOTLINE
1849 C Street, NW                     l-800-424-508 1 or (202) 208-5300
Washington, D.C. 20240
                                      TDD for hearing impaired
                                      l-800-354-0096 or (202) 208-2420



            Outside the Continental United States

                               Caribbean Region
U.S. Department of the Interior       (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 2220 1


                              North Pacific Region
U.S. Department of the Interior      (700) 550-7279 or
Office of Inspector General          COMM 9-O 1 l-67 l-472-7279
North Pacific Region
238 Archbishop EC. Flores Street
Suite 807, PDN Building
Agana, Guam 969 10
                                      -- - _ _ _ - -1 .* _   1

                                                                 .&I




Y




    U.S. DEPARTMENT OF THE INTERIOR
    Office of Inspector General
    1849 C Street, NW
    Washington, D.C. 20240
